AMENDED OPINION*
This opinion is subject to revision before final
publication in the Pacific Reporter

2021 UT 02
IN THE

Supreme Court of the State of Utah
State of Utah,
Respondent,
v.
Lonnie Norton,
Petitioner.
No. 20180514
Heard May 13, 2019
Filed July 13, 2020
Amended Opinion Filed January 7, 2021
On Certiorari to the Utah Court of Appeals
Third District, West Jordan
The Honorable Bruce C. Lubeck
No. 131400015
Attorneys:
Sean D. Reyes, Att'y Gen., Christopher D. Ballard,
Asst. Solic. Gen., Salt Lake City, for respondent
Lori J. Seppi, Salt Lake City, for petitioner
Justice Petersen authored the opinion of the Court with respect
to Parts I-IV in which CHIEF JUSTICE DURRANT,
Associate Chief Justice Lee, Justice Himonas, and
JUSTICE Pearce joined, and wrote separately in Part V in which

* After this opinion issued on July 13, 2020, Norton petitioned
for rehearing. We have considered the arguments in the petition
and address them in amended paragraphs 85-104.

State v. Norton
Opinion of the Court
Associate Chief Justice Lee joined.
Chief JUSTICE Durrant filed an opinion concurring in part and
concurring in the judgment, in which JUSTICE HlMONAS and
Justice Pearce joined.
Justice Petersen, opinion of the Court:
INTRODUCTION
Ifl A jury convicted Lonnie Norton of breaking into the
home where his estranged wife was staying, kidnapping her,
assaulting her, and then raping her—all while she had a
protective order against him. He appealed his convictions and the
court of appeals affirmed. He petitions this court for a review of
each claim he raised before the court of appeals. We affirm on all
but one issue.
BACKGROUND1
1f2 Norton and H.N. had been married for twenty-one years
when H.N. moved out of the marital home with their four
children. She stayed in a domestic violence shelter, then moved
into her parents' home. She obtained a protective order against
Norton, which prohibited him from contacting her except to
discuss marriage counseling and their children. The protective
order permitted Norton to visit his three younger children, but
only if a supervisor was present.
f 3 One evening, H.N.'s three youngest children went to the
marital home for a weekend visitation with Norton. The events of
that night led to Norton's arrest.
f4 At the trial on the resulting charges, both II.N. and
Norton testified. They gave vastly different accounts of what
happened that night.

1 "On appeal, we review the record facts in a light most
favorable to the jury's verdict and recite the facts accordingly."
State v. Holgate, 2000 UT 74, f 2, 10 P.3d 346 (citation omitted).
"We present conflicting evidence only as necessary to understand
issues raised on appeal." Id.
2

Cite as: 2021 UT 02
Opinion of the Court
The Two Conflicting Accounts
H.N.'s Account
f 5 At trial, H.N. testified that before going to bed that night,
she put chairs under the doorknobs of the front and back doors of
her parents' home, as she did each night. She had previously
placed a dryer in front of the basement door, which remained
there. After H.N. went to bed, she was awakened by a "loud
bang." She grabbed the phone and dialed 911 before noticing
Norton standing at the end of her bed. He grabbed the phone and
punched her in the face. Norton also wound duct tape around
H.N.'s head, covering her mouth.
T|6 The next thing H.N. remembered was sitting in Norton's
car at an intersection. Although it was snowing, she did not have
any shoes on. H.N. noticed that Norton had a gun in his lap,
which he picked up and pointed at her. H.N. thought Norton was
driving to his office at the University of Utah, but instead he
drove to a building in Fort Douglas. When they arrived, Norton
was still holding the gun and told H.N. that she "needed to be
quiet or he would shoot [her]."
]j 7 H.N. and Norton went into the building, up some stairs,
and into a bathroom. Norton ripped the duct tape off H.N.'s head
and talked to her about reconciling their marriage. After he
finished talking, Norton told H.N. to take off her shirt. When H.N.
said "no," Norton pointed the gun at her and again told her to
take off her shirt. She finally acquiesced, and Norton squeezed her
breasts.
]f8 Next, Norton led H.N. into an office and told her to take
off her pants. She again said "no," and he again pointed the gun at
her, forcing her to comply. While she did so, Norton undressed,
removed the magazine from the gun, and put the magazine and
gun in a filing cabinet. Then, he told H.N. that they were going to
have sex. She said "no," but Norton responded that "yes" they
were. "So you're going to rape me?" she asked. Norton replied,
"You can't rape somebody that you're married to."
^|9 He then lay on the ground and pulled H.N. on top of
him. He grabbed H.N.'s hands, flipped her so that she was
underneath him, and raped her. While Norton was on top of her,
H.N. grabbed his penis as hard as she could, but was unsure how
hard that was because she has rheumatoid arthritis. In response,
Norton again grabbed her hands and held them over her head.
3

State v. Norton
Opinion of the Court
If 10 After raping H.N., Norton took her into the bathroom. He
told her to rinse off, but she struggled because her hands were
shaking. Norton complained that she "wasn't doing a good
enough job," and inserted his fingers into H.N/s vagina to try to
"rinse himself out" of her. Afterwards, H.N. dried herself off with
paper towels and dressed. She then noticed that Norton was
dressed with the gun in his hand.
|11 Back in the office, Norton set up two chairs so that they
were facing each other and told H.N. to sit. She sat, and Norton
put the gun to his head and threatened to kill himself. H.N. tried
to dissuade him, but Norton pointed the gun at H.N. and
threatened to shoot her, too. Eventually H.N. got mad and told
Norton to "go ahead and shoot himself," at which point he got up
and took her back to the car.
fl2 Norton drove to the marital home. There, H.N. checked
on the children and then convinced Norton to take her back to her
parents' home. When they arrived, Norton entered the house,
leaving only after H.N. told him she would not tell anyone what
had happened.
f 13 After Norton left, H.N. called one of Norton's neighbors
and asked the neighbor to get her children out of the marital
home. H.N. also called 911, told a police officer what happened,
and asked the officer to check on her children. The police arrived
at H.N.'s parents' home, spoke with her, and then drove her to the
hospital.
Norton's Account
f 14 Norton testified at trial and gave a very different version
of these events. He claimed that H.N. told him to visit her over the
weekend so they could discuss their marriage. After their children
were asleep, Norton drove to H.N.'s parents' house to see her.
While driving over, he received a phone call from H.N., which he
missed. He arrived at H.N.'s parents' home and waited outside
until she exited the house and got in the car. Norton said he could
not remember whether H.N. was wearing shoes, but that "she
might have come running out in stocking feet" and he thought he
"gave her a pair of Reeboks to wear."
fl5 H.N. suggested they go to Norton's office to talk. While
driving, Norton decided it would be better to go to a building in
the Fort Douglas area.

4

Cite as: 2021 UT 02
Opinion of the Court
f 16 After arriving at the building, Norton unlocked the door
and proceeded upstairs with H.N. where they sat down and
talked about reconciliation. H.N. said she needed time, and
Norton started talking about when they first met and when they
were first married. H.N. then came over, sat on Norton's lap, put
her arms around him, and the two started kissing. They moved to
the floor where they continued to kiss and touch each other. They
took off their clothes, continued to kiss, and then H.N. "climbed
on top" of Norton and they began "to have sex." Afterwards, they
went into the bathroom where H.N. "rinsed" and "dried herself
off."
f 17 After dressing, Norton and H.N. sat down and continued
to discuss reconciliation. H.N. told Norton she did not want to
live with him anymore. He replied that if they were not going to
reconcile he thought it "would be fair" if they had joint custody of
their children. The two argued, and H.N. slapped Norton and
then he backhanded her. H.N. tried to hit Norton more, but he
grabbed her hands and the two "rastled." H.N. went into the
bathroom, shut the door, and stayed there for about ten minutes.
When H.N. left the bathroom, they went back to the car and she
told Norton she wanted to look in on their children.
^}18 Norton drove to the marital home and they checked on
the children. He then took H.N. back to her parents' home. When
they got there, H.N. told Norton that the door was locked, so he
pushed through a locked gate and went to one of the back doors
and pushed it open. He went inside and opened a different door
to let H.N. into the home. Then, he again brought up having joint
custody of their children. This started another argument. H.N.
then claimed that he had broken into her parents' home and
beaten her up, and she threatened to call the police. Norton got
scared and left. Later that morning, the police came and arrested
him.
District Court Proceedings
Jury Instructions
f 19 The State charged Norton with aggravated kidnapping,
aggravated burglary, aggravated assault, violation of a protective
order, damage to or interruption of a communication device, and
three counts of aggravated sexual assault. The three aggravated
sexual assault charges were based on Norton squeezing H.N.'s
breasts, raping her, and inserting his fingers into her vagina,
respectively. The case proceeded to trial. When it came time to
5

State v. Norton
Opinion of the Court
instruct the jury, Norton asked the court for instructions on a
number of lesser included offenses. The court agreed to some of
these instructions but denied others.
Verdict
|20 On the charge of violation of a protective order and the
two charges of aggravated sexual assault relating to rape and
digital penetration, the jury found Norton guilty as charged. On
the aggravated kidnapping, aggravated burglary, and aggravated
assault charges, the jury found Norton guilty of the lesser
included offenses of kidnapping, burglary, and assault. The jury
acquitted him of interruption of a communication device and
aggravated sexual assault related to squeezing H.N.'s breasts.
Sentencing
f 21 At sentencing, the most serious punishment Norton faced
was for his two convictions of aggravated sexual assault. He made
two arguments to persuade the district court to reject the
presumptive punishment tier of fifteen years to life in favor of a
lower punishment tier.2
Tf22 First, Norton argued that the district court should not
apply the higher sentencing tier applicable to aggravated sexual
assault based on rape and forcible sexual abuse because the jury
had not been given a special verdict form to indicate the type of
sexual assault upon which they relied. Norton observed that the
court had instructed the jury that sexual assault could be based on
rape, attempted rape, forcible sexual abuse, or attempted forcible
sexual abuse. But the court did not provide the jury with a special
verdict form to indicate which underlying sexual assault offense
formed the basis of either conviction.
23 In light of this, Norton argued there was no evidence
these convictions were based on anything more than the least

2 The statutory sentencing range for aggravated sexual assault
varies based on the type of sexual assault involved in the offense.
If the underlying offense is rape or forcible sexual abuse, the
presumptive sentence is fifteen years to life. UTAH CODE
§ 76-5-405(2)(a)(i). If the underlying offense is attempted rape, the
presumptive sentence is ten years to life. Id. § 76-5-405(2)(b)(i).
And if the underlying offense is attempted forcible sexual abuse,
the presumptive sentence is six years to life. Id. § 76-5-405(2)(c)(i).
6

Cite as: 2021 UT 02
Opinion of the Court
serious offense of attempted forcible sexual abuse. So he reasoned
the district court could sentence him only to six years to life, the
sentencing range corresponding to aggravated sexual assault
based on attempted forcible sexual abuse. Utah Code § 76-5405(2)(c)(i). The court rejected this argument and concluded the
presumptive range for the two counts of aggravated sexual
assault should be fifteen years to life, the tier corresponding to
aggravated sexual assault based on completed acts of rape and
forcible sexual abuse. Id. §§ 76-5-405(2)(a)(i), -405(2)(b)(i).
f24 Second, Norton argued that the district court should
depart from the higher sentencing tier in the "interests of justice"
due to his history, distressed state at the time of the crime, and
commitment to improving. The State countered that fifteen years
to life was an appropriate sentence because Norton committed "a
terrible crime" and had never accepted responsibility for his
actions. The court acknowledged that this was a "very difficult
case" and that Norton had a "good past" and might be "entitled
to some mercy." However, the court noted Norton's "inability and
unwillingness to follow the truth" and that his actions were the
"kind of conduct that simply cannot be accepted in our society."
The court sentenced Norton to fifteen years to life in prison on
both counts of aggravated sexual assault, to run concurrently.
^[25 In total, the district court sentenced Norton to fifteen
years to life in prison on both aggravated sexual assault
convictions, one to fifteen years in prison for kidnapping, one to
fifteen years in prison for burglary, 180 days for assault, and 365
days for violation of a protective order. The court ran each prison
term concurrently.
Court ofAppeals' Decision
TJ26 Norton appealed, making five claims. Two of Norton's
claims centered on the district court's jury instructions. He argued
that the instructions on aggravated sexual assault and the
underlying offenses of rape and forcible sexual abuse misstated
the law because they uid not make clear that Norton had to act
intentionally or knowingly with regard to H.N.'s nonconsent.
State v. Norton, 2018 UT App 82,
25, 28, 427 P.3d 312. He also
argued that the district court erred in rejecting some of his
requests for instructions on lesser included offenses. Id. f 26.
\T7 Norton also challenged his sentence. He argued that the
district court's decision to apply the fifteen-to-life sentencing tier
for his aggravated sexual assault convictions "violated his rights
7

State v. Norton
Opinion of the Court
to due process and a jury trial" because the jury had not been
given a special verdict form to indicate the type of sexual assault
forming the basis of these convictions. Id. 1 57. He reasoned that
this "impermissibly increased the penalty he would have received
had he been sentenced according to the facts that he claims were
reflected in the jury's verdict." Id. 1 59. He also argued that the
court abused its discretion when it failed to properly conduct the
interests of justice analysis required by LeBeau v. State, 2014 UT 39,
337 P.3d 254. Norton, 2018 UT App 82, | 67.
128 Finally, Norton argued that the court of appeals should
reverse his convictions under the cumulative error doctrine. Id.
18 7.
129 The court of appeals rejected each argument. First, the
court concluded that even if the jury instructions regarding
aggravated sexual assault, rape, and forcible sexual abuse were
erroneous as to the required mental state for H.N.'s nonconsent,
any such error did not prejudice Norton. Id. 1 40. Second, the
court of appeals determined that the district court did not err in
refusing to give certain lesser included offense instructions that
Norton had requested. Id. H 49, 53, 56. It further concluded that
at sentencing, the district court correctly determined the
presumptive sentencing tier for the aggravated sexual assault
convictions and properly considered all the evidence and
argument presented by the parties. Id. 1 86. It also declined to
reverse on cumulative error grounds. Id. 1 87.
130 We granted Norton's petition for certiorari on each of
these claims. We have jurisdiction pursuant to Utah Code section
78A-3-102(3)(a).
STANDARD OF REVIEW
131 "On certiorari, we review for correctness the decision of
the court of appeals ...." State v. Levin, 2006 UT 50, 115,144 P.3d
1096.
ANALYSIS
132 We granted certiorari to consider whether the court of
appeals erred in (1) concluding that any error in the jury
instructions on aggravated sexual assault, rape, and forcible
sexual abuse did not prejudice Norton; (2) affirming the district
court's refusal to instruct the jury on additional lesser included
offenses of aggravated sexual assault, aggravated burglary, and
aggravated kidnapping; (3) affirming the district court's sentence
8

Cite as: 2021 UT 02
Opinion of the Court
of fifteen years to life on both convictions of aggravated sexual
assault; (4) concluding that the district court conducted a proper
interests of justice analysis at sentencing; and (5) rejecting
Norton's claim of cumulative error. We address each issue in turn.
I. JURY INSTRUCTIONS
f 33 Norton contends that the jury instructions on aggravated
sexual assault and the underlying offenses of rape and forcible
sexual abuse were incorrect. He argues that the instructions did
not adequately explain that to convict, the jury must find that he
acted knowingly and intentionally with regard to H.N.'s
nonconsent. He further contends that if the jury had been
properly instructed, there was a reasonable probability it would
have acquitted him on these charges. Norton did not object to
these instructions at trial, so he asks us to review this claim for
plain error,3 manifest injustice,4 and ineffective assistance of
counsel.
|34 The court of appeals assumed without deciding that the
jury instructions were incorrect, and it disposed of this issue
based on lack of prejudice. State v. Norton, 2018 UT App 82,
SO­
TO, 427 P.3d 312. We agree with the court of appeals that even

3 The State argues that we should not conduct a plain error
review because Norton invited any error in these instructions. At
trial, the district court told counsel that if they did not object to an
instruction, the court would assume they approved of it. Norton's
counsel did not object to these instructions, and the State argues
this is tantamount to invited error. We decline to address the
State's argument because we must still analyze prejudice to
determine Norton's ineffective assistance of counsel claim. And
because we agree with the court of appeals that, even assuming
these jury instructions were erroneous, they did not prejudice
Norton, his claim fails whether we review it for ineffective
assistance, manifest injustice, or plain error.
4 Our precedent holds that in many instances "'manifest
injustice' and 'plain error' are operationally synonymous." State v.
Bullock, 791 P.2d 155,159 (Utah 1989); see also State v. Johnson, 2017
UT 76, ^ 57 n.16, 416 P.3d 443; State v. Maestas, 2012 UT 46, ]J 37,
299 P.3d 892. Norton has not argued otherwise; therefore, we
review his argument under the plain error standard.
9

State v. Norton
Opinion of the Court
assuming Norton's criticism of these instructions is right, he has
not shown prejudice.
f35 To show plain error or ineffective assistance of counsel,
Norton must prove he was prejudiced by the alleged error. See
State v. Jimenez, 2012 UT 41, f 20, 284 P.3d 640. The prejudice
standards for plain error and ineffective assistance are the same.
State v. McNeil, 2016 UT 3, ^ 29, 365 P.3d 699. Prejudicial error
occurs when "there is a reasonable probability" that but for the
alleged errors, "the result of the proceeding would have been
different." Strickland v. Washington, 466 U.S. 668, 694 (1984).
Tf36 Norton argues that the jury instructions did not clearly
explain the requisite mens rea regarding H.N.'s nonconsent. At
trial, the district court instructed the jury that the State had to
"prove a mental state as to each of the ... counts charged." It then
defined the mental states "intentionally"5 and "knowingly."6
If37 Regarding aggravated sexual assault, the district court
instructed the jury that it could find Norton guilty if it found
beyond a reasonable doubt that:
1. [Norton] raped or attempted to rape or committed
forcible sexual abuse or attempted forcible sexual
abuse against [H.N.]; and
2. That in the course of that rape or attempted rape
or forcible sexual abuse or attempted forcible sexual
abuse [Norton]
(a) used or threatened [H.N.] with the use of a
dangerous weapon; or
(b) compelled, or attempted to compel, [H.N.]
to submit to rape or forcible sexual abuse by

5 The district court instructed the jury that a "person acts
intentionally ... when his conscious objective is to cause a certain
result or to engage in certain conduct." See UTAH CODE § 76-2103(1).
6 The district court instructed the jury that a "person acts
knowingly ... when the person is aware of the nature of his
conduct or is aware of the particular circumstances surrounding
his conduct," and when the person is "aware that his conduct is
reasonably certain to cause the result." See id. § 76-2-103(2).
10

State v. Norton
Opinion of the Court
rationally lead to a contrary finding with respect to the omitted
element." Neder v. United States, 527 U.S. 1,19 (1999). Here, we ask
specifically whether a reasonable jury could have found, based on
the "totality of the evidence in the record," that the defendant did
not have the required mental state as to the victim's nonconsent.
Barela, 2015 UT 22, f 31.
f 42 We agree with the court of appeals that a reasonable jury
could not have found that Norton mistook H.N.'s conduct for
consent based on the totality of the evidence. Norton, 2018 UT App
82,
37-40. Because the jury acquitted Norton of the charge of
aggravated sexual assault related to squeezing H.N.'s breasts,
only the counts based on the nonconsensual intercourse (rape)
and digital penetration (forcible sexual abuse) are at issue.
^43 The trial evidence with respect to these two incidents
could not support a finding that Norton may have mistakenly
interpreted H.N.'s behavior to indicate consent. With regard to
the intercourse, Norton's testimony did not describe ambiguous
behavior that he could have believed was consent. Rather, he
testified that H.N. initiated sexual activity by sitting on his lap
and later climbing on top of him. And in his version of events, the
digital penetration never happened. He claimed she fabricated her
claims against him. Specifically, he testified that after he returned
her to her parents' home he again tried to discuss custody of the
children and she threatened to call the police and accuse him of
breaking into the house and beating her up.
^44 And H.N.'s testimony similarly left no room for a finding
that Norton mistook her conduct for consent. H.N. had a
protective order against Norton. She testified that she had pulled
a dryer in front of the basement door when she first moved into
her parents' home. And each night she secured the front and back
doors by positioning chairs under the doorknobs. Despite her
efforts to create a barricade, H.N. testified that Norton broke into
the house, punched her in the face, wrapped duct tape around her
head and. over her mouth, took her into the snowy night with no
shoes on, took her to an empty building, and forced her inside at
gun point. Once inside, he commanded her to undress at gun
point and then raped her. He then tried to get rid of the evidence
by directing her to clean up and inserting his fingers into her
vagina to "rinse himself out." H.N. testified that she told him "no"
multiple times.
^45 Other evidence corroborated her version of events. The
police found strands of hair that resembled H.N.'s in a bathtub in
12

Cite as: 2021 UT 02
Opinion of the Court
threat of kidnap [p]ing, death, or serious
bodily injury to be inflicted imminently; and
3. That [Norton] did such acts knowingly or
intentionally.
If38 The district court then instructed the jury on rape and
forcible sexual abuse. Regarding rape, it instructed the jury that it
could convict Norton if it found beyond a reasonable doubt that
1. [Norton] had sexual intercourse with [H.N.]; and
2. That such conduct was without the consent of
[H.N.]; and
3. That said conduct was done intentionally or
knowingly.
f39 With regard to forcible sexual abuse, the district court
instructed the jury that it could convict Norton if it found beyond
a reasonable doubt that:
1. [Norton] touched the anus, buttocks, breasts, or
any part of the genitals of H.N.; and
2. That such conduct was done with the intent to
either
(a) cause substantial emotional or bodily pain
to [H.N.], or
(b) arouse or gratify the sexual desires of any
person; and without the consent of [H.N.];
and
3. That said conduct was done intentionally or
knowingly.
f 40 Norton relies on State v. Barela to argue that the rape and
forcible sexual abuse instructions are incorrect because they
"implied that the mens rea requirement... applied only to the act
of sexual intercourse and not to the alleged victim's nonconsent."
2015 UT 22, f 26, 349 P.3d 676. If these instructions are incorrect,
so too is the aggravated sexual assault instruction because it
incorporates the instructions for these associated offenses.
^[41 The court of appeals declined to decide whether these
instructions were erroneous, instead holding that even if they
were, it was not prejudicial error. To determine whether the
omission of an element from a jury instruction is prejudicial, we
analyze "whether the record contains evidence that could
11

Cite as: 2021 UT 02
Opinion of the Court
the Fort Douglas building they searched, a wad of duct tape with
hair in it in the dumpster behind the building, a mark on H.N.'s
lower back, swelling and the beginning of bruising on H.N.'s face,
and bruising on her inner thighs and labia.
f46 Norton points to H.N.'s testimony that she squeezed his
penis as evidence that could have persuaded a jury that Norton
believed she was consenting. But this incident was characterized
by both sides as an act of protest. H.N. testified that in response,
Norton grabbed both her hands and pinned them above her head.
And Norton did not say in his testimony that he believed the
squeeze indicated participation. Rather, he did not mention it.
And Norton's counsel argued during closing that the squeeze
refuted H.N.'s claim that she was "totally terrified of him" and
indicated she was "not afraid to use force" and "not afraid to be
confrontational." And even if somehow a reasonable jury could
have seen H.N.'s isolated act of squeezing Norton's penis as
ambiguous, any ambiguity vanishes when this act is viewed along
with the rest of the trial evidence.
^}47 A comparison with the facts in Barela helps demonstrate
why the jury instructions here were not prejudicial. In Barela, a
woman claimed her massage therapist raped her. 2015 UT 22, f 6.
The therapist claimed the sex was consensual. Id. f 5. After a jury
convicted the therapist of rape, he challenged on appeal a jury
instruction that did not clearly state the required mens rea for the
victim's nonconsent. Id.
15-16. We agreed and reversed the
defendant's convictions. Id. 32.
1f48 This court found that the evidence was such that a jury
could have "thought that the truth fell somewhere in between the
two accounts." Id. f 30. While the victim in that case said the
defendant had suddenly instigated and perpetrated the
intercourse without her consent, she testified that she "froze,"
"neither actively participating in sex nor speaking any words,"
and otherwise expressed no reaction. Id. f 29. This court
concluded that a jury could have believed that although the
victim did not consent, the defendant may have mistakenly
thought she did. See id. f 30-32. Accordingly, we held that it was
"reasonably likely" that a proper jury instruction regarding the
requisite mental state as to the victim's nonconsent could have
affected the outcome of the trial. Id. || 31-32.
f 49 In contrast, a reasonable jury could not look at the totality
of the trial evidence here and find that, under either version of
events, Norton may have mistaken H.N.'s conduct for consent.
13

State v. Norton
Opinion of the Court
Norton claims H.N. initiated the sexual activity and then
manufactured and exaggerated her claims against him. H.N.
claims Norton kidnapped her and then raped her at gunpoint.
This case does not involve behavior that the jury could have
viewed as a close call in either direction.
Tf50 Accordingly, this case does not turn on whether Norton
may have mistaken H.N.'s conduct for consent. Rather, H.N.'s
and Norton's versions of the events in question were mutually
exclusive, and the jury had to decide who to believe. We agree
with the court of appeals that even assuming the jury instructions
were erroneous, it was not reasonably likely that absent the errors
the outcome of the trial would have been different.
Tf51 While the jury instruction here could have been clearer,
see State v. Neivton, 2020 UT 24, | 29, — P.3d — (identifying Model
Utah Jury Instruction CR1605 as an example of a clear jury
instruction for the offense of rape), we conclude that Norton did
not show he was prejudiced by the instruction, and consequently
that he failed to establish manifest injustice, plain error, or
ineffective assistance of counsel.
II. LESSER INCLUDED OFFENSES
TJ52 Norton argues that the court of appeals erred in affirming
the district court's refusal to instruct on additional lesser included
offenses of aggravated kidnapping, aggravated burglary, and two
of the counts of aggravated sexual assault.
|53 Relevant here, an offense constitutes a lesser included
offense when it is "established by proof of the same or less than
all the facts required to establish the commission of the offense
charged" or is "specifically designated by a statute as a lesser
included offense." UTAH CODE § 76-1-402(3)(a), (c).
f54 When a defendant requests an instruction on a lesser
included offense, we use the evidence-based standard codified in
Utah Code section 76-1-402(4) to determine whether such an
instruction is required. See State v. Powell, 2007 UT«9, ]f 24, 154
P.3d 788. We first ask whether the charged offense and the lesser
included offense have "some overlap in the statutory elements."
State v. Baker, 671 P.2d 152, 159 (Utah 1983). We then inquire
whether the trial evidence "provides a rational basis for a verdict
acquitting the defendant of the offense charged and convicting
him of the included offense." Id. at 159 (citation omitted) (internal
quotation marks omitted); see also Powell, 2007 UT 9, f 24; UTAH
Code § 76-1-402(4). We must determine whether there is "a
14

Cite as: 2021 UT 02
Opinion of the Court
sufficient quantum of evidence presented to justify sending the
question to the jury." Baker, 671 P.2d at 159. And we view the
evidence "in the light most favorable to the defendant requesting
the instruction." Pozvell, 2007 UT 9, f 27.
f 55 The court of appeals carefully analyzed each of Norton's
claims of entitlement to an instruction on a lesser included
offense. We affirm the court of appeals' decision with regard to all
but one of those claims.
A. Aggravated Kidnapping
f 56 Norton argues that the court of appeals erred in affirming
the district court's refusal to instruct on unlawful detention as a
lesser included offense of aggravated kidnapping. We agree with
the court of appeals' decision.
^[57 At trial, both parties requested an instruction on
kidnapping as a lesser included offense of aggravated
kidnapping. Additionally, Norton requested an instruction on
unlawful detention. The district court instructed the jury on
kidnapping but not unlawful detention. Ultimately, the jury
acquitted Norton of aggravated kidnapping but convicted him of
kidnapping.
^[58 The State's aggravated kidnapping charge was based on
Norton abducting H.N. from the home, duct-taping her head and
mouth, and taking her to Fort Douglas where he sexually
assaulted her and periodically held her at gunpoint. In contrast,
Norton testified that H.N. willingly left her home and
accompanied him to the Fort Douglas building. However, he
claimed that when they arrived at the empty building they
argued, H.N. hit Norton, and he responded by backhanding her.
He then restrained H.N.'s hands to prevent her from hitting him
again. On appeal, Norton identifies his testimony that he
temporarily restrained H.N.'s hands as being sufficient to require
the district court to instruct on unlawful detention.
^[59 Unlawful detention is statutorily defined as a lesser
included offense of aggravated kidnapping.7 Utah CODE
7 To prove aggravated kidnapping, the State must show in
relevant part that "in the course of committing unlawful detention
or kidnapping," a person "(a) possesses, uses, or threatens to use a
dangerous weapon," or (b) acts with intent "(vi) to commit a
sexual offense." UTAH CODE § 76-5-302(1)(a), (l)(b)(vi) (2012). (We
(continued...)
15

State v. Norton
Opinion of the Court
§ 76-5-306(2); see also id. § 76-1-402(3). But the conduct identified
by Norton is a separate act that is not included within the conduct
that constituted the greater offense of aggravated kidnapping
here. "Even if there is overlap in the statutory elements, if the
convictions rely on materially different acts, then one crime will
not be a lesser included offense of another." State v. Garrido, 2013
UT App 245,
31, 314 P.3d 1014 (internal quotation marks
omitted).
^[60 Norton's testimony that he restrained H.N.'s hands at
Fort Douglas is separate, uncharged conduct. As to the conduct
that is the basis for the aggravated kidnapping charge — abducting
H.N. from the home, taking her to the Fort Douglas building,
periodically holding her at gunpoint, and sexually assaulting
her—Norton claims it was all voluntary and consensual. Based on
the trial evidence, the choice for the jury was to either convict him
of aggravated kidnapping or kidnapping based on H.N.'s
testimony, or acquit him based on his testimony. If the jury
believed Norton's version of events, it could not convict him of
restraining H.N.'s hands —a separate act for which he was not
charged.
Tf61 We also note that Norton's testimony does not appear to
even establish the offense of unlawful detention. Unlawful
detention requires restraint or detention "without authority of
law." UTAH Code § 76-5-304(1) (2012). But Norton claimed he
restrained H.N.'s hands in self-defense to stop her from hitting
him, and we must look at the evidence in the light most favorable
to him without weighing credibility. See Powell, 2007 UT 9, | 27.
Restraining another's hands in self-defense is not unlawful. See
UTAH Code § 76-2-402(l)(a) (2012) (providing that a "person is
justified in threatening or using force against another when and to
the extent that the person reasonably believes that force or a threat
of force is necessary to defend the person or a third person against
cite to the version of the statute in effect at the time of the events
in question for this and other statutory provisions that have been
substantively amended since that time.) To prove unlawful
detention, the State must prove only that an actor "intentionally
or knowingly, without authority of law, and against the will of the
victim, detains or restrains die victim under circumstances not
constituting a violation of: (a) kidnapping ... or (c) aggravated
kidnapping." Id. § 76-5-304(1) (2012).
16

Cite as: 2021 UT 02
Opinion of the Court
another person's imminent use of unlawful force"). So Norton's
evidence does not amount to unlawful detention.
f 62 Fundamentally, the evidence before the jury provided no
rational basis for a verdict acquitting Norton of aggravated
kidnapping and instead convicting him of unlawful detention. See
id. § 76-1-402(4). Accordingly, we agree with the court of appeals
that the district court was not obligated to instruct the jury on
unlawful detention.8
B. Aggravated Burglary
|63 Norton argues that he was entitled to instructions on
aggravated assault, assault, and criminal trespass as lesser
included offenses of aggravated burglary. We agree with the court
of appeals that these "are not lesser included offenses of
aggravated burglary under the facts of this case." Norton, 2018 UT
App 82, f 55.
^[64 At trial, the district court instructed on burglary as a
lesser included offense of aggravated burglary. But the court did
not instruct on aggravated assault, assault, or criminal trespass.
TJ65 Aggravated burglary, aggravated assault, and assault do
have overlapping statutory elements.9 But again, Norton relies on

8 The State agrees with the court of appeals that an instruction
on unlawful detention was not required here but disagrees with
that court's analysis. The State reasons that because the
kidnapping was an ongoing crime that continued at Fort Douglas,
the evidence of Norton restraining H.N.'s hands was not a
separate act. We appreciate the State's point, but we ultimately
agree with the court of appeals' analysis for the reasons explained
above, supra f f 56-62. The evidence Norton identifies provides a
rational basis for a verdict acquitting him of aggravated
kidnapping, but not for one convicting him of unlawful detention
because the restraint was a separate uncharged act. See 'Utah
Code § 76-1-402(4).
9 At the time of the conduct at issue, aggravated burglary
occurred when a person "in attempting, committing, or fleeing
from a burglary ... (a) cause[d] bodily injury to any person who
[was] not a participant in the crime; (b) use[d] or threatened] the
immediate use of a dangerous weapon against any person who
[was] not a participant in the crime; or (c) possesse[d] or
(continued...)
17

State v. Norton
Opinion of the Court
evidence of a materially separate, uncharged act to argue that the
district court should have instructed on these offenses.
Tf66 The State's aggravated burglary charge was based on the
events surrounding Norton breaking into H.N.'s parents' home at
the beginning of the night in question. These events included
H.N. waking to a "loud bang"—presumably caused by one of the
objects she had used to barricade the doors — and finding Norton
standing at the end of her bed. He then punched her in the face.
f 67 At trial, Norton denied all of this. He claimed that he did
not break into H.N.'s parents' home at the beginning of the night,
but that he waited in his car outside of the home for her to
willingly join him. However, he points to his testimony that he
backhanded H.N. and injured her face at Fort Douglas as
supporting instructions on aggravated assault and assault as
lesser included offenses of aggravated burglary.
T[68 This is an uncharged act that is separate from the conduct
forming the basis of the aggravated burglary charge — Norton
breaking into H.N.'s parents' home and punching her in the face.
As the court of appeals aptly concluded, "Because the facts and
evidence developed to establish the greater offense of aggravated
burglary were different from the facts and evidence relied upon
by Norton to claim entitlement to the lesser included offense
instructions of aggravated assault and assault, those lesser
offenses were not included within the greater offenses." Id. ^ 56.
^[69 Norton's testimony about this uncharged conduct
provides a basis for an additional offense but not a lesser offense
included within the conduct for which he was actually charged.
attempted] to use any explosive or dangerous weapon." Id. § 766-203(1).
An aggravated assault occurred if a person "commit[ed]
assault" and used "(a) a dangerous weapon ... or (b) other means
or force likely to produce death or serious bodily injury." Id. § 765-103(1).
And an assault was "(a) an attempt, with unlawful force or
violence, to do bodily injury to another; (b) a threat, accompanied
by a show of immediate force or violence, to do bodily injury to
another; or (c) an act, committed with unlawful force or violence,
that cause [d] bodily injury to another or create [d] a substantial
risk of bodily injury to another." Id. § 76-5-102(1) (2012).
18

Cite as: 2021 UT 02
Opinion of the Court
Accordingly, the evidence at trial did not provide a rational basis
for a verdict acquitting Norton of aggravated burglary or burglary
and instead convicting him of aggravated assault or assault. So
the district court was not required to give the lesser included
offense instructions he requested.
^[70 Norton also argued to the court of appeals that he was
entitled to an instruction on criminal trespass because he went to
H.N.'s residence at the end of the night, which the protective
order prohibited. See id. f 56 n.13. Because Norton's trial counsel
did not request a criminal trespass instruction, Norton raises this
argument based on ineffective assistance of counsel. See id.
f 71 The court of appeals concluded again that because of the
different underlying conduct that Norton relied on to make his
argument, "criminal trespass was not an included offense of
aggravated burglary under the circumstances of this case, and
Norton's counsel was therefore not ineffective for failing to
request criminal trespass as a lesser included instruction." Id.
|72 The court of appeals was correct. Norton's testimony
about going to H.N.'s parents' home at the end of the night is
separate from his breaking into the house at the beginning of the
night. It is uncharged conduct. If it did support a conviction for
criminal trespass, that conviction would not be in lieu of burglary
but in addition to it. Accordingly, the district court was not
required to instruct on criminal trespass and Norton's counsel
was not ineffective for not requesting such an instruction.
C. Aggravated Sexual Assault Based on Rape
^[73 Norton argues that the district court erred in declining to
instruct the jury on sexual battery as a lesser included offense of
aggravated sexual assault based on rape. But we agree with the
court of appeals that the district court did not err in refusing to
give such an instruction.
^[74 At trial, Norton and the State requested instructions on
rape, forcible sexual abuse, and* sexual battery as lesser included
offenses of aggravated sexual assault based on rape. The district
court did instruct the jury on rape and forcible sexual abuse, but
not on sexual battery. Although the jury was instructed on two
lesser included offenses, it convicted Norton of aggravated sexual
assault as charged.

19

State v. Norton
Opinion of the Court
f 75 The offenses of aggravated sexual assault based on the
underlying offense of rape and sexual battery have overlapping
elements.10 Norton argues that he was entitled to a sexual battery
instruction because the jury could have disbelieved H.N. or found
that she exaggerated her allegations to gain an advantage in the
custody battle. Norton also asserts that her testimony about the
rape was ambiguous because she did not struggle after he
initiated sex, except to squeeze his penis. And he argues that in
light of his testimony that the sex was consensual, the jury could
have found that no rape occurred, but when Norton held her
hands above her head, that particular sexual position might have
caused her momentary affront or alarm.
^76 This is pure speculation. Norton has not identified a
quantum of evidence presented at trial that would support
instructing the jury on sexual battery. Norton testified that the
sexual intercourse was entirely consensual and that H.N. was an
active participant. The only testimony about him pinning H.N/s
hands above her head came from her. And she testified that she
did not consent to any sexual activity, and that when he held her
hands above her head it was in response to her squeezing his
penis. There was no evidence to support a finding that the

10 The relevant statutory language provides, "A person
commits aggravated sexual assault if: (a) in the course of a rape
... or forcible sexual abuse, the actor: (i) uses, or threatens the
victim with the use of, a dangerous weapon" or "(ii) compels, or
attempts to compel, the victim to submit to rape ... or forcible
sexual abuse[] by threat of kidnap[p]ing, death, or serious bodily
injury to be inflicted imminently on any person." UTAH CODE
§ 76-5-405(1).
"A person commits rape when the actor has sexual intercourse
with another person without the victim's consent." Id. § 76-5402(1).
"A person is guilty of sexual battery if the person, under
circumstances not amounting to" rape, forcible sexual abuse,
attempted rape, or attempted forcible sexual abuse, "intentionally
touches, whether or not through clothing, the anus, buttocks, or
any part of the genitals of another person, or the breast of a female
person, and the actor's conduct is under circumstances the actor
knows or should know will likely cause affront or alarm to the
person touched." Id. § 76-9-702.1(1).
20

Cite as: 2021 UT 02
Opinion of the Court
intercourse was consensual, but Norton should have known that
H.N. intermittently experienced affront or alarm. Accordingly, the
evidence did not provide a rational basis to acquit Norton of rape
and instead convict him of sexual battery. See Utah Code § 76-1402(4). So no such instruction was required.
D. Aggravated Sexual Assault Based on Forcible Sexual Abuse
\77 Norton also argues that the court of appeals erred in
affirming the district court's refusal to instruct on sexual battery
as a lesser included offense of aggravated sexual assault based on
forcible sexual abuse. We agree with Norton that an instruction on
sexual battery was required.
|78 First, aggravated sexual assault based on forcible sexual
abuse and sexual battery have "some overlap in the statutory
elements." Baker, 671 P.2d at 159. Both offenses require that the
actor touches the anus, buttocks, or any part of the genitals of
another. See UTAH CODE §§ 76-5-404(1), 76-5-405(1), and 76-9702.1(1) (2012). But they have different requisite mental states.
Forcible sexual abuse requires that the defendant act with the
intent to cause substantial emotional or bodily pain or to gratify
the sexual desire of any person. Id. § 76-5-404(1) (2012). But sexual
battery requires only drat the defendant's conduct be under
circumstances that the defendant knows or should know would
cause affront or alarm to the person touched. Id. § 76-9-702.1(1).
\79 Second, we conclude that "the evidence offered provides
a rational basis for a verdict acquitting the defendant of the
offense charged and convicting him of the included offense."
Baker, 671 P.2d at 159 (citation omitted) (internal quotation marks
omitted); see also Utah CODE § 76-1-402(4). Here, both the State
and Norton rely on H.N.'s testimony that Norton inserted his
finger into her vagina to wipe away his DNA. Norton's testimony
was that this touch did not happen. But relying on H.N.'s
testimony that the touch occurred, Norton argues that the
evidence, if believed, would support a finding that Norton
"touched [H.N.] under circumstances he knew or should have
known would likely cause affront or alarm" (the mental state
required for sexual battery), rather than with intent to cause
substantial emotional or bodily pain or to gratify his sexual desire
(the mental state required for forcible sexual abuse).
|80 We agree. H.N.'s testimony indicates Norton was
attempting to conceal his crime. While a jury could infer that in
doing so he also intended to gratify his sexual desire or cause
21

State v. Norton
Opinion of the Court
H.N. emotional or bodily pain, a jury could also infer from the
same evidence that Norton touched H.N/s vagina only under
circumstances he knew or should have known would likely cause
her affront or alarm. The trial evidence therefore provides a
rational basis for a verdict acquitting Norton of aggravated sexual
assault based on forcible sexual abuse and convicting him of
sexual battery.
f81 We must now determine whether this error prejudiced
Norton. An error is prejudicial if there is a "reasonable likelihood
that the error affected the outcome of the proceedings." State v.
Reece, 2015 UT 45, If 33, 349 P.3d 712 (citation omitted).
^[82 We conclude this error did prejudice Norton because had
the jury been instructed on sexual battery, the evidence supported
a conviction on the less serious charge and an acquittal on both
aggravated sexual assault and the lesser included offense on
which the district court instructed —forcible sexual abuse. Here,
although the district court instructed on the lesser included
offense of forcible sexual abuse, the jury convicted Norton on
aggravated sexual abuse as charged. Generally,
[wjhere a jury is instructed on, and has the
opportunity to convict a defendant of, a lesser
included offense, but refuses to do so and instead
convicts the defendant of a greater offense, failure to
instruct the jury on another lesser included offense,
particularly an offense that constitutes a lesser
included offense of the lesser included offense that
the jury was instructed on, is harmless error.
State v. Daniels, 2002 UT 2, ]j 28,40 P.3d 611.
^[83 However, this is a distinct situation and causes us to
depart from our more general precedent. If the jury were to infer
from H.N/s testimony that Norton acted under circumstances that
he knew would cause her affront or alarm, but did not intend to
gratify his sexual desire or cause her emotional or physical nain,
that would lead to acquittal of both aggravated sexual assault and
forcible sexual abuse and conviction of sexual battery. Thus, there
is a reasonable likelihood that the error affected the outcome of
the proceedings. Accordingly, we conclude that the district court's
error prejudiced Norton and reverse the court of appeals'
affirmance of Norton's conviction of aggravated sexual assault
based on digital penetration.

22

Cite as: 2021 UT 02
Opinion of the Court
III. SENTENCING
f84 The longest potential terms of imprisonment Norton
faced at sentencing were for his two aggravated sexual assault
convictions. The district court sentenced him to fifteen years to life
in prison on both counts. He argues that this was error and that
the court of appeals should have reversed for two reasons.11
A. Special Verdict Form
|85 Norton argues that the district court should not have
applied the sentencing tier applicable to aggravated sexual assault
based on a completed act of rape because the jury was not given a
special verdict form to indicate which underlying sexual assault
offense formed the basis of the conviction. Norton relies on
Apprendi v. Nezv Jersey, 530 U.S. 466 (2000) and Alleyne v. United
States, 570 U.S. 99 (2013), to argue that in the instance of a tiered
sentencing structure, where the jury is instructed on versions of
the offense that qualify for more than one tier, a special verdict
form is required. Norton argues that in the absence of a special
verdict form, the district court was permitted to sentence him only
to the lowest term of six years to life —the sentencing range
corresponding to an aggravated sexual assault conviction based
on attempted forcible sexual abuse. Utah Code § 76-5-405(2)(c)(i).
^J86 The court of appeals held that the district court did not
err because there was no factual basis "to support a conclusion
that the jury could have determined that the sexual acts
underlying [the charge] constituted only attempted forcible sexual
abuse." State v. Norton, 2018 UT App 82, f 61, 427 P.3d 312. While
we affirm the court of appeals' conclusion that the district court
applied the correct sentencing tier, we do so on an alternative
basis. We conclude that Norton did not preserve this issue in the
district court.
f 87 Aggravated sexual assault occurs when a person commits
a sexual assault such as rape, forcible sexual abuse, attempted
rape, or attempted forcible sexual abuse, and does so under
11 As we have reversed the conviction for aggravated sexual
assault based on forcible sexual abuse, only the conviction for
aggravated sexual assault based on rape remains. Consequently,
we analyze Norton's argument only with respect to the remaining
count. In the jury instructions, this count was referred to as Count
3.
23 .

State v. Norton
Opinion of the Court
certain aggravating circumstances. UTAH CODE § 76-5-405(1). The
presumptive sentence for aggravated sexual assault varies based
on the underlying offense from which it arises. Id. § 76-5-405(2). If
the underlying offense is rape or forcible sexual abuse, the
presumptive sentence is fifteen years to life. Id. § 76-5-405(2) (a) (i).
If the underlying offense is attempted rape, the presumptive
sentence is ten years to life. Id. § 76-5-405(2)(b)(i). And if the
underlying offense is attempted forcible sexual abuse, the
presumptive sentence is six years to life. Id. § 76-5-405(2)(c)(i). A
court may impose a lesser term if it finds that doing so is in the
interests of justice and states the reasons for that finding on the
record. Id. § 76-5-405(3)(a), (4)(a), (5)(a).
f 88 At trial, Norton faced three counts of aggravated sexual
assault. The jury instructions explained the underlying allegations
that related to each of the three, counts of aggravated sexual
assault, including that Count 3 was based on the allegation of '
nonconsensual sexual intercourse. Specifically, instruction 33
stated, "In counts 2, 3, and 4, the defendant is charged with
Aggravated Sexual Assault. One of the counts concerns the
allegation of the touching of the breast (Count 2), and one concerns
the allegation of sexual intercourse (Count 3), and one concerns the
penetration of the vagina by defendant's fingers (Count 4)."
(Emphasis added.) Instruction 35 gave the elements of aggravated
sexual assault "as charged in Counts 2, 3[,] or 4."
Tf89 The fact that Count 3 was based on the underlying
offense of rape was reinforced by the lesser included offense
related to that count. Instruction 34 identified the lesser included
offenses within each aggravated sexual assault count. The
instruction stated that "in the count where sexual intercourse is
alleged (Count 3), the lesser included offense would be rape."
Instruction 37 gave the elements of rape, explaining again that
"[rjape is a lesser include[d] offense of Count 3."
TJ90 The district court provided the jury with a general verdict
form. With regard to Count 3, it stated:
As to Count 3, AGGRAVATED SEXUAL ASSAULT:
____ NOT GUILTY
____ GUILTY
____ GUILTY of the lesser included offense of Rape
f91 The district court reviewed the jury instructions with
Norton and the State, and Norton did not object that the
instructions were ambiguous as to which underlying sexual
24

Cite as: 2021 UT 02
Opinion of the Court
assault offense related to each count of aggravated sexual assault.
Further, neither party requested a special verdict form.
Tf92 The jury found Norton guilty of Count 3. At sentencing,
Norton argued that without a special verdict form, there was no
indication the jury found him guilty of aggravated sexual assault
based upon anything but the least serious offense of attempted
forcible sexual abuse. He asserted that consequently he should be
sentenced only under the corresponding sentencing tier of six
years to life.
f 93 In response, the State argued that all evidence presented
at trial was of completed, not attempted, sexual assaults. So
Norton should be sentenced in accordance with the tier
corresponding to aggravated sexual assault based on a completed
act of rape. The district court agreed that fifteen years to life was
the presumptive punishment tier, given the evidence presented at
trial.
f94 Norton argues that the use of a general verdict form
deprived him of the due process guarantee of "the right to a jury
trial on every element of the offense." But Norton did not raise
this argument until sentencing, and that was too late.
f 95 "As a general rule, claims not raised before the trial court
may not be raised on appeal." State v. Holgate, 2000 UT 74, f 11,10
P.3d 346. During trial, the parties met with the district court to
finalize the jury instructions. If Norton felt that the instructions
were not clear that the underlying offense applicable to Count 3
was rape, then Norton needed to object to the jury instructions.
Likewise, if Norton thought the general verdict form permitted
ambiguity in the jury's verdict, he should have raised it when the
district court had an opportunity to address the issue. But Norton
made no mention of a special verdict form. Rather, Norton raised
the issue at sentencing when it was too late for the district court to
modify the jury instructions or the verdict form.
^96 Norton argues that his objection was timely because an
error under Apprendi or Alleyne occurs at sentencing.12 In Apprendi,
the United States Supreme Court held that" [ojther than the fact of
a prior conviction, any fact that increases the penalty for a crime
beyond the prescribed statutory maximum must be submitted to a
jury, and proved beyond a reasonable doubt." 530 U.S. at 490
12 Norton raised this argument in a Petition for Rehearing.
25

State v. Norton
Opinion of the Court
(emphasis added). In Alleyne, die Supreme Court extended this
holding to any fact that increases the statutory mandatory minimum
sentence. 570 U.S. at 108. Thus, under this precedent, a sentencing
court errs when it sentences a defendant to a higher statutory
maximum or mandatory minimum that was triggered by a
specific fact—for example, a drug amount—and that fact was not
determined by the jury beyond a reasonable doubt. See, e.g.,
United States v. Ellis, 868 F.3d 1155, 1171 (10th Cir. 2017) ("The
district court did not commit an Alleyne error until it subjected
Ellis to an increased mandatory-minimum sentence without the
jury's attributing at least 280 grams of crack cocaine to Ellis
individually." (footnote omitted)).
^|97 But Norton simply assumes that Apprendi and Alleyne
apply here. He has not provided any analysis as to why that is the
case. The tiered sentencing structure at issue here is different than
those in Apprendi and Alleyne Jibe sentencing tiers here have tire
same statutory maximum: life. UTAH CODE § 76-5-405(2). And the '■
ranges are presumptive, not mandatory. The sentencing court can
impose a lower sentence if it finds it is in the interests of justice to
do so. Id. § 76-5-405(3)(a), (4)(a), (5)(a). Yet Norton has not
analyzed why Apprendi and Alleyne should extend to the
circumstances here.
^[98 Further, Norton does not explain why this is a sentencing
issue rather than a jury instruction issue. There is no question that
the elements of the underlying offense upon which an aggravated
sexual assault charge is based must be found by the jury beyond a
reasonable doubt. If Norton thought the jury instructions did not
make this clear, he needed to object to the jury instructions. He
did not; nor has he challenged the jury instructions on this basis
on appeal.
f99 Our preservation rules ensure that issues are addressed
and, if appropriate, corrected when they arise. Holgate, 2000 UT
74, f 11. Had Norton objected to the jury instructions or requested
a special verdict form at trial, the district court could have
responded to his concerns. But at sentencing, it was too late for
the district court to do so. Accordingly, Norton's claim is
unpreserved. See State v. Cram, 2002 UT 37, 11, 46 P.3d 230
(concluding that an objection was not preserved because it could
have been raised at trial but was instead raised at a scheduling
conference for a retrial when the error could no longer be
corrected).
26

Cite as: 2021 UT 02
Opinion of the Court
^{100 Having found that this argument is unpreserved, we
next consider whether Norton can successfully show an exception
to the preservation requirement. Norton argues that we should
review his claim for both plain error and ineffective assistance of
counsel.
|101 To establish plain error, Norton must show that "(i) [a]n
error exists; (ii) the error should have been obvious to the trial
court; and (iii) the error [was] harmful ...." State v. Dunn, 850
P.2d 1201, 1208 (Utah 1993), abrogated on other grounds by State v.
Silva, 2019 UT 36, f 20, 456 P.3d 718. To establish ineffective
assistance, Norton must show that (i) counsel's performance was
deficient and (ii) the deficient performance prejudiced him.
Strickland v. Washington, 466 U.S. 668, 687 (1984). The prejudice
analysis is the same for claims of plain error and ineffective
assistance of counsel. State v. McNeil, 2016 UT 3, 29, 365 P.3d
699. An error is prejudicial or harmful if the defendant shows
"there is a reasonable probability that, but for [the] error[], the
result of the proceeding would have been different." Id. f 27
(quoting Strickland, 466 U.S. at 694).
^[102 Norton cannot prevail under either the doctrine of plain
error or ineffective assistance of counsel because he cannot show
prejudice. We agree with die court of appeals that there is no
factual basis in the record "to support a conclusion that the jury
could have determined that the sexual acts underlying Count[] 3
.. . constituted only attempted forcible sexual abuse." Norton, 2018
UT App 82, f 61. Further, "there is no evidence in the record to
support a conclusion that the jury's guilty verdict reflected a
finding beyond a reasonable doubt of an underlying aggravated
sexual assault offense other than rape." Id. | 62.
^[103 The district court instructed the jury that Count 3
concerned the "allegation of sexual intercourse." And the
evidence at trial Was undisputed that the sexual intercourse
occurred and was not merely "attempted." Both Norton and H.N.
testified that sexual intercourse took place. And Norton's semen
was found in H.N.'s vagina. We agree with the court of appeals
that Norton cannot "point[] to any evidence that potentially
created any ambiguity as to the factual question of whether the
sexual assault was an attempted forcible sexual abuse as opposed
to a completed rape." Id. f 63.
^[104 Given the unequivocal evidence at trial, if there would
have been a special verdict form requiring the jury to specify the
type of sexual assault giving rise to Count 3, there is no reasonable
27

State v. Norton
Opinion of the Court
likelihood that the jury would have specified anything other than
rape. Accordingly, Norton cannot show plain error or ineffective
assistance of counsel.
B. Interests of Justice
105 Norton also argues that the district court erred in not
sentencing him to a lesser sentence "in the interests of justice."
UTAH code § 76-5-405(3)(a). Specifically, Norton claims that in
sentencing him to the presumptive sentence of fifteen years to life
on his aggravated assault sexual conviction, see id. § 76-5405(2)(a)(i), the district court did not conduct the interests of
justice analysis or make the explicit findings required by LeBeau v.
State, 2014 UT 39, 337 P.3d 254. He argues this was an abuse of
discretion.
^fl06 "We traditionally afford the trial court wide latitude
and discretion in sentencing." State v. Woodland, 945 P.2d 665, 671
(Utah 1997). We will not set aside a sentence unless the district
court abused its discretion by "fail[ing] to consider all legally
relevant factors or if the sentence imposed is clearly excessive."
State v. McCovey, 803 P.2d 1234, 1235 (Utah 1990) (abrogated on
other grounds by State v. Smith, 2005 UT 57,122 P.3d 615) (footnote
omitted) (internal quotation marks omitted).
f 107 But relying on our holding in LeBeau, Norton argues the
district court should have sua sponte analyzed the proportionality
of his sentence and his potential for rehabilitation. In determining
proportionality, Norton argues that the court should have
considered both the gravity of his conduct in relation to the
severity of the sentence imposed on him, and the severity of his
sentence relative to sentences imposed for other crimes in Utah.
And he argues that in analyzing his rehabilitative potential, the
district court should have considered the Board of Pardons' role
in monitoring his behavior and progress toward rehabilitation, his
age, any ties between the crime and alcohol or drug addiction and
his treatment prospects, the existence of a criminal history of
violence, and the "Sentencing Commission's guidelines." (Citing
LeBeau, 2014 UT 39, || 52, 54.)
fl08 However, as we made clear in State v. Martin, the
district court does not have an obligation to consider anything the
defendant does not raise. 2017 UT 63, f 62, 423 P.3d 1254
("[WJhen a sentencing court commits an error that was not
objected to below, an appellant must ... show the existence of
plain error or exceptional circumstances that would justify the
28

Cite as: 2021 UT 02
Opinion of the Court
exercise of our review."). Rather, the district court need only
consider the arguments and issues the defendant raises at
sentencing.
^109 And as the court of appeals correctly observed, the
district court considered all of the evidence and arguments
Norton presented at sentencing. The district court acknowledged
letters describing Norton as a good person, as well as letters
describing Norton as a violent person. The court also
acknowledged Norton was going through a devastating divorce
but determined Norton's behavior was still "way, way, way over
the line." Further, the court noted that a factor of the sentence was
Norton's "inability and unwillingness to follow the truth."
Ultimately, the district court decided Norton was "entitled to
some mercy, but not what [his] lawyer [was] asking for."
|110 But Norton argues that the district court failed to
consider whether his sentence was proportional to sentences for
other similar crimes. And he contends that he raised this at
sentencing when he argued his conduct did not "rise to the level
of the kinds of egregious cases where we have individuals who
suffered significant loss of life or impairment." But this is not
enough. In Martin, we held a similar sentencing issue was
unpreserved because counsel did not object to the analysis the
district court used or identify the other offenses the court should
take into consideration. Id. ^ 64-66. Comparing sentences is
"daunting" and "certainly not a task that we can require our
district courts to perform without prompting or guidance from
counsel." Id. f 66. Norton did not ask the district court to compare'
his sentence to sentences imposed for other offenses or identify
what those other offenses might be. Accordingly, this issue is
unpreserved.
^[111 The district court adequately addressed the arguments
Norton raised at sentencing. We affirm the court of appeals'
decision that the district court did not abuse its discretion by
declining to reduce the presumpf^e sentence on the basis of the
"interests of justice."
IV. CUMULATIVE ERROR
fll2 Norton argues that the court of appeals erroneously
rejected his cumulative error argument. An appellate court will
reverse if "the cumulative effect of the several errors undermines
[the court's] confidence ... that a fair trial was had." State v. Kohl,
2000 UT 35, H 25, 999 P.2d 7 (second alteration in original)
29

State v. Norton
Opinion of the Court
(citation omitted). However, we have identified only one error in
Norton's trial. A "single accumulable error cannot warrant
reversal under the cumulative error doctrine." State v. MartinezCastellanos, 2018 UT 46, f 48, 428 P.3d 1038. We thus reject his
cumulative error argument.
V. LEBEAU SHOULD BE OVERRULED
f 113 Although LeBeau v. State, 2014 UT 39, 337 P.3d 254 does
not determine the outcome in this case, I write this section
separately because I conclude LeBeau should be explicitly
overturned. The holding in LeBeau contradicts the applicable
statute's plain language. And in so doing it takes the legislature's
policy choice to give judges discretion to sentence below the
presumptive statutory tier and replaces it with a rigid, mandatory
framework that applies even when a judge imposes the
presumptive sentence.
fll4 I agree with Justice Lee's dissent in LeBeau, but I will not
duplicate his analysis here. Instead, I add my own observations
and apply the law outlined in EIdridge v. Johndrow, 2015 UT 21, 345
P.3d 553, to argue that LeBeau should be overruled.
fll5 When considering whether precedent should be
overturned, we evaluate: "(1) the persuasiveness of the authority
and reasoning on which the precedent was originally based, and
(2) how firmly the precedent has become established in the law
since it was handed down." Id. 22.
|116 The first consideration—the persuasiveness of the
authority and reasoning on which LeBeau is based—counsels in
favor of overturning it. The opinion did not derive from prior
authority. It was a fresh interpretation of a provision of Utah's
aggravated kidnapping statute, which I conclude is incorrect.
Lebeau, 2014 UT 39,1 25.
fll7 The LeBeau court interpreted the sentencing scheme
within the aggravated kidnapping statute.13 Id. Tf^f 20-22; see also
UTAH CODE §76-5-302(3), (4) (2014). Subsection 302(3) of the
statute establishes presumptive sentencing tiers for variations of
aggravated kidnapping. Subsection 302(4) then states in relevant
part,

13 To be consistent with LeBeau v. State, 2014 UT 39, 337 P.3d
254,1 cite the 2014 version of the statute.
30

Cite as: 2021 UT 02
Opinion of the Court
If, when imposing a sentence under Subsection
(3) (a) or (b), a court finds that a lesser term than die
term described in Subsection (3) (a) or (b) is in the
interests of justice and states the reasons for this
finding on the record, the court may impose a
[lesser] term of imprisonment....
Utah Code § 76-5-302(4) (2014).
^[118 Reading subsections 302(3) and (4) together, the LeBeau
court held that the district court was required to conduct "the
interests-of-justice analysis laid out in subsection (4)."14 Lebeau,
2014 UT 39, f 21. And the LeBeau court defined the phrase
"interests of justice" by looking to Eighth Amendment
jurisprudence, see id.
38-41, and another provision of the
criminal code setting forth "general goals of Utah's criminal
code." Id. Tf 34 (quoting UTAH CODE § 76-1-104 (2014)). These
sources led the court to conclude that an "interests-of-justice
analysis" required the sentencing court to consider a checklist of
particulars: (1) proportionality, including "the gravity of the
offense and the harshness of the penalty," and "the sentence being
imposed [compared to] sentences imposed for other crimes in
Utah" and (2) the defendant's capacity for rehabilitation,
including deference to the role of the Board of Pardons and
Parole, the defendant's age at the time of the crime, the extent that
alcohol or drug addiction caused the offense, the presence of
violence in the defendant's criminal history, relevant Sentencing
Commission guidelines, and "all relevant factors" to the
defendant's rehabilitative potential. Id.
42-55.
f 119 But I find it unnecessary to go beyond the language of
the statute to determine its meaning. Subsection 302(4) is
straightforward. It directs that if the sentencing court finds it is "in
the interests of justice" to sentence a defendant to a "lesser term"
14 The LeBeau court reasoned that because the provisions
within subsection 302(3) (establishing the presumptive sentencing
tiers for aggravated kidnapping) state that they are to be imposed
"except as provided in Subsection . . . (4)" (the "interests of
justice" provision), then courts must always conduct an interests
of justice analysis to determine whether subsection (4) applies.
LeBeau, 2014 UT 39, f 21. And the court concluded that an
"interests of justice analysis" required a judge to consider specific
factors as described above, supra f 107.
31

State v. Norton
Opinion of the Court
rather than the presumptive term, the court may do so if it states
the reasons for this finding on the record.
If 120 Two things seem clear from the plain language of this
statute. First, it applies only if "a court finds that a lesser term" is
in the interests of justice. Where, as here and in LeBeau, a judge
sentences a defendant to the presumptive term, subsection 302(4)
should not come into play.
fl21 And second, this provision is permissive, not
mandatory, and it does not require judges to consider a list of
particulars. It states that judges "may" sentence below the
presumptive sentencing tier if they determine it is in the "interests
of justice." The sole intent is to give judges discretion to impose a
lesser term of imprisonment rather than making the presumptive
tier mandatory.
1J122 "May" is, of course, a permissive term. In this context it
means to "be permitted to" or to "be a possibility." May, Black's
Law Dictionary (11th ed. 2019).
1fl23 And the phrase "interests of justice" is merely a
"general placeholder for a principle of broad judicial discretion."
LeBeau, 2014 UT 39, 87 (Lee, J., dissenting). The LeBeau majority
observed the many times that the phrase "interests of justice" can
be found in the civil code, criminal code, rules of evidence, and
rules of procedure. Id. f 28. This reinforces my point. Various
statutes and rules invoke the "interests of justice" to signal that
judges have the discretion to consider whatever information is
before them and do what is fair, proper, or just under the
circumstances. See id. 90 (Lee, J., dissenting); see, e.g., UTAH CODE
§ 75-7-204(2)(b) (providing that a court "may entertain a
proceeding regarding any matter involving a trust if ... the
interests of justice would be seriously impaired"); id. § 77-8al(2)(d) ("When two or more defendants are jointly charged with
any offense, they shall be tried jointly unless the court in its
discretion on motion or otherwise orders separate trials consistent
with the interests of justice."); id. § 78B-1-136 ("It is the right of a
witness to be protected from irrelevant, improper or insulting
questions, and from harsh or insulting demeanor, to be detained
only so long as the interests of justice require it....").
1[124 However, LeBeau turns this statutory language on its
head. It transforms the grant of discretion inherent in the phrase
"interests of justice" into a prescribed analysis that judges must
undertake. And it requires judges to perform this analysis even
32

Cite as: 2021 UT 02
Opinion of the Court
when they have applied the presumptive sentence. LeBeau, 2014
UT 39, 55. These mandates are not found in the statute's
language.
f 125 In determining whether precedent should be
overturned, we also ask how firmly the precedent has become
established in the law since it was handed down. To do so, we
look to both the age of the precedent and the "extent to which
people's reliance on the precedent would create injustice or
hardship if it were overturned." Eldridge, 2015 UT 21, ^ 22, 35.
Other relevant considerations are how well the precedent has
worked in practice and "whether the precedent has become
inconsistent with other principles of law." Id. f 40.
If 126 LeBeau was decided in 2014 and was not based on "any
significant precursors in Utah law." Id. ^f 34. Since that time, it
"has not been necessary to the outcome of many cases." Id. | 36.
In its six years of existence, LeBeau has been cited approximately
twenty-five times by this court, the court of appeals, and Utah's
federal courts.
1127 Prior to this case, this court has conducted a LeBeau
interests of justice analysis only one time in State v. Martin, 2017
UT 63, 423 P.3d 1254. There, we declined to reverse a district court
that had not undertaken a formal proportionality analysis on the
record as required by LeBeau. Id. f 66. We recognized the
"daunting task" involved in undertaking a proportionality
analysis: "[I]t is certainly not a task that we can require our
district courts to perform without prompting or guidance from
counsel." Id.
1128 Our court of appeals has handled most of the cases
involving a LeBeau claim. Eighteen court of appeals opinions cite
LeBeau. One is this case, and nine others cite LeBeau for other
propositions—not the interests of justice analysis. That means
there have been eight court of appeals cases involving a LeBeau
interests of justice claim. The court of appeals has only once
concluded that LeBeau warranted a holding that a district court
abused its discretion. See State v. Jaramillo, 2016 UT App 70, 1 44,
372 P.3d 34. In every other case, the court of appeals either
declined to conduct the LeBeau interests of justice analysis or
decided there was no abuse of discretion. See, e.g., State v. Alvarez,
2017 UT App 145, 1 4, 402 P.3d 191 (assuming "that the
sentencing court duly considered the proportionality of [the
defendant's] sentence" because the defendant did not
demonstrate "that [the court's] presumption of appropriate
33

State v. Norton
Opinion of the Court
sentencing consideration is inapplicable"); State v. Scott, 2017 UT
App 103, Tf 13, 400 P.3d 1172 (presuming "that the court fully
considered all the information presented to it" and took into
account "the relevant factors in determining [the defendant's]
sentence"); State v. Beagles, 2017 UT App 95, f 9, 400 P.3d 1096
(holding that the district court "balanced the aggravating and
mitigating factors" and that its sentencing decision was within its
discretion).
fl29 And the court of appeals has sharply criticized LeBeau.
In State v. Coombs, where a defendant raised an ineffective
assistance of counsel claim because his counsel had not argued at
sentencing that the district court should conduct the interests of
justice analysis required by LeBeau, the court critiqued LeBeau: "In
our view, LeBeau constitutes blatant policy-based ad hoc review of
legislative action not typically undertaken by the judicial branch.
We would hope that, given the appropriate opportunity, our
supreme court will revisit whether LeBeau's approach should
continue." 2019 UT App 7, f 22 n.4, 438 P.3d 967 (citation
omitted). The court of appeals concluded, "We cannot read LeBeau
and Martin as removing from defense counsel the discretion not to
make certain arguments at sentencing. Every case is different and
defense counsel must retain wide discretion in determining what
arguments will best benefit a client under the totality of the
circumstances." Id. f 21 n.3 (citation omitted).
^{130 It appears that in the time since LeBeau was decided,
appellate courts have responded to it by applying it narrowly.
This suggests LeBeau's mandates are not workable as written.15
^131 On balance, the trouble with LeBeau is not so much its
mandate that judges consider the interests of justice before
imposing a sentence. After all, this is what judges already do.
They receive and consider any testimony, evidence, or
information that either party desires to present. Utah Code § 7718-1(7). They give the defendant an opportunity to make a
statement and present any mitigating information. And they give
the prosecution a similar opportunity to present any information
"material to the imposition of sentence." UTAH R. CRIM. P. 22(a).
They receive information about any victims of the offense. See
UTAH Code § 77-38-4(1); see also id. § 77-18-l(5)(b)(i). They read
15 Without published opinions, it is more difficult to determine
how district courts have responded to its requirements.
34

Cite as: 2021 UT 02
Opinion of the Court
any materials that have been submitted, such as a presentence
report or letters. Id. § 77-18-l(5)(a)-(b). And defense counsel and
the prosecutor use their professional judgment to choose which
arguments to make and which information to highlight in support
of their respective sentencing positions. Judges consider all of this,
along with any applicable statutes and the sentencing guidelines,
and impose the sentence they deem to be just under all the
circumstances. State v. Russell, 791 P.2d 188,192 (Utah 1990).
TJ132 Rather, the more serious problem with LeBeau is that
instead of reading the "interests of justice" as a grant of discretion,
the LeBeau court concluded this phrase requires judges to go
through a prescribed checklist of factors at sentencing, and that
judges must do so whether they impose a sentence less than the
presumptive range or within it.
fl33 This transforms a particular legislative policy decision
into something else entirely. Here and in similarly worded
statutes, the legislature has determined that Utah judges should
have the discretion to sentence below the presumptive statutory
term when they determine it is in the interests of justice —in other
words, fair and just— to do so. This is a significant policy choice,
which stands in contrast to other jurisdictions that have chosen to
enact statutory mandatory minimum sentencing schemes that are
binding upon judges in all but narrow circumstances. See, e.g., 18
U.S.C. § 3553(e) (granting federal sentencing court authority to
impose sentence below the statutory minimum only upon a
government motion stating that the defendant gave "substantial
assistance" in the investigation or prosecution of another person
who has committed an offense); id. § 3553(f) (requiring a court to
sentence without regard to a statutory minimum sentence when a
defendant meets specific criteria). Instead of observing this
fundamental aspect of the sentencing scheme enacted by the
legislature, LeBeau transforms this general grant of discretion into
something detailed and specific, which is not found in the text of
the relevant statutes.
If 134 Because I advocate for LeBeau to be overturned even
though it does not determine the result in this case, the
concurrence asserts that my analysis is an "act of judicial
overreach." See infra f 130. I agree with the concurrence that the
doctrine of stare decisis is deeply rooted in our law. We should be
extremely reluctant to overturn precedent. And generally, that
means we will not revisit precedent when it does not dictate our
holding in a particular case.
35

State v. Norton
DURRANT, C.J., concurring in part and concurring in the judgment
f 135 But I conclude that the fact that LeBeau does not govern
here—indeed, the fact that it "has not been necessary to the
outcome of many cases," Eldridge, 2015 UT 21, If 36—indicates that
it has not become firmly "established in the law since it was
handed down," id. 22. This, along with the court of appeals'
criticism of LeBeau and explicit request that this court "revisit
whether LeBeau's approach should continue," Coombs, 2019 UT
App 7, ^ 22 n.4, suggests that LeBeau has not been workable in
practice and weighs in favor of overruling it.
f 136 For these reasons, I am persuaded that this is one of the
rare occasions when we should overturn precedent.
CONCLUSION
fl37 We affirm all but one of the court of appeals'
determinations in this case. We conclude that any error in the jury
instructions for aggravated sexual assault and the underlying
offenses of rape and forcible sexual abuse did not prejudice
Norton. Further, the district court was not required to instruct on
any of the lesser included offenses Norton requested, except for
sexual battery. And we determine that at sentencing, the district
court did not err in imposing a punishment of fifteen years to life
for aggravated sexual assault and properly considered all of the
arguments and evidence before it.
^[138 With regard to our holding that the district court erred
in not instructing the jury on sexual battery as a lesser included
offense of the aggravated sexual assault charge based on forcible
sexual abuse, we reverse the conviction and remand to the district
court for a new trial.

CHIEF Justice DURRANT, concurring in part and concurring in
the judgment:
TJ139 Writing for the majority, Justice Petersen does an able
and thorough iob of addressing each of Mr. Norton's challenges to
his conviction. And she appropriately dismisses his LeBeau
challenge to his sentence as unpreserved. So far so good. We are
therefore pleased to concur in the analysis and conclusions she
sets forth in parts I through IV of her opinion. But then, she takes
a surprising step. She goes on to address the question of whether

36

Cite as: 2021 UT 02
DURRANT, C.J., concurring in part and concurring in the judgment
the rule established in LeBeau16 should be overturned. This,
despite the fact that the resolution of this question makes not one
wit of difference to Mr. Norton's case. Justice Petersen explicitly
acknowledges as much, writing that LeBeau "does not determine
the outcome in this case."17 But the fact that this is done in plain
sight makes it no less an act of judicial overreach.
^[140 And Justice Petersen further disregards judicial
restraint by not just reaching the issue unnecessarily, but then
advocating to overturn LeBeau, a significant case that, whether
right or wrong, is established precedent.18 The doctrine of stare
decisis is deeply rooted in our law. There are reasons why we
respect precedent. There are reasons why we are circumspect in
overturning it. Precedent promotes predictability and stability in
the incremental development of the law. It promotes faith in our
judicial system. It underpins and informs virtually every decision
we make as judges. This is not to say it is wholly inviolate. We, of
course, do on occasion overturn a case. But we do not do it lightly.
We do it reluctantly, cautiously, and with compelling reasons.
And we should never do it gratuitously as Justice Petersen
suggests we do here. For these reasons, we decline to join in part
V of Justice Petersen's opinion.

18 LeBeau v. State, 2014 UT 39,337 P.3d 254.
17 Supra

115.

18 See State v. Rowan, 2017 UT 88, f 24, 416 P.3d 566 (Himonas,
J., concurring) (explaining, in a concurrence joined by a majority
of the court, that "our court declines to revisit established
precedent unnecessarily").
37

ADDENDUM B

This opinion is subject to revision before final
publication in the Pacific Reporter

2020 UT 46
IN THE

Supreme Court of the State of Utah
State of Utah,
Respondent,
v.
Lonnie Norton,
Petitioner.
No. 20180514
Heard May 13, 2019
Filed July 13, 2020
On Certiorari to the Utah Court of Appeals
Third District, West Jordan
The Honorable Bruce C. Lubeck
No. 131400015
Attorneys:
Sean D. Reyes, Att'y Gen., Christopher D. Ballard,
Asst. Solic. Gen., Salt Lake City, for respondent
Lori J. Seppi, Salt Lake City, for petitioner
Justice Petersen authored the opinion of the Court with respect
to Parts I-IV in which CHIEF JUSTICE DURRANT,
Associate Chief Justice Lee, Justice Himonas, and
Justice Pearce joined, and wrote separately in Part V in which
Associate Chief Justice Lee joined.
Chief Justice Durrant filed an opinion concurring in part and
concurring in the judgment, in which JUSTICE HlMONAS and
Justice Pearce joined.

State v. Norton
Opinion of the Court
Justice Petersen, opinion of the Court:
INTRODUCTION
fl A jury convicted Lonnie Norton of breaking into the
home where his estranged wife was staying, kidnapping her,
assaulting her, and then raping her—all while she had a
protective order against him. He appealed his convictions and the
court of appeals affirmed. He petitions this court for a review of
each claim he raised before the court of appeals. We affirm on all
but one issue.
BACKGROUND1
]f2 Norton and H.N. had been married for twenty-one years
when H.N. moved out of the marital home with their four
children. She stayed in a domestic violence shelter, then moved
into her parents' home. She obtained a protective order against
Norton, which prohibited him from contacting her except to
discuss marriage counseling and their children. The protective
order permitted Norton to visit his three younger children, but
only if a supervisor was present.
f 3 One evening, H.N.'s three youngest children went to the
marital home for a weekend visitation with Norton. The events of
that night led to Norton's arrest.
^[4 At the trial on the resulting charges, both H.N. and
Norton testified. They gave vastly different accounts of what
happened that night.
The Two Conflicting Accounts
H.N.'s Account
f 5 At trial, H.N. testified that before going to bed that night,
she put chairs under the doorknobs of the front and back doors of
her parents' home, as she did each night. She had previously
placed a dryer in front of the basement door, which remained
there. After H.N. went to bed, she was awakened by a "loud
bang." She grabbed the phone and dialed 911 before noticing
Norton standing at the end of her bed. He grabbed the phone and

1 "On appeal, we review the record facts in a light most
favorable to the jury's verdict and recite the facts accordingly."
State v. Holgate, 2000 UT 74, 2, 10 P.3d 346 (citation omitted).
"We present conflicting evidence only as necessary to understand
issues raised on appeal." Id.
2

Cite as: 2020 UT 46
Opinion of the Court
punched her in the face. Norton also wound duct tape around
H.N/s head, covering her mouth.
f 6 The next thing H.N. remembered was sitting in Norton's
car at an intersection. Although it was snowing, she did not have
any shoes on. H.N. noticed that Norton had a gun in his lap,
which he picked up and pointed at her. H.N. thought Norton was
driving to his office at the University of Utah, but instead he
drove to a building in Fort Douglas. When they arrived, Norton
was still holding the gun and told H.N. that she "needed to be
quiet or he would shoot [her]."
\7 H.N. and Norton went into the building, up some stairs,
and into a bathroom. Norton ripped the duct tape off H.N.'s head
and talked to her about reconciling their marriage. After he
finished talking, Norton told H.N. to take off her shirt. When H.N.
said "no," Norton pointed the gun at her and again told her to
take off her shirt. She finally acquiesced, and Norton squeezed her
breasts.
|8 Next, Norton led H.N. into an office and told her to take
off her pants. She again said "no," and he again pointed the gun at
her, forcing her to comply. While she did so, Norton undressed,
removed the magazine from the gun, and put the magazine and
gun in a filing cabinet. Then, he told H.N. that they were going to
have sex. She said "no," but Norton responded that "yes" they
were. "So you're going to rape me?" she asked. Norton replied,
"You can't rape somebody that you're married to."
|9 He then lay on the ground and pulled H.N. on top of
him. He grabbed H.N.'s hands, flipped her so that she was
underneath him, and raped her. While Norton was on top of her,
H.N. grabbed his penis as hard as she could, but was unsure how
hard that was because she has rheumatoid arthritis. In response,
Norton again grabbed her hands and held them over her head.
|10 After raping H.N., Norton took her into the bathroom. He
told her to rinse off, but she struggled because her hands were
shaking. Norton complained that she "wasn't doing a good
enough job," and inserted his fingers into H.N.'s vagina to try to
"rinse himself out" of her. Afterwards, H.N. dried herself off with
paper towels and dressed. She then noticed that Norton was
dressed with the gun in his hand.
f 11 Back in the office, Norton set up two chairs so that they
were facing each other and told H.N. to sit. She sat, and Norton
put the gun to his head and threatened to kill himself. H.N. tried
to dissuade him, but Norton pointed the gun at H.N. and
threatened to shoot her, too. Eventually H.N. got mad and told
3

State v. Norton
Opinion of the Court
Norton to "go ahead and shoot himself," at which point he got up
and took her back to the car.
Tfl2 Norton drove to the marital home. There, H.N. checked
on the children and then convinced Norton to take her back to her
parents' home. When they arrived, Norton entered the house,
leaving only after H.N. told him she would not tell anyone what
had happened.
|13 After Norton left, H.N. called one of Norton's neighbors
and asked the neighbor to get her children out of the marital
home. H.N. also called 911, told a police officer what happened,
and asked the officer to check on her children. The police arrived
at H.N.'s parents' home, spoke with her, and then drove her to the
hospital.
Norton's Account
^[14 Norton testified at trial and gave a very different version
of these events. He claimed that H.N. told him to visit her over the
weekend so they could discuss their marriage. After their children
were asleep, Norton drove to H.N.'s parents' house to see her.
While driving over, he received a phone call from H.N., which he
missed. He arrived at H.N.'s parents' home and waited outside
until she exited the house and got in the car. Norton said he could
not remember whether H.N. was wearing shoes, but that "she
might have come running out in stocking feet" and he thought he
"gave her a pair of Reeboks to wear."
fl5 H.N. suggested they go to Norton's office to talk. While
driving, Norton decided it would be better to go to a building in
the Fort Douglas area.
f 16 After arriving at the building, Norton unlocked the door
and proceeded upstairs with H.N. where they sat down and
talked about reconciliation. H.N. said she needed time, and
Norton started talking about when they first met and when they
were first married. H.N. then came over, sat on Norton's lap, put
her arms around him, and the two started kissing. They moved to
the floor where they continued to kiss and touch each other. They
took off their clothes, continued to kiss, and then H.N. "climbed
on top" of Norton and they began "to have sex." Afterwards, they
went into the bathroom where H.N. "rinsed" and "dried herself
off."
\17 After dressing, Norton and H.N. sat down and continued
to discuss reconciliation. H.N. told Norton she did not want to
live with him anymore. He replied that if they were not going to
reconcile he thought it "would be fair" if they had joint custody of
4

Cite as: 2020 UT 46
Opinion of the Court
their children. The two argued, and H.N. slapped Norton and
then he backhanded her. H.N. tried to hit Norton more, but he
grabbed her hands and the two "rastled." H.N. went into the
bathroom, shut the door, and stayed there for about ten minutes.
When H.N. left the bathroom, they went back to the car and she
told Norton she wanted to look in on their children.
fl8 Norton drove to the marital home and they checked on
the children. He then took H.N. back to her parents' home. When
they got there, H.N. told Norton that the door was locked, so he
pushed through a locked gate and went to one of the back doors
and pushed it open. He went inside and opened a different door
to let H.N. into the home. Then, he again brought up having joint
custody of their children. This started another argument. H.N.
then claimed that he had broken into her parents' home and
beaten her up, and she threatened to call the police. Norton got
scared and left. Later that morning, the police came and arrested
him.
District Court Proceedings
Jury Instructions
If 19 The State charged Norton with aggravated kidnapping,
aggravated burglary, aggravated assault, violation of a protective
order, damage to or interruption of a communication device, and
three counts of aggravated sexual assault. The three aggravated
sexual assault charges were based on Norton squeezing H.N.'s
breasts, raping her, and inserting his fingers into her vagina,
respectively. The case proceeded to trial. When it came time to
instruct the jury, Norton asked the court for instructions on a
number of lesser included offenses. The court agreed to some of
these instructions but denied others.
Verdict
][20 On the charge of violation of a protective order and the
two charges of aggravated sexual assault relating to rape and
digital penetration, the jury found Norton guilty as charged. On
the aggravated kidnapping, aggravated burglary, and aggravated
assault charges, the jury found Norton guilty of the lesser
included offenses of kidnapping, burglary, and assault. The jury
acquitted him of interruption of a communication device and
aggravated sexual assault related to squeezing H.N.'s breasts.
Sentencing
1J21 At sentencing, the most serious punishment Norton faced
was for his two convictions of aggravated sexual assault. He made
two arguments to persuade the district court to reject the
5

State v. Norton
Opinion of the Court
presumptive punishment tier of fifteen years to life in favor of a
lower punishment tier.2
f22 First, Norton argued that the district court should not
apply the higher sentencing tier applicable to aggravated sexual
assault based on rape and forcible sexual abuse because the jury
had not been given a special verdict form to indicate the type of
sexual assault upon which they relied. Norton observed that the
court had instructed the jury that sexual assault could be based on
rape, attempted rape, forcible sexual abuse, or attempted forcible
sexual abuse. But the court did not provide the jury with a special
verdict form to indicate which underlying sexual assault offense
formed the basis of either conviction.
If23 In light of this, Norton argued there was no evidence
these convictions were based on anything more than the least
serious offense of attempted forcible sexual abuse. So he reasoned
the district court could sentence him only to six years to life, the
sentencing range corresponding to aggravated sexual assault
based on attempted forcible sexual abuse. UTAH Code § 76-5405(2)(c)(i). The court rejected this argument and concluded the
presumptive range for the two counts of aggravated sexual
assault should be fifteen years to life, the tier corresponding to
aggravated sexual assault based on completed acts of rape and
forcible sexual abuse. Id. §§ 76-5-405(2)(a)(i), -405(2)(b)(i).
^[24 Second, Norton argued that the district court should
depart from the higher sentencing tier in the "interests of justice"
due to his history, distressed state at the time of the crime, and
commitment to improving. The State countered that fifteen years
to life was an appropriate sentence because Norton committed "a
terrible crime" and had never accepted responsibility for his
actions. The court acknowledged that this was a "very difficult
case" and that Norton had a "good past" and might be "entitled
to some mercy." However, the court noted Norton's "inability and
unwillingness to follow the truth" and that his actions were the

2 The statutory sentencing range for aggravated sexual assault
varies based on the type of sexual assault involved in the offense.
If the underlying offense is rape or forcible sexual abuse, the
presumptive sentence is fifteen years to life. UTAH CODE
§ 76-5-405(2)(a)(i). If the underlying offense is attempted rape, the
presumptive sentence is ten years to life. Id. § 76-5-405(2)(b)(i).
And if the underlying offense is attempted forcible sexual abuse,
the presumptive sentence is six years to life. Id. § 76-5-405(2)(c)(i).
6

Cite as: 2020 UT 46
Opinion of the Court
"kind of conduct that simply cannot be accepted in our society."
The court sentenced Norton to fifteen years to life in prison on
both counts of aggravated sexual assault, to run concurrently.
125 In total, the district court sentenced Norton to fifteen
years to life in prison on both aggravated sexual assault
convictions, one to fifteen years in prison for kidnapping, one to
fifteen years in prison for burglary, 180 days for assault, and 365
days for violation of a protective order. The court ran each prison
term concurrently.
Court ofAppeals' Decision
126 Norton appealed, making five claims. Two of Norton's
claims centered on the district court's jury instructions. He argued
that the instructions on aggravated sexual assault and the
underlying offenses of rape and forcible sexual abuse misstated
the law because they did not make clear that Norton had to act
intentionally or knowingly with regard to H.N.'s nonconsent.
State v. Norton, 2018 UT App 82, H 25, 28, 427 P.3d 312. He also
argued that the district court erred in rejecting some of his
requests for instructions on lesser included offenses. Id. f 26.
127 Norton also challenged his sentence. He argued that the
district court's decision to apply the fifteen-to-life sentencing tier
for his aggravated sexual assault convictions "violated his rights
to due process and a jury trial" because the jury had not been
given a special verdict form to indicate the type of sexual assault
forming the basis of these convictions. Id. f 57. He reasoned that
this "impermissibly increased the penalty he would have received
had he been sentenced according to the facts that he claims were
reflected in the jury's verdict." Id. f 59. He also argued that the
court abused its discretion when it failed to properly conduct the
interests of justice analysis required by LeBeau v. State, 2014 UT 39,
337 P.3d 254. Norton, 2018 UT App 82, f 67.
128 Finally, Norton argued that the court of appeals should
reverse his convictions under the cumulative error doctrine. Id.
187.
129 The court of appeals rejected each argument. First, the
court concluded that even if the jury instructions regarding
aggravated sexual assault, rape, and forcible sexual abuse were
erroneous as to the required mental state for H.N.'s nonconsent,
any such error did not prejudice Norton. Id. 1 40. Second, the
court of appeals determined that the district court did not err in
refusing to give certain lesser included offense instructions that
Norton had requested. Id. H 49, 53, 56. It further concluded that
at sentencing, the district court correctly determined the
7

State v. Norton
Opinion of the Court
presumptive sentencing tier for the aggravated sexual assault
convictions and properly considered all the evidence and
argument presented by the parties. Id. 86. It also declined to
reverse on cumulative error grounds. Id. 87.
^[30 We granted Norton's petition for certiorari on each of
these claims. We have jurisdiction pursuant to Utah Code section
78A-3-102(3)(a).
STANDARD OF REVIEW
f31 "On certiorari, we review for correctness the decision of
the court of appeals . ..." State v. Levin, 2006 UT 50, f 15,144 P.3d
1096.
ANALYSIS
^32 We granted certiorari to consider whether the court of
appeals erred in (1) concluding that any error in the jury
instructions on aggravated sexual assault, rape, and forcible
sexual abuse did not prejudice Norton; (2) affirming the district
court's refusal to instruct the jury on additional lesser included
offenses of aggravated sexual assault, aggravated burglary, and
aggravated kidnapping; (3) affirming the district court's sentence
of fifteen years to life on both convictions of aggravated sexual
assault; (4) concluding that the district court conducted a proper
interests of justice analysis at sentencing; and (5) rejecting
Norton's claim of cumulative error. We address each issue in turn.
I. JURY INSTRUCTIONS
|33 Norton contends that the jury instructions on aggravated
sexual assault and the underlying offenses of rape and forcible
sexual abuse were incorrect. He argues that the instructions did
not adequately explain that to convict, the jury must find that he
acted knowingly and intentionally with regard to H.N.'s
nonconsent. He further contends that if the jury had been
properly instructed, there was a reasonable probability it would
have acquitted him on these charges. Norton did not object to
these instructions at trial, so he asks us to review this claim for
plain error,3 manifest injustice,4 and ineffective assistance of
counsel.
3 The State argues that we should not conduct a plain error
review because Norton invited any error in these instructions. At
trial, the district court told counsel that if they did not object to an
instruction, the court would assume they approved of it. Norton's
counsel did not object to these instructions, and the State argues
(continued...)
8

Cite as: 2020 UT 46
Opinion of the Court
TJ34 The court of appeals assumed without deciding that the
jury instructions were incorrect, and it disposed of this issue
based on lack of prejudice. State v. Norton, 2018 UT App 82, f 3040, 427 P.3d 312. We agree with the court of appeals that even
assuming Norton's criticism of these instructions is right, he has
not shown prejudice.
^|35 To show plain error or ineffective assistance of counsel,
Norton must prove he was prejudiced by the alleged error. See
State v. Jimenez, 2012 UT 41, f 20, 284 P.3d 640. The prejudice
standards for plain error and ineffective assistance are the same.
State v. McNeil, 2016 UT 3, 29, 365 P.3d 699. Prejudicial error
occurs when "there is a reasonable probability" that but for the
alleged errors, "the result of the proceeding would have been
different." Strickland v. Washington, 466 U.S. 668, 694 (1984).
f36 Norton argues that the jury instructions did not clearly
explain the requisite mens rea regarding H.N/s nonconsent. At
trial, the district court instructed the jury that the State had to
"prove a mental state as to each of the ... counts charged." It then
defined the mental states "intentionally"5 and "knowingly."6

this is tantamount to invited error. We decline to address the
State's argument because we must still analyze prejudice to
determine Norton's ineffective assistance of counsel claim. And
because we agree with the court of appeals that, even assuming
these jury instructions were erroneous, they did not prejudice
Norton, his claim fails whether we review it for ineffective
assistance, manifest injustice, or plain error.
4 Our precedent holds that in many instances "'manifest
injustice' and 'plain error' are operationally synonymous." State v.
Bullock, 791 P.2d 155,159 (Utah 1989); see also State v. Johnson, 2017
UT 76, U 57 n.16, 416 P.3d 443; State v. Maestas, 2012 UT 46, f 37,
299 P.3d 892. Norton has not argued otherwise; therefore, we
review his argument under the plain error standard.
5 The district court instructed the jury that a "person acts
intentionally ... when his conscious objective is to cause a certain
result or to engage in certain conduct." See UTAH CODE § 76-2103(1).
6 The district court instructed the jury that a "person acts
knowingly ... when the person is aware of the nature of his
conduct or is aware of the particular circumstances surrounding
(continued...)
9

State v. Norton
Opinion of the Court
f37 Regarding aggravated sexual assault, the district court
instructed the jury that it could find Norton guilty if it found
beyond a reasonable doubt that
1. [Norton] raped or attempted to rape or committed
forcible sexual abuse or attempted forcible sexual
abuse against [H.N.]; and
2. That in the course of that rape or attempted rape
or forcible sexual abuse or attempted forcible sexual
abuse [Norton]
(a) used or threatened [H.N.] with the use of a
dangerous weapon; or
(b) compelled, or attempted to compel, [H.N.]
to submit to rape or forcible sexual abuse by
threat of kidnap[p]ing, death, or serious
bodily injury to be inflicted imminently; and
3. That [Norton] did such acts knowingly or
intentionally.
^[38 The district court then instructed the jury on rape and
forcible sexual abuse. Regarding rape, it instructed the jury that it
could convict Norton if it found beyond a reasonable doubt that:
1. [Norton] had sexual intercourse with [H.N.]; and
2. That such conduct was without the consent of
[H.N.]; and
3. That said conduct was done intentionally or
knowingly.
f39 With regard to forcible sexual abuse, the district court
instructed the jury that it could convict Norton if it found beyond
a reasonable doubt that:
1. [Norton] touched the anus, buttocks, breasts, or
any part of the genitals of H.N.; and
2. That such conduct was done with the intent to
either
(a) cause substantial emotional or bodily pain
to [H.N.], or

his conduct," and when the person is "aware that his conduct is
reasonably certain to cause the result." See id. § 76-2-103(2).
10

Cite as: 2020 UT 46
Opinion of the Court
(b) arouse or gratify the sexual desires of any
person; and without the consent of [H.N.];
and
3. That said conduct was done intentionally or
knowingly.
^[40 Norton relies on State v. Barela to argue that the rape and
forcible sexual abuse instructions are incorrect because they
"implied that the mens rea requirement.. . applied only to the act
of sexual intercourse and not to the alleged victim's nonconsent."
2015 UT 22, | 26, 349 P.3d 676. If these instructions are incorrect,
so too is the aggravated sexual assault instruction because it
incorporates the instructions for these associated offenses.
*[f41 The court of appeals declined to decide whether these
instructions were erroneous, instead holding that even if they
were, it was not prejudicial error. To determine whether the
omission of an element from a jury instruction is prejudicial, we
analyze "whether the record contains evidence that could
rationally lead to a contrary finding with respect to the omitted
element." Neder v. United States, 527 U.S. 1,19 (1999). Here, we ask
specifically whether a reasonable jury could have found, based on
the "totality of the evidence in the record," that the defendant did
not have the required mental state as to the victim's nonconsent.
Barela, 2015 UT 22, % 31.
^|42 We agree with the court of appeals that a reasonable jury
could not have found that Norton mistook H.N.'s conduct for
consent based on the totality of the evidence. Norton, 2018 UT App
82,
37-40. Because the jury acquitted Norton of the charge of
aggravated sexual assault related to squeezing H.N.'s breasts,
only the counts based on the nonconsensual intercourse (rape)
and digital penetration (forcible sexual abuse) are at issue.
|43 The trial evidence with respect to these two incidents
could not support a finding that Norton may have mistakenly
interpreted H.N.'s behavior to indicate consent. With regard to
the intercourse, Norton's testimony did not describe ambiguous
behavior that he could have believed was consent. Rather, he
testified that H.N. initiated sexual activity by sitting on his lap
and later climbing on top of him. And in his version of events, the
digital penetration never happened. He claimed she fabricated her
claims against him. Specifically, he testified that after he returned
her to her parents' home he again tried to discuss custody of the
children and she threatened to call the police and accuse him of
breaking into the house and beating her up.

11

State v. Norton
Opinion of the Court
144 And H.N/s testimony similarly left no room for a finding
that Norton mistook her conduct for consent. H.N. had a
protective order against Norton. She testified that she had pulled
a dryer in front of the basement door when she first moved into
her parents' home. And each night she secured the front and back
doors by positioning chairs under the doorknobs. Despite her
efforts to create a barricade, H.N. testified that Norton broke into
the house, punched her in the face, wrapped duct tape around her
head and over her mouth, took her into the snowy night with no
shoes on, took her to an empty building, and forced her inside at
gun point. Once inside, he commanded her to undress at gun
point and then raped her. He then tried to get rid of the evidence
by directing her to clean up and inserting his fingers into her
vagina to "rinse himself out." H.N. testified that she told him "no"
multiple times.
145 Other evidence corroborated her version of events. The
police found strands of hair that resembled H.N.'s in a bathtub in
the Fort Douglas building they searched, a wad of duct tape with
hair in it in the dumpster behind the building, a mark on H.N.'s
lower back, swelling and the beginning of bruising on H.N.'s face,
and bruising on her inner thighs and labia.
146 Norton points to H.N.'s testimony that she squeezed his
penis as evidence that could have persuaded a jury that Norton
believed she was consenting. But this incident was characterized
by both sides as an act of protest. H.N. testified that in response,
Norton grabbed both her hands and pinned them above her head.
And Norton did not say in his testimony that he believed the
squeeze indicated participation. Rather, he did not mention it.
And Norton's counsel argued during closing that the squeeze
refuted H.N.'s claim that she was "totally terrified of him" and
indicated she was "not afraid to Use force" and "not afraid to be
confrontational." And even if somehow a reasonable jury could
have seen H.N.'s isolated act of squeezing Norton's penis as
ambiguous, any ambiguity vanishes when this act is viewed along
with the rest of the trial evidence.
147 A comparison with the facts in Barela helps demonstrate
why the jury instructions here were not prejudicial. In Barela, a
woman claimed her massage therapist raped her. 2015 UT 22, 1 6.
The therapist claimed the sex was consensual. Id. 1 5. After a jury
convicted the therapist of rape, he challenged on appeal a jury
instruction that did not clearly state the required mens rea for the
victim's nonconsent. Id. Iff 15-16. We agreed and reversed the
defendant's convictions. Id. 1 32.
12

Cite as: 2020 UT 46
Opinion of the Court
*[[48 This court found that the evidence was such that a jury
could have "thought that the truth fell somewhere in between the
two accounts." Id. f 30. While the victim in that case said the
defendant had suddenly instigated and perpetrated the
intercourse without her consent, she testified that she "froze,"
"neither actively participating in sex nor speaking any words,"
and otherwise expressed no reaction. Id. f 29. This court
concluded that a jury could have believed that although the
victim did not consent, the defendant may have mistakenly
thought she did. See id.
30-32. Accordingly, we held that it was
"reasonably likely" that a proper jury instruction regarding the
requisite mental state as to the victim's nonconsent could have
affected the outcome of the trial. Id. f f 31-32.
f49 In contrast, a reasonable jury could not look at the totality
of the trial evidence here and find that, under either version of
events, Norton may have mistaken H.N.'s conduct for consent.
Norton claims H.N. initiated the sexual activity and then
manufactured and exaggerated her claims against him. H.N.
claims Norton kidnapped her and then raped her at gunpoint.
This case does not involve behavior that the jury could have
viewed as a close call in either direction.
If50 Accordingly, this case does not turn on whether Norton
may have mistaken H.N.'s conduct for consent. Rather, H.N.'s
and Norton's versions of the events in question were mutually
exclusive, and the jury had to decide who to believe. We agree
with the court of appeals that even assuming the jury instructions
were erroneous, it was not reasonably likely that absent the errors
the outcome of the trial would have been different.
f51 While the jury instruction here could have been clearer,
see State v. Nexvton, 2020 UT 24, ^f 29, — P.3d — (identifying Model
Utah Jury Instruction CR1605 as an example of a clear jury
instruction for the offense of rape), we conclude that Norton did
not show he was prejudiced by the instruction, and consequently
that he failed to establish manifest injustice, plain error, or
ineffective assistance of counsel.
II. LESSER INCLUDED OFFENSES
f 52 Norton argues that the court of appeals erred in affirming
the district court's refusal to instruct on additional lesser included
offenses of aggravated kidnapping, aggravated burglary, and two
of the counts of aggravated sexual assault.
^|53 Relevant here, an offense constitutes a lesser included
offense when it is "established by proof of the same or less than
all the facts required to establish the commission of the offense
13

State v. Norton
Opinion of the Court
charged" or is "specifically designated by a statute as a lesser
included offense." Utah Code § 76-1-402(3)(a), (c).
Tf54 When a defendant requests an instruction on a lesser
included offense, we use the evidence-based standard codified in
Utah Code section 76-1-402(4) to determine whether such an
instruction is required. See State v. Poxuell, 2007 UT 9, f 24, 154
P.3d 788. We first ask whether the charged offense and the lesser
included offense have "some overlap in the statutory elements."
State v. Baker, 671 P.2d 152, 159 (Utah 1983). We then inquire
whether the trial evidence "provides a rational basis for a verdict
acquitting the defendant of the offense charged and convicting
him of the included offense." Id. at 159 (citation omitted) (internal
quotation marks omitted); see also Poxuell, 2007 UT 9, 24; Utah
CODE § 76-1-402(4). We must determine whether there is "a
sufficient quantum of evidence presented to justify sending the
question to the jury." Baker, 671 P.2d at 159. And we view the
evidence "in the light most favorable to the defendant requesting
the instruction." Poxuell, 2007 UT 9, 27.
f 55 The court of appeals carefully analyzed each of Norton's
claims of entitlement to an instruction on a lesser included
offense. We affirm the court of appeals' decision with regard to all
but one of those claims.
A. Aggravated Kidnapping
1}56 Norton argues that the court of appeals erred in affirming
the district court's refusal to instruct on unlawful detention as a
lesser included offense of aggravated kidnapping. We agree with
the court of appeals' decision.
^57 At trial, both parties requested an instruction on
kidnapping as a lesser included offense of aggravated
kidnapping. Additionally, Norton requested an instruction on
unlawful detention. The district court instructed the jury on
kidnapping but not unlawful detention. Ultimately, the jury
acquitted Norton of aggravated kidnapping but convicted him of
kidnapping.
f58 The State's aggravated kidnapping charge was based on
Norton abducting H.N. from the home, duct-taping her head and
mouth, and taking her to Fort Douglas where he sexually
assaulted her and periodically held her at gunpoint. In contrast,
Norton testified that H.N. willingly left her home and
accompanied him to the Fort Douglas building. However, he
claimed that when they arrived at the empty building they
argued, H.N. hit Norton, and he responded by backhanding her.
He then restrained H.N.'s hands to prevent her from hitting him
14

Cite as: 2020 UT 46
Opinion of the Court
again. On appeal, Norton identifies his testimony that he
temporarily restrained H.N.'s hands as being sufficient to require
the district court to instruct on unlawful detention.
Tf59 Unlawful detention is statutorily defined as a lesser
included offense of aggravated kidnapping.7 Utah Code
§ 76-5-306(2); see also id. § 76-1-402(3). But the conduct identified
by Norton is a separate act that is not included within the conduct
that constituted the greater offense of aggravated kidnapping
here. "Even if there is overlap in the statutory elements, if the
convictions rely on materially different acts, then one crime will
not be a lesser included offense of another." State v. Garrido, 2013
UT App 245, If 31, 314 P.3d 1014 (internal quotation marks
omitted).
1f60 Norton's testimony that he restrained H.N.'s hands at
Fort Douglas is separate, uncharged conduct. As to the conduct
that is the basis for the aggravated kidnapping charge —abducting
H.N. from the home, taking her to the Fort Douglas building,
periodically holding her at gunpoint, and sexually assaulting
her —Norton claims it was all voluntary and consensual. Based on
the trial evidence, the choice for the jury was to either convict him
of aggravated kidnapping or kidnapping based on H.N.'s
testimony, or acquit him based on his testimony. If the jury
believed Norton's version of events, it could not convict him of
restraining H.N.'s hands —a separate act for which he was not
charged.
^[61 We also note that Norton's testimony does not appear to
even establish the offense of unlawful detention. Unlawful
detention requires restraint or detention "without authority of

7 To prove aggravated kidnapping, the State must show in
relevant part that "in the course of committing unlawful detention
or kidnapping," a person "(a) possesses, uses, or threatens to use a
dangerous weapon," or (b) acts with intent "(vi) to commit a
sexual offense." UTAH Code § 76-5-302(1)(a), (l)(b)(vi) (2012). (We
cite to the version of the statute in effect at the time of the events
in question for this and other statutory provisions that have been
substantively amended since that time.) To prove unlawful
detention, the State must prove only that an actor "intentionally
or knowingly, without authority of law, and against the will of the
victim, detains or restrains the victim under circumstances not
constituting a violation of: (a) kidnapping ... or (c) aggravated
kidnapping." Id. § 76-5-304(1) (2012).
15

1

State v. Norton
Opinion of the Court
law." UTAH Code § 76-5-304(1) (2012). But Norton claimed he
restrained H.N/s hands in self-defense to stop her from hitting
him, and we must look at the evidence in the light most favorable
to him without weighing credibility. See Powell, 2007 UT 9, 27.
Restraining another's hands in self-defense is not unlawful. See
Utah Code § 76-2-402(l)(a) (2012) (providing that a "person is
justified in threatening or using force against another when and to
the extent that the person reasonably believes that force or a threat
of force is necessary to defend the person or a third person against
another person's imminent use of unlawful force"). So Norton's
evidence does not amount to unlawful detention.
^[62 Fundamentally, the evidence before the jury provided no
rational basis for a verdict acquitting Norton of aggravated
kidnapping and instead convicting him of unlawful detention. See
id. § 76-1-402(4). Accordingly, we agree with the court of appeals
that the district court was not obligated to instruct the jury on
unlawful detention.8
B. Aggravated Burglary
^[63 Norton argues that he was entitled to instructions oh
aggravated assault, assault, and criminal trespass as lesser
included offenses of aggravated burglary. We agree with the court
of appeals that these "are not lesser included offenses of
aggravated burglary under the facts of this case." Norton, 2018 UT
App 82, 55.
^64 At trial, the district court instructed on burglary as a
lesser included offense of aggravated burglary. But the court did
not instruct on aggravated assault, assault, or criminal trespass.

8 The State agrees with the court of appeals that an instruction
on unlawful detention was not required here but disagrees with
that court's analysis. The State reasons that because the
kidnapping was an ongoing crime that continued at Fort Douglas,
tire evidence of Norton restraining Fl.N.'s hands was not a
separate act. We appreciate the State's point, but we ultimately
agree with the court of appeals' analysis for the reasons explained
above, supra Iff 56-62. The evidence Norton identifies provides a
rational basis for a verdict acquitting him of aggravated
kidnapping, but not for one convicting him of unlawful detention
because the restraint was a separate uncharged act. See UTAH
CODE § 76-1-402(4).
16

Cite as: 2020 UT 46
Opinion of the Court
|65 Aggravated burglary, aggravated assault, and assault do
have overlapping statutory elements.9 But again, Norton relies on
evidence of a materially separate, uncharged act to argue that the
district court should have instructed on these offenses.
|66 The State's aggravated burglary charge was based on the
events surrounding Norton breaking into H.N/s parents' home at
the beginning of the night in question. These events included
H.N. waking to a "loud bang"—presumably caused by one of the
objects she had used to barricade the doors — and finding Norton
standing at the end of her bed. He then punched her in the face.
f 67 At trial, Norton denied all of this. He claimed that he did
not break into H.N.'s parents' home at the beginning of the night,
but that he waited in his car outside of the home for her to
willingly join him. However, he points to his testimony that he
backhanded H.N. and injured her face at Fort Douglas as
supporting instructions on aggravated assault and assault as
lesser included offenses of aggravated burglary.
Tf68 This is an uncharged act that is separate from the conduct
forming the basis of the aggravated burglary charge —Norton
breaking into H.N.'s parents' home and punching her in the face.
As the court of appeals aptly concluded, "Because the facts and
evidence developed to establish the greater offense of aggravated
burglary were different from the facts and evidence relied upon

9 At the time of the conduct at issue, aggravated burglary
occurred when a person "in attempting, committing, or fleeing
from a burglary ... (a) cause[d] bodily injury to any person who
[was] not a participant in the crime; (b) use[d] or threatened] the
immediate use of a dangerous weapon against any person who
[was] not a participant in the crime; or (c) possesse[d] or
attempted] to use any explosive or dangerous weapon." Id. § 766-203(1).
An aggravated assault occurred if a person "commit[ed]
assault" and used "(a).a dangerous weapon ... or (b) other means
or force likely to produce death or serious bodily injury." Id. § 765-103(1).
And an assault was "(a) an attempt, with unlawful force or
violence, to do bodily injury to another; (b) a threat, accompanied
by a show of immediate force or violence, to do bodily injury to
another; or (c) an act, committed with unlawful force or violence,
that cause[d] bodily injury to another or create[d] a substantial
risk of bodily injury to another." Id. § 76-5-102(1) (2012).
17

State v. Norton
Opinion of the Court
by Norton to claim entitlement to the lesser included offense
instructions of aggravated assault and assault, those lesser
offenses were not included within the greater offenses." Id. f 56.
|69 Norton's testimony about this uncharged conduct
provides a basis for an additional offense but not a lesser offense
included within the conduct for which he was actually charged.
Accordingly, the evidence at trial did not provide a rational basis
for a verdict acquitting Norton of aggravated burglary or burglary
and instead convicting him of aggravated assault or assault. So
the district court was not required to give the lesser included
offense instructions he requested.
^[70 Norton also argued to the court of appeals that he was
entitled to an instruction on criminal trespass because he went to
H.N.'s residence at the end of the night, which the protective
order prohibited. See id. ]j 56 n.13. Because Norton's trial counsel
did not request a criminal trespass instruction, Norton raises this
argument based on ineffective assistance of counsel. See id.
Tf71 The court of appeals concluded again that because of the
different underlying conduct that Norton relied on to make his
argument, "criminal trespass was not an included offense of
aggravated burglary under the circumstances of this case, and
Norton's counsel was therefore not ineffective for failing to
request criminal trespass as a lesser included instruction." Id.
^[72 The court of appeals was correct. Norton's testimony
about going to H.N.'s parents' home at the end of the night is
separate from his breaking into the house at the beginning of the
night. It is uncharged conduct. If it did support a conviction for
criminal trespass, that conviction would not be in lieu of burglary
but in addition to it. Accordingly, the district court was not
required to instruct on criminal trespass and Norton's counsel
was not ineffective for not requesting such an instruction.
C. Aggravated Sexual Assault Based on Rape
f 73 Norton argues that the district court erred in declining to
instruct the jury on sexual battery as a lesser included offense of
aggravated sexual assault based on rape. But we agree with the
court of appeals that the district court did not err in refusing to
give such an instruction.
^[74 At trial, Norton and the State requested instructions on
rape, forcible sexual abuse, and sexual battery as lesser included
offenses of aggravated sexual assault based on rape. The district
court did instruct the jury on rape and forcible sexual abuse, but
not on sexual battery. Although the jury was instructed on two
18

Cite as: 2020 UT 46
Opinion of the Court
lesser included offenses, it convicted Norton of aggravated sexual
assault as charged.
f 75 The offenses of aggravated sexual assault based on the
underlying offense of rape and sexual battery have overlapping
elements.10 Norton argues that he was entitled to a sexual battery
instruction because the jury could have disbelieved H.N. or found
that she exaggerated her allegations to gain an advantage in the
custody battle. Norton also asserts that her testimony about the
rape was ambiguous because she did not struggle after he
initiated sex, except to squeeze his penis. And he argues that in
light of his testimony that the sex was consensual, the jury could
have found that no rape occurred, but when Norton held her
hands above her head, that particular sexual position might have
caused her momentary affront or alarm.
1)76 This is pure speculation. Norton has not identified a
quantum of evidence presented at trial that would support
instructing the jury on sexual battery. Norton testified that the
sexual intercourse was entirely consensual and that H.N. was an
active participant. The only testimony about him pinning H.N/s
hands above her head came from her. And she testified that she
did not consent to any sexual activity, and that when he held her
hands above her head it was in response to her squeezing his
penis. There was no evidence to support a finding that the
10 The relevant statutory language provides, "A person
commits aggravated sexual assault if: (a) in the course of a rape
... or forcible sexual abuse, the actor: (i) uses, or threatens the
victim with the use of, a dangerous weapon" or "(ii) compels, or
attempts to compel, the victim to submit to rape ... or forcible
sexual abuse[] by threat of kidnap[p]ing, death, or serious bodily
injury to be inflicted imminently on any person." UTAH CODE
§ 76-5-405(1).
"A person commits rape when the actor has sexual intercourse
with another person without the victim's consent." Id. § 76-5402(1).
"A person is guilty of sexual battery if the person, under
circumstances not amounting to" rape, forcible sexual abuse,
attempted rape, or attempted forcible sexual abuse, "intentionally
touches, whether or not through clothing, the anus, buttocks, or
any part of the genitals of another person, or the breast of a female
person, and the actor's conduct is under circumstances the actor
knows or should know will likely cause affront or alarm to the
person touched." Id. § 76-9-702.1(1).
19

State v. Norton
Opinion of the Court
intercourse was consensual, but Norton should have known that
H.N. intermittently experienced affront or alarm. Accordingly, the
evidence did not provide a rational basis to acquit Norton of rape
and instead convict him of sexual battery. See UTAH CODE § 76-1402(4). So no such instruction was required.
D. Aggravated Sexual Assault Based on Forcible Sexual Abuse
|77 Norton also argues that the court of appeals erred in
affirming the district court's refusal to instruct on sexual battery
as a lesser included offense of aggravated sexual assault based on
forcible sexual abuse. We agree with Norton that an instruction on
sexual battery was required.
If 78 First, aggravated sexual assault based on forcible sexual
abuse and sexual battery have "some overlap in the statutory
elements." Baker, 671 P.2a at 159. Both offenses require that the
actor touches the anus, buttocks, or any part of the genitals of
another. See UTAH CODE §§76-5-404(1), 76-5-405(1), and 76-9702.1(1) (2012). But they have different requisite mental states.
Forcible sexual abuse requires that the defendant act with the
intent to cause substantial emotional or bodily pain or to gratify
the sexual desire of any person. Id. § 76-5-404(1) (2012). But sexual
battery requires only that the defendant's conduct be under
circumstances that the defendant knows or should know would
cause affront or alarm to the person touched. Id. § 76-9-702.1(1).
^[79 Second, we conclude that "the evidence offered provides
a rational basis for a verdict acquitting the defendant of the
offense charged and convicting him of the included offense."
Baker, 671 P.2d at 159 (citation omitted) (internal quotation marks
omitted); see also UTAH Code § 76-1-402(4). Here, both the State
and Norton rely on H.N.'s testimony that Norton inserted his
finger into her vagina to wipe away his DNA. Norton's testimony
was that this touch did not happen. But relying on H.N.'s
testimony that the touch occurred, Norton argues that the
evidence, if believed, would support a finding that Norton
"touched [H.N.] under circumstances he knew or should have
known would likely cause affront or alarm" (the mental state
required for sexual battery), rather than with intent to cause
substantial emotional or bodily pain or to gratify his sexual desire
(the mental state required for forcible sexual abuse).
^[80 We agree. H.N.'s testimony indicates Norton was
attempting to conceal his crime. While a jury could infer that in
doing so he also intended to gratify his sexual desire or cause
H.N. emotional or bodily pain, a jury could also infer from the
same evidence that Norton touched H.N.'s vagina only under
20

Cite as: 2020 UT 46
Opinion of the Court
circumstances he knew or should have known would likely cause
her affront or alarm. The trial evidence therefore provides a
rational basis for a verdict acquitting Norton of aggravated sexual
assault based on forcible sexual abuse and convicting him of
sexual battery.
^}81 We must now determine whether this error prejudiced
Norton. An error is prejudicial if there is a "reasonable likelihood
that the error affected the outcome of the proceedings." State v.
Reece, 2015 UT 45, 33, 349 P.3d 712 (citation omitted).
|82 We conclude this error did prejudice Norton because had
the jury been instructed on sexual battery, the evidence supported
a conviction on the less serious charge and an acquittal on both
aggravated sexual assault and the lesser included offense on
which the district court instructed—forcible sexual abuse. Here,
although the district court instructed on the lesser included
offense of forcible sexual abuse, the jury convicted Norton on
aggravated sexual abuse as charged. Generally,
[wjhere a jury is instructed on, and has the
opportunity to convict a defendant of, a lesser
included offense, but refuses to do so and instead
convicts the defendant of a greater offense, failure to
instruct the jury on another lesser included offense,
particularly an offense that constitutes a lesser
included offense of the lesser included offense that
the jury was instructed on, is harmless error.
State v. Daniels, 2002 UT 2, f 28, 40 P.3d 611.
f83 However, this is a distinct situation and causes us to
depart from our more general precedent. If the jury were to infer
from H.N/s testimony that Norton acted under circumstances that
he knew would cause her affront or alarm, but did not intend to
gratify his sexual desire or cause her emotional or physical pain,
that would lead to acquittal of both aggravated sexual assault and
forcible sexual abuse and conviction of sexual battery. Thus, there
is a reasonable likelihood that the error affected the outcome of
the proceedings. Accordingly, we conclude that the district court's
error prejudiced Norton and reverse the court of appeals'
affirmance of Norton's conviction of aggravated sexual assault
based on digital penetration.
III. SENTENCING
f84 The longest potential terms of imprisonment Norton
faced at sentencing were for his two aggravated sexual assault
convictions. The district court sentenced him to fifteen years to life
21

State v. Norton
Opinion of the Court
in prison on both of them. He argues that this was error and that
the court of appeals should have reversed for two reasons.11
A. Special Verdict Form
^|85 Norton argues that the district court should not have
applied the sentencing tier applicable to aggravated assault based
on a completed act of rape because the jury was not given a
special verdict form to indicate which underlying sexual assault
offense formed the basis of the conviction. In light of this/ Norton
argues the district court should have sentenced him to the lowest
term of six years to life — the sentencing range corresponding to an
aggravated sexual assault conviction based on attempted forcible
sexual abuse. Utah Code § 76-5-405(2)(c)(i).
1}86 The court of appeals held that the district court did not
err because there was no factual basis "to support a conclusion
that the jury could have determined that the sexual acts
underlying [the charge] constituted only attempted forcible sexual
abuse." State v. Norton, 2018 UT App 82, | 61, 427 P.3d 312.
Tf87 While we affirm the court of appeals' conclusion that the
district court applied the correct sentencing tier, we do so on an
alternative basis. We conclude that Norton did not preserve this
issue in the district court.
^[88 At trial, the district court instructed the jury that
aggravated sexual assault occurs when a person commits a sexual
assault such as rape, forcible sexual abuse, attempted rape, or
attempted forcible sexual abuse, and does so under certain
aggravating circumstances. UTAH CODE § 76-5-405(1). The
presumptive sentence for aggravated sexual assault varies based
on the underlying offense from which it arises. Id. § 76-5-405(2). If
the underlying offense is rape or forcible sexual abuse, the
presumptive sentence is fifteen years to life. Id. § 76-5-405(2)(a)(i).
If the underlying offense is attempted rape, the presumptive
sentence is ten years to life. Id. § 76-5-405(2)(b)(i). And if the
underlying offense is attempted forcible sexual abuse, the
presumptive sentence is six years to life. Id. § 76-5-405(2)(c)(i). A
court may impose a lesser term if it finds that doing so is in the

11 As we have reversed the conviction for aggravated sexual
assault based on forcible sexual abuse, only the conviction for
aggravated sexual assault based on rape remains. Consequently,
we analyze Norton's argument only with respect to the remaining
count.
22

State v. Norton
Opinion of the Court
trial but was instead raised at a scheduling conference where the
error could no longer be corrected). Because Norton has not
argued any exception to the preservation requirement here, his
claim fails.12
B. Interests of Justice
f95 Norton also argues that the district court erred in not
sentencing him to a lesser sentence "in the interests of justice."
UTAH Code § 76-5-405(3)(a). Specifically, Norton claims that in
sentencing him to the presumptive sentence of fifteen years to life
on his aggravated assault sexual conviction, see id. § 76-5405(2)(a)(i), the district court did not conduct the interests of
justice analysis or make the explicit findings required by LeBeau v.
State, 2014 UT 39, 337 P.3d 254. He argues this was an abuse of
discretion.
]f96 "We traditionally afford the trial court wide latitude and
discretion in sentencing." State v. Woodland, 945 P.2d 665, 671
(Utah 1997). We will not set aside a sentence unless the district
court abused its discretion by "fail[ing] to consider all legally
relevant factors or if the sentence imposed is clearly excessive."
State v. McCovey, 803 P.2d 1234, 1235 (Utah 1990) (abrogated on
other grounds by State v. Smith, 2005 UT 57,122 P.3d 615) (footnote
omitted) (internal quotation marks omitted).
f 97 But relying on our holding in LeBeau, Norton argues the
district court should have sua sponte analyzed the proportionality
12 In any event, Norton's argument does not persuade us that
the absence of a special verdict form was plain error. Norton relies
on Apprendi v. New Jersey, 530 U.S. 466 (2000) and Alleyne v. United
States, 570 U.S. 99 (2013) to argue that in the instance of a tiered
sentencing structure, where the jury is instructed on versions of
the offense that qualify for more than one tier, a special verdict
form is required. But this is an extension of Apprendi and Alleyne.
In Apprendi, the United States Supreme Court held that " [ojther
than the fact of a prior conviction, any fact that increases the
penalty for a crime beyond the prescribed statutory maximum must be
submitted to a jury, and proved beyond a reasonable doubt." 530
U.S. at 490 (emphasis added). In Alleyne, the Supreme Court
extended the same holding to any fact that increases the
mandatory minimum sentence. 570 U.S. at 108. And Norton does
not explain why Apprendi and Alleyne require a special verdict
form under the circumstances here.

24

Cite as: 2020 UT 46
Opinion of the Court
interests of justice and states the reasons for that finding on the
record. Id. § 76-5-405(3)(a), (4)(a), (5)(a).
If89 At trial, defense counsel and the State reviewed the jury
instructions and neither requested a special verdict form. So when
the jury rendered its verdict, it did not identify the offense
underlying the aggravated sexual assault conviction.
Tf90 At sentencing, Norton argued that without a special
verdict form there was no indication the jury found him guilty of
aggravated sexual assault based on anything but the least serious
offense of attempted forcible sexual abuse. He asserted that
consequently he should be sentenced only under the
corresponding sentencing tier of six years to life.
^[91 In response, the State argued that all evidence presented
at trial was of completed, not attempted, sexual assaults. So
Norton should be sentenced in accordance with the tier
corresponding to aggravated sexual assault based on a completed
act of rape. The district court agreed that fifteen years to life was
the presumptive punishment tier, given the evidence presented at
trial.
|92 Norton argues that this deprived him of the due process
guarantee of "the right to a jury trial on every element of the
offense." But Norton did not raise this argument until sentencing,
and that was too late.
^|93 "As a general rule, claims not raised before the trial court
may not be raised on appeal." State v. Holgate, 2000 UT 74, ]f 11,10
P.3d 346. During trial, the parties met with the district court to
finalize the jury instructions. This was the appropriate time for
Norton to request that a special verdict form be included. But he
made no mention of a special verdict form. Rather, Norton raised
the issue at sentencing when it was too late for the district court to
remedy the issue.
f 94 This conclusion is contrary to that of our court of appeals,
which held the issue was preserved because Norton "made these
same arguments to the court below." Norton, 2018-UT App 82,
159 n.15. It is correct that Norton made this argument at
sentencing. However, our preservation rules ensure that issues
are addressed and, if appropriate, corrected when they arise.
Holgate, 2000 UT 74,111. Had Norton requested a special verdict
form at trial, the district court could have included a form or
denied his request. But at sentencing, it was too late for the district
court to do either. Accordingly, Norton's claim is unpreserved. See
State v. Cram, 2002 UT 37, f 11, 46 P.3d 230 (concluding that an
objection was not preserved because it could have been raised at
23

Cite as: 2020 UT 46
Opinion of the Court
of his sentence and his potential for rehabilitation. In determining
proportionality, Norton argues that the court should have
considered both the gravity of his conduct in relation to the
severity of the sentence imposed on him, and the severity of his
sentence relative to sentences imposed for other crimes in Utah.
And he argues that in analyzing his rehabilitative potential, the
district court should have considered the Board of Pardons' role
in monitoring his behavior and progress toward rehabilitation, his
age, any ties between the crime and alcohol or drug addiction and
his treatment prospects, the existence of a criminal history of
violence, and the "Sentencing Commission's guidelines." (Citing
LeBeau, 2014 UT 39, It 52, 54.)
t98 However, as we made clear in State v. Martin, the
district court does not have an obligation to consider anything the
defendant does not raise. 2017 UT 63, 162, 423 P.3d 1254
("[W]hen a sentencing court commits an error that was not
objected to below, an appellant must ... show the existence of
plain error or exceptional circumstances that would justify the
exercise of our review."). Rather, the district court need only
consider the arguments and issues the defendant raises at
sentencing.
f99 And as the court of appeals correctly observed, the
district court considered all of the evidence and arguments
Norton presented at sentencing. The district court acknowledged
letters describing Norton as a good person, as well as letters
describing Norton as a violent person. The court also
acknowledged Norton was going through a devastating divorce
but determined Norton's behavior was still "way, way, way over
the line." Further, the court noted that a factor of the sentence was
Norton's "inability and unwillingness to follow the truth."
Ultimately, the district court decided Norton was "entitled to
some mercy, but not what [his] lawyer [was] asking for."
flOO But Norton argues that the district court failed to
consider whether his sentence was proportional to sentences for
other similar crimes. And he contends that he raised this at
sentencing when he argued his conduct did not "rise to the level
of the kinds of egregious cases where we have individuals who
suffered significant loss of life or impairment." But this is not
enough. In Martin, we held a similar sentencing issue was
unpreserved because counsel did not object to the analysis the
district court used or identify the other offenses the court should
take into consideration. Id. ^ 64-66. Comparing sentences is
"daunting" and "certainly not a task that we can require our
district courts to perform without prompting or guidance from
25

State v. Norton
Opinion of the Court
counsel." Id. f 66. Norton did not ask the district court to compare
his sentence to sentences imposed for other offenses or identify
what those other offenses might be. Accordingly, this issue is
unpreserved.
1J101 The district court adequately addressed the arguments
Norton raised at sentencing. We affirm the court of appeals'
decision that the district court did not abuse its discretion by
declining to reduce the presumptive sentence on the basis of the
"interests of justice."
IV. CUMULATIVE ERROR
fl02 Norton argues that the court of appeals erroneously
rejected his cumulative error argument. An appellate court will
reverse if "the cumulative effect of the several errors undermines
[the court's] confidence ... that a fair trial was had." Siaie v. Kohl,
2000 UT 35, f 25, 999 P.2d 7 (second alteration in original)
(citation omitted). However, we have identified only one error in
Norton's trial. A "single accumulable error cannot warrant
reversal under the cumulative error doctrine." State v. MartinezCastellanos, 2018 UT 46, 48, 428 P.3d 1038. We thus reject his
cumulative error argument.
V. LEBEAU SHOULD BE OVERRULED
^[103 Although LeBeau v. State, 2014 UT 39, 337 P.3d 254 does
not determine the outcome in this case, I write this section
separately because I conclude LeBeau should be explicitly
overturned. The holding in LeBeau contradicts the applicable
statute's plain language. And in so doing it takes the legislature's
policy choice to give judges discretion to sentence below the
presumptive statutory tier and replaces it with a rigid, mandatory
framework that applies even when a judge imposes the
presumptive sentence.
f 104 I agree with Justice Lee's dissent in LeBeau, but I will not
duplicate his analysis here. Instead, I add my own observations
and apply the law outlined in Eldridge v. Johndroiv, 2015 UT 21,345
P.3d 553, to argue that LeBeau should be overrulM.
^[105 When considering whether precedent should be
overturned, we evaluate: "(1) the persuasiveness of the authority
and reasoning on which the precedent was originally based, and
(2) how firmly the precedent has become established in the law
since it was handed down." Id. ]f 22.
fl06 The first consideration — the persuasiveness of the
authority and reasoning on which LeBeau is based—counsels in
favor of overturning it. The opinion did not derive from prior
26

Cite as: 2020 UT 46
Opinion of the Court
authority. It was a fresh interpretation of a provision of Utah's
aggravated kidnapping statute, which I conclude is incorrect.
Lebeau, 2014 UT 39, f 25.
TflO7 The LeBeau court interpreted the sentencing scheme
within the aggravated kidnapping statute.13 Id. f 20-22; see also
UTAH Code §76-5-302(3), (4) (2014). Subsection 302(3) of the
statute establishes presumptive sentencing tiers for variations of
aggravated kidnapping. Subsection 302(4) then states in relevant
part,
If, when imposing a sentence under Subsection
(3) (a) or (b), a court finds that a lesser term than the
term described in Subsection (3) (a) or (b) is in the
interests of justice and states the reasons for this
finding on the record, the court may impose a
[lesser] term of imprisonment....
UTAH CODE § 76-5-302(4) (2014).
*[[108 Reading subsections 302(3) and (4) together, the LeBeau
court held that the district court was required to conduct "the
interests-of-justice analysis laid out in subsection (4)."14 Lebeau,
2014 UT 39, 21. And the LeBeau court defined the phrase
"interests of justice" by looking to Eighth Amendment
jurisprudence, see id. Tff 38-41, and another provision of the
criminal code setting forth "general goals of Utah's criminal
code." Id. f 34 (quoting UTAH CODE § 76-1-104 (2014)). These
sources led the court to conclude that an "interests-of-justice
analysis" required the sentencing court to consider a checklist of
particulars: (1) proportionality, including "the gravity of the
offense and the harshness of the penalty," and "the sentence being
imposed [compared to] sentences imposed for other crimes in
Utah" and (2) the defendant's capacity for rehabilitation,
13 To be consistent with LeBeau v. State, 2014 UT 39, 337 P.3d
254,1 cite the 2014 version of the statute.
14 The LeBeau court reasoned that because the provisions
within subsection 302(3) (establishing the presumptive sentencing
tiers for aggravated kidnapping) state that they are to be imposed
"except as provided in Subsection ... (4)" (the "interests of
justice" provision), then courts must always conduct an interests
of justice analysis to determine whether subsection (4) applies.
LeBeau, 2014 UT 39, ^[ 21. And the court concluded that an
"interests of justice analysis" required a judge to consider specific
factors as described above, supra ^[ 97.
27

State v. Norton
Opinion of the Court
including deference to the role of the Board of Pardons and
Parole, the defendant's age at the time of the crime, the extent that
alcohol or drug addiction caused the offense, the presence of
violence in the defendant's criminal history, relevant Sentencing
Commission guidelines, and "all relevant factors" to the
defendant's rehabilitative potential. Id.
42-55.
^[109 But I find it unnecessary to go beyond the language of
the statute to determine its meaning. Subsection 302(4) is
straightforward. It directs that if the sentencing court finds it is "in
the interests of justice" to sentence a defendant to a "lesser term"
rather than the presumptive term, the court may do so if it states
the reasons for this finding on the record.
fllO Two things seem clear from the plain language of this
statute. First, it applies only if "a court finds that a lesser term" is
in the interests of justice. Where, as here and in LeBeau, a judge
sentences a defendant to the presumptive term, subsection 302(4)
should not come into play.
^[111 And second, this provision is permissive, not
mandatory, and it does not require judges to consider a list of
particulars. It states that judges "may" sentence below the
presumptive sentencing tier if they determine it is in the "interests
of justice." The sole intent is to give judges discretion to impose a
lesser term of imprisonment rather than making the presumptive
tier mandatory.
^[112 "May" is, of course, a permissive term. In this context it
means to "be permitted to" or to "be a possibility." May, BLACK'S
Law Dictionary (11th ed. 2019).
Tfll3 And the phrase "interests of justice" is merely a
"general placeholder for a principle of broad judicial discretion."
LeBeau, 2014 UT 39, Tj 87 (Lee, ]., dissenting). The LeBeau majority
observed the many times that the phrase "interests of justice" can
be found in the civil code, criminal code, rules of evidence, and
rules of procedure. Id. ^ 28. This reinforces my point. Various
statutes and rules invoke the "interests of justice" to signal that
judges have the discretion to consider whatever information is
before them and do what is fair, proper, or just under the
circumstances. See id. 90 (Lee, J., dissenting); see, e.g., UTAH CODE
§ 75-7-204(2)(b) (providing that a court "may entertain a
proceeding regarding any matter involving a trust if ... the
interests of justice would be seriously impaired"); id. § 77-8al(2)(d) ("When two or more defendants are jointly charged with
any offense, they shall be tried jointly unless the court in its
discretion on motion or otherwise orders separate trials consistent
28

Cite as: 2020 UT 46
Opinion of the Court
with the interests of justice."); id. § 78B-1-136 ("It is the right of a
witness to be protected from irrelevant, improper or insulting
questions, and from harsh or insulting demeanor, to be detained
only so long as the interests of justice require it....").
fll4 However, LeBeau turns this statutory language on its
head. It transforms the grant of discretion inherent in the phrase
"interests of justice" into a prescribed analysis that judges must
undertake. And it requires judges to perform this analysis even
when they have applied the presumptive sentence. LeBeau, 2014
UT 39, If 55. These mandates are not found in the statute's
language.
^|115 In determining whether precedent should be
overturned, we also ask how firmly the precedent has become
established in the law since it was handed down. To do so, we
look to both the age of the precedent and the "extent to which
people's reliance on the precedent would create injustice or
hardship if it were overturned." Eldridge, 2015 UT 21,
22, 35.
Other relevant considerations are how well the precedent has
worked in practice and "whether the precedent has become
inconsistent with other principles of law." Id. f 40.
^[116 LeBeau was decided in 2014 and was not based on "any
significant precursors in Utah law." Id. ^ 34. Since that time, it
"has not been necessary to the outcome of many cases." Id. f 36.
In its six years of existence, LeBeau has been cited approximately
twenty-five times by this court, the court of appeals, and Utah's
federal courts.
fll7 Prior to this case, this court has conducted a LeBeau
interests of justice analysis only one time in State v. Martin, 2017
UT 63, 423 P.3d 1254. There, we declined to reverse a district court
that had not undertaken a formal proportionality analysis on the
record as required by LeBeau. Id. f 66. We recognized the
"daunting task" involved in undertaking a proportionality
analysis: " [I] t is certainly not a task that we can require our
district courts to perform without prompting or guidance from
counsel." Id.
|118 Our court of appeals has handled most of the cases
involving a LeBeau claim. Eighteen court of appeals opinions cite
LeBeau. One is this case, and nine others cite LeBeau for other
propositions—not the interests of justice analysis. That means
there have been eight court of appeals cases involving a LeBeau
interests of justice claim. The court of appeals has only once
concluded that LeBeau warranted a holding that a district court
abused its discretion. See State v. Jaramillo, 2016 UT App 70, *|f 44,
29

State v. Norton
Opinion of the Court
372 P.3d 34. In every other case, the court of appeals either
declined to conduct the LeBeau interests of justice analysis or
decided there was no abuse of discretion. See, e.g., State v. Alvarez,
2017 UT App 145, f 4, 402 P.3d 191 (assuming "that the
sentencing court duly considered the proportionality of [the
defendant's] sentence" because the defendant did not
demonstrate "that [the court's] presumption of appropriate
sentencing consideration is inapplicable"); State v. Scott, 2017 UT
App 103, f 13, 400 P.3d 1172 (presuming "that the court fully
considered all the information presented to it" and took into
account "the relevant factors in determining [the defendant's]
sentence"); State v. Beagles, 2017 UT App 95, ^ 9, 400 P.3d 1096
(holding that the district court "balanced the aggravating and
mitigating factors" and that its sentencing decision was within its
discretion).
^[119 And the court of appeals has sharply criticized LeBeau.
In State v. Coombs, where a defendant raised an ineffective
assistance of counsel claim because his counsel had not argued at
sentencing that the district court should conduct the interests of
justice analysis required by LeBeau, the court critiqued LeBeau: "In
our view, LeBeau constitutes blatant policy-based ad hoc review of
legislative action not typically undertaken by the judicial branch.
We would hope that, given the appropriate opportunity, our
supreme court will revisit whether LeBeau's approach should
continue." 2019 UT App 7, f 22 n.4, 438 P.3d 967 (citation
omitted). The court of appeals concluded, "We cannot read LeBeau
and Martin as removing from defense counsel the discretion not to
make certain arguments at sentencing. Every case is different and
defense counsel must retain wide discretion in determining what
arguments will best benefit a client under the totality of the
circumstances." Id. f 21 n.3 (citation omitted).
fl20 It appears that in the time since LeBeau was decided,
appellate courts have responded to it by applying it narrowly.
This suggests LeBeau's mandates are not workable as written.15
Tfl21 On balance, the trouble with LeBeau is not so much its
mandate that judges consider the interests of justice before
imposing a sentence. After all, this is what judges already do.
They receive and consider any testimony, evidence, or
information that either party desires to present. UTAH CODE § 77-

15 Without published opinions, it is more difficult to determine
how district courts have responded to its requirements.
30

Cite as: 2020 UT 46
Opinion of the Court
18-1(7). They give the defendant an opportunity to make a
statement and present any mitigating information. And they give
the prosecution a similar opportunity to present any information
"material to the imposition of sentence." UTAH R. CRIM. P. 22(a).
They receive information about any victims of the offense. See
UTAH CODE § 77-38-4(1); see also id. § 77-18-l(5)(b)(i). They read
any materials that have been submitted, such as a presentence
report or letters. Id. § 77-18-l(5)(a)-(b). And defense counsel and
the prosecutor use their professional judgment to choose which
arguments to make and which information to highlight in support
of their respective sentencing positions. Judges consider all of this,
along with any applicable statutes and the sentencing guidelines,
and impose the sentence they deem to be just under all the
circumstances. State v. Russell, 791 P.2d 188,192 (Utah 1990).
1(122 Rather, the more serious problem with LeBeau is that
instead of reading the "interests of justice" as a grant of discretion,
the LeBeau court concluded this phrase requires judges to go
through a prescribed checklist of factors at sentencing, and that
judges must do so whether they impose a sentence less than the
presumptive range or within it.
1(123 This transforms a particular legislative policy decision
into something else entirely. Here and in similarly worded
statutes, the legislature has determined that Utah judges should
have the discretion to sentence below the presumptive statutory
term when they determine it is in the interests of justice —in other
words, fair and just—to do so. This is a significant policy choice,
which stands in contrast to other jurisdictions that have chosen to
enact statutory mandatory minimum sentencing schemes that are
binding upon judges in all but narrow circumstances. See, e.g., 18
U.S.C. § 3553(e) (granting federal sentencing court authority to
impose sentence below the statutory minimum only upon a
government motion stating that the defendant gave "substantial
assistance" in the investigation or prosecution of another person
who has committed an offense); id. § 3553(f) (requiring a court to
sentence without regard to a statutory minimum sentence when a
defendant meets specific criteria). Instead of observing this
fundamental aspect of the sentencing scheme enacted by the
legislature, LeBeau transforms this general grant of discretion into
something detailed and specific, which is not found in the text of
the relevant statutes.
1(124 Because I advocate for LeBeau to be overturned even
though it does not determine the result in this case, the
concurrence asserts that my analysis is an "act of judicial
overreach." See infra If 130. I agree with the concurrence that the
31

State v. Norton
DURRANT, C.J., concurring in part and concurring in the judgment
doctrine of stare decisis is deeply rooted in our law. We should be
extremely reluctant to overturn precedent. And generally, that
means we will not revisit precedent when it does not dictate our
holding in a particular case.
f 125 But I conclude that tire fact that LeBeau does not govern
here —indeed, the fact that it "has not been necessary to the
outcome of many cases," Eldridge, 2015 UT 21, f 36 —indicates that
it has not become firmly "established in the law since it was
handed down," id. f 22. This, along with the court of appeals'
criticism of LeBeau and explicit request that this court "revisit
whether LeBeau's approach should continue," Coombs, 2019 UT
App 7, ]j 22 n.4, suggests that LeBeau has not been workable in
practice and weighs in favor of overruling it.
f 126 For these reasons, I am persuaded that this is one of the
rare occasions when we should overturn precedent.
CONCLUSION
^[127 We affirm all but one of the court of appeals'
determinations in this case. We conclude that any error in the jury
instructions for aggravated sexual assault and the underlying
offenses of rape and forcible sexual abuse did not prejudice
Norton. Further, the district court was not required to instruct on
any of the lesser included offenses Norton requested, except for
sexual battery. And we determine that at sentencing, the district
court did not err in imposing a punishment of fifteen years to life
for aggravated sexual assault and properly considered all of the
arguments and evidence before it.
TJ128 With regard to our holding that the district court erred
in not instructing the jury on sexual battery as a lesser included
offense of the aggravated sexual assault charge based on forcible
sexual abuse, we reverse the conviction and remand to the district
court for a new trial.

Chief Justice Durrant, concurring in part and concurring in
the judgment
|129 Writing for the majority, Justice Petersen does an able
and thorough job of addressing each of Mr. Norton's challenges to
his conviction. And she appropriately dismisses his LeBeau
challenge to his sentence as unpreserved. So far so good. We are
therefore pleased to concur in the analysis and conclusions she
sets forth in parts I through IV of her opinion. But then, she takes

32

Cite as: 2020 UT 46
Durrant, C.J., concurring in part and concurring in the judgment
a surprising step. She goes on to address the question of whether
the rule established in LeBeau16 should be overturned. This,
despite the fact that the resolution of this question makes not one
wit of difference to Mr. Norton's case. Justice Petersen explicitly
acknowledges as much, writing that LeBeau "does not determine
the outcome in this case."17 But the fact that this is done in plain
sight makes it no less an act of judicial overreach.
^[130 And Justice Petersen further flouts judicial restraint by
not just reaching the issue unnecessarily, but then advocating to
overturn LeBeau, a significant case that, whether right or wrong, is
established precedent.18 The doctrine of stare decisis is deeply
rooted in our law. There are reasons why we respect precedent.
There are reasons why we are circumspect in overturning it.
Precedent promotes predictability and stability in the incremental
development of the law. It promotes faith in our judicial system. It
underpins and informs virtually every decision we make as
judges. This is not to say it is wholly inviolate. We, of course, do
on occasion overturn a case. But we do not do it lightly. We do it
reluctantly, cautiously, and with compelling reasons. And we
should never do it gratuitously as Justice Petersen suggests we do
here. For these reasons, we decline to join in part V of Justice
Petersen's opinion.

16 LeBeau v. State, 2014 UT 39,337 P.3d 254.
17 Supra f 105.
18 See State v. Rowan, 2017 UT 88, f 24, 416 P.3d 566 (Himonas,
]., concurring) (explaining, in a concurrence joined by a majority
of the court, that "our court declines to revisit established
precedent unnecessarily").
33

ADDENDUM C

2018 UT App 82

FILED
UTAH APPELLATE COURTS

The Utah Court of Appeals

MAY 0 3 2018

State of Utah,
Appellee,
v.
Lonnie Norton,
Appellant.
Opinion
No. 20150302-CA
Filed May 3,2018
Third District Court, West Jordan Department
The Honorable Bruce C. Lubeck
No. 131400015
Lori J. Seppi, Attorney for Appellant
Sean D. Reyes and Christopher D. Ballard, Attorneys
for Appellee
Judge Jill M. Pohlman authored this Opinion, in which Judges
Michele M. Christiansen and Diana Hagen concurred.
POHLMAN, Judge:
Lonnie Norton appeals his convictions arising from
events that occurred over one night in November 2012 when he
broke into his parents-in-law's house, kidnapped his estranged
wife (Wife), and sexually assaulted her. Norton alleges several
errors related to the jury instructions and sentencing. We affirm.

11

BACKGROUND
12
In October 2012, Wife left Norton, her husband of over
twenty years, taking their children with her. After staying in a
women's shelter for several days and after a protective order
against Norton went into effect, Wife and the children moved

State v. Norton

into her parents' then-vacant house. The protective order
permitted Norton to have supervised visits with the children
and to communicate with Wife via email regarding "parent time,
counseling, and school attendance."
On the date when the events leading to Norton's
13
convictions occurred, Norton had overnight supervised parent
time with the children in the marital home. Wife claimed that, on
that night, Norton left the children and broke into her parents'
house, after which he, among other things, kidnapped and raped
her at gunpoint. The State charged Norton with aggravated
kidnapping, a first degree felony; three counts of aggravated
sexual assault, all first degree felonies; aggravated burglary, a
first degree felony; aggravated assault, a third degree felony;
violation of a protective order, a class A misdemeanor; and
damage to or interruption of a communication device, a class B
misdemeanor.
14
The case proceeded to a jury trial. Norton and Wife each
testified about the events of that night and agreed on the
following basic facts. It was snowing. After the children went to
sleep, Norton retrieved Wife from her parents' house and drove
the two to Fort Douglas on the University of Utah campus.
Norton, who worked for the University, accessed a vacant office
building with a key he had by virtue of his employment. Once
inside the building, the parties had sexual intercourse in an
office, after which Wife rinsed off in a bathroom across the hall.
Norton then drove Wife first to the marital home to check on the
children and then back to her parents' house. Aside from these
facts, the parties' accounts differed significantly.
Wife's Account
15
Wife testified that, on the night in question, she awoke in
the middle of the night to "a loud bang" downstairs in her
parents' house, which she "figured . . . was [from] the dryer"
that she had previously moved in front of a door to block entry
from the basement's outside entrance. Wife grabbed her phone

20150302-CA

2

2018 UT App 82

State v. Norton
and dialed 911 when Norton appeared "at the end of [her] bed."
He punched her face with a closed fist, grabbed the phone, and
duct-taped her head. She passed out, and when she regained
consciousness, she was riding in Norton's car with him. She
claimed that Norton "had a gun in his lap" and pointed it at her
as she tried to open the car door. She realized that they were
driving "up to the Fort Douglas area" near Norton's office at the
University of Utah. After arriving at a building in the Fort
Douglas area, Norton parked the car and told Wife that they
were going to enter the building and that she "needed to be
quiet or he would shoot [her]." Because she did not have any
shoes on, Norton gave her a pair of his shoes and then led Wife
toward the building and unlocked the entrance door.
Wife testified that Norton initially took her to a bathroom,
16
where he "ripped the duct tape off [her] head" and began
talking to her about their marriage, going to counseling, and
getting back together. Wife rejected Norton's suggestions, and
after talking for approximately twenty minutes, Norton told
Wife "to take [her] shirt off." When she initially refused, he
"pointed the gun at [her]" and again ordered her to take off her
shirt. She complied. He then "squeezed [her] breasts" and led
her to an office across the hall. Once there, he told her to "take
off [her] pants." Again, she refused, and again he "pointed the
gun at [her]," and she complied.
17
While Wife was undressing, Norton also undressed.
Norton then "popped the magazine out of the gun" and put the
gun pieces in a drawer. He "told [her] that [they] were going [to]
have sex." She again told him, "no," which Norton dismissed,
and Wife asked if he was "going to rape [her]." Norton replied,
"You can't rape somebody that you're married to," and he laid
down on the floor and pulled Wife on top of him. He then
vaginally raped her. Wife testified that she made no effort to
participate. She testified that at one point she grabbed his penis
"really hard," but that because she has rheumatoid arthritis, she
did not "know how hard" the squeeze was. Norton responded

20150302-CA

3

2018 UT App 82

State v. Norton
by grabbing "both of [her] hands and . . . putting] them over
[her] head in one of his hands."
Wife testified that afterward Norton took her back to the
18
bathroom and ordered her "to get in the bathtub and rinse
[herself] off." She stated that her "hands were shaking really
bad" and that Norton told her that she was not "doing a good
enough job," at which point he "shoved his fingers up in [her
vagina] and tried to rinse himself out." Wife dried herself off
with some paper towels, and they both got dressed.
Norton, having retrieved the gun, then told Wife to sit
19
down on a chair. While he initially suggested the two reconcile,
the conversation took a turn when he told her that "he was going
[to] kill himself," and he put the gun to his head. He then
pointed the gun at Wife and said, "[MJaybe I'll kill you and then
I'll kill myself." Norton "went back and forth" about shooting
himself and Wife for a few minutes, after which Wife "got really
mad" and "[t]old him to go ahead and shoot himself." At that
point, "it just ended," and Norton "took [Wife] back out into the
car." Norton then drove them to their marital home and, after
insisting that Wife "couldn't tell anybody" what had happened
and that she needed to "make up some sort of story" to tell the
children about how she hurt herself, he drove her back to her
parents' house. Once there, Norton attempted to fix both a
locked gate and the basement door through which he had
entered earlier. He again told her not to tell anybody what had
happened, and she told him she would not tell. After Norton
left, Wife called the police, and an officer took her to the hospital.
Norton's Account
^[10 Norton testified at trial that Wife willingly accompanied
him to the Fort Douglas office building and that she initiated the
sexual conduct that occurred. He claimed that Wife had "told
[him] to come over" to her parents' house after their children
had gone to sleep and that, after missing her call at
approximately two o'clock in the morning, he drove to the house
20150302-CA

4

2018 UT App 82

State v. Norton
and parked in front. Though it was snowing, Norton testified
that, "[a]fter a couple of minutes," Wife came outside "in
stocking feet" and got into the car with him. He gave her some
Reeboks to wear. He claimed that as they drove, Wife suggested
going to his office to talk. Norton thought that rather than his
office, "it might not be a bad idea to ... go up to one of the
buildings that's part of [his] college up in the Fort Douglas area."
Accordingly, he parked behind a building there and unlocked
the entrance to a unit that used to be an officer's quarters and
was recently vacated by its tenant.
'flu Norton testified that, once inside, the parties went into an
office, sat down, and began talking about marriage counseling
and possible reconciliation. Norton claimed that as they were
reminiscing about when they first married, Wife went over "and
sat on [his] lap and put her arms around [him]" and they began
kissing. He testified that they eventually moved to the floor,
undressed, and that Wife "climbed on top of [him]" and had sex
with him.
112 Norton testified that afterward they went into the
bathroom and that Wife got in the bathtub. Norton said that
normally they would shower, but that because the water in the
building was cold, he told Wife that he was not going to shower.
Instead, he suggested to Wife that she "just rinse off," and he
turned on the knob for her. He claimed that after Wife rinsed
and dried herself off with paper towels he provided, they then
went back into the office and dressed.
113 Norton testified that, at this point, the parties resumed
their conversation about reconciliation. He stated that Wife
indicated that she "didn't really want to reconcile," which
prompted him to say that he thought it would be fair for him to
have joint custody of their children. Wife responded that she did
not want joint custody, and she became angry—calling him
names—when he said his attorney told him that he would be
able to get joint custody. At one point during the exchange, Wife

20150302-CA

5

2018 UT App 82

State v. Norton
slapped Norton, and he claimed that he backhanded her "pretty
hard" in response. He testified that Wife then tried to hit him
again, and so he "grabbed her hands and [they] rastled for a
minute," which caused Wife to start crying. Norton stated that
Wife then went into the bathroom, shut the door, and refused to
come out for about ten minutes.
114 When Wife came out, Norton and Wife left the building
and got back into the car. Norton testified that Wife asked to
check on their children at tire marital home, which they did.
Norton then drove Wife to her parents' house. When they
arrived, they discovered the front door was locked. Norton
testified that he then went around to the back door, and along
the way opened a locked gate by pushing it "real hard." He then
went and "pushed" the laundry room back door open and
walked through the house to let Wife in around front.
115 Norton testified that, once inside, he again tried to talk to
Wife about joint custody, which angered Wife. Wife then
threatened to call the police and accuse him of breaking into the
house and beating her up. Norton "got scared" and left.
The Jury Instructions
116 The State charged Norton with eight offenses of varying
severity related to the events described above, specifically one
count each of aggravated burglary, aggravated kidnapping,
aggravated assault, violation of a protective order, and damage
to or interruption of a communication device. The State also
charged him with three counts of aggravated sexual assault, and
the court specified which episode of abuse each count referred to
in its instructions, referring to them as Count 2, Count 3, and
Count 4. Count 2 concerned the "allegation of the touching of
[Wife's] breast"; Count 3 concerned "the allegation of sexual
intercourse"; and Count 4 concerned "the penetration of [Wife's]
vagina by [Norton's] fingers."

20150302-CA

6

2018 UT App 82

State v. Norton
fl 7 Defense counsel requested lesser included offense
instructions for the aggravated burglary charge, the aggravated
kidnapping charge, and all counts of the aggravated sexual
assault charges. The court permitted only one lesser included
offense instruction for each count. For aggravated burglary, the
court instructed on the lesser included offense of burglary, but it
declined to instruct on both aggravated assault and assault. For
the aggravated kidnapping charge, the court instructed on the
lesser included offense of kidnapping, but it declined to instruct
on unlawful detention. And for the aggravated sexual assault
charges, the court permitted lesser included offense instructions
related to each particular act. For Counts 2 and 4, it permitted
the lesser included offense instruction of forcible sexual abuse.
For Count 3, it instructed on rape. It declined counsel's request
to instruct oh sexual battery for those counts.
The Verdict
118 The jury convicted Norton of two of the three charged
counts of aggravated sexual assault—the counts pertaining to
sexual intercourse and Norton inserting his fingers into Wife's
vagina—and acquitted him of the aggravated sexual assault
charge related to touching Wife's breasts. In addition, the jury
convicted Norton of the lesser offense of kidnapping, the lesser
offense of burglary, violation of a protective order, and a class B
misdemeanor assault. The jury acquitted Norton of the damage
to or interruption of a communication device count.
Sentencing: The Three Tiers
119 The court instructed the jury that "[a] person commits
aggravated sexual assault" if
in the course of a rape or attempted rape or forcible
sexual abuse, or attempted forcible sexual abuse, a
person uses, or threatens the victim with the use of
a dangerous weapon or compels, or attempts to
compel, the victim to submit by threat of

20150302-CA

7

2018 UT App 82

State v. Norton
kidnaping, death, or serious bodily injury to be
inflicted imminently.
(Quotation simplified.) Thus, the jury was instructed that it
could convict Norton of aggravated sexual assault based upon
the underlying acts of a rape, an attempted rape, forcible sexual
abuse, or an attempted forcible sexual abuse. However, at trial,
no special verdict form was requested or given. As a result,
although the jury convicted Norton of two aggravated sexual
assault charges, it did not specify on which underlying offenses
it relied to convict Norton of those charges.
120 During sentencing, defense counsel requested that the
trial court sentence Norton under the lowest tier of the
aggravated sexual assault sentencing scheme—the six-years-tolife tier.1 Counsel explained to the court that because there was
not a special verdict form, it was inappropriate to sentence
Norton according to the highest tier—the fifteen-years-to-life
tier. Counsel asserted that the jury instruction "allow[ed] for the
jury to find the defendant guilty ... for the offense based on an
attempted forcible sexual abuse," and contended that "there's no
indication or evidence that the jury made a finding other than
that." He also contended that, because there was no special
1. Unless otherwise indicated, we cite the version of the relevant
statutes in effect at the time of Norton's offenses. The aggravated
sexual assault statute creates a three-tiered sentencing scheme,
which is dependent upon the underlying offense for which
conviction is entered. Utah Code Ann. § 76-5-405(2) (LexisNexis
2012). If the underlying sexual offense is rape or forcible sexual
abuse (as pertinent here), the presumptive prison sentence is
fifteen years to life. Id. § 76-5-405(2)(a)(i). If the underlying
offense is attempted rape, the presumptive prison sentence is ten
years to life. Id. § 76-5-405(2)(b)(i). And if the underlying offense
is attempted forcible sexual abuse, the presumptive prison
sentence is six years to life. Id. § 76-5-405(2)(c)(i).

20150302-CA

8

2018 UT App 82

State v. Norton
verdict form, it would violate Norton's right to a jury trial to find
at sentencing that he committed a completed act under the
highest tier where the jury could find from the evidence that
Norton committed attempted forcible sexual abuse. In response,
the State argued that Norton should be sentenced under the
highest tier because "there was never any evidence that this was
an attempted forcible sex abuse or an attempted rape. It was all
evidence that it was an actual rape and actual forcible sex
abuse."
f21 Although the court determined that defense counsel's
argument had some merit, the court ultimately agreed with the
State, taking a "common sense approach" and determining that
although the instructions included the offenses of attempted
rape and attempted forcible sexual abuse, "[t]he evidence
presented is that there was an actual act of sexual intercourse"
and "an actual . . . insertion [in her vagina] by his hand."
Accordingly, the court ruled that it was proper to sentence him
at the highest tier because the "evidence as presented" related to
actual, not attempted, conduct and "there was never an
argument made that this was an attempted rape or attempted
forcible sexual abuse."
Sentencing: The Interests of Justice Analysis
*$22 Once the court determined that it was proper to sentence
Norton at the highest tier for the aggravated sexual assault
convictions, defense counsel then requested that the court
impose terms of six-years-to-life on those counts and to run the
sentences concurrently.2 In requesting the lesser sentence,

2. In addition to providing three sentencing tiers, the aggravated
sexual assault statute provides that a court may impose less than
the presumptive sentence if the court "finds that a lesser term
than the term described" as presumptive "is in the interests of
justice and states the reasons for this finding on the record." Id.
(continued...)
20150302-CA

9

2018 UT App 82

State v. Norton

defense counsel identified several facts which, in his opinion,
merited a lesser sentence. Norton also made a statement,
expressing his regret at having violated the protective order and
for having hurt Wife and his family and stating a desire to move
forward personally and professionally to "rebuild [his] life." In
response, the State requested that the court impose the
presumptive sentences of fifteen years to life on both of the
aggravated sexual assault counts and that the sentences run
consecutively. The State contended that a lesser sentence on
those counts made "no sense," particularly where Norton had
not accepted responsibility for what he had done and the crimes
were "terrible." The court also had the benefit of the Presentence
Investigation Report (the PSI) prepared by Adult Probation &
Parole, which recommended imprisonment according to the
statutory terms and indicated that "there are not enough
mitigating circumstances to override the serious nature of the
current offense."
*j[23 The court sentenced Norton to the presumptive fifteen
years to life on each of the aggravated sexual assault counts. It
recognized that Norton had "a good past in many, many ways"
but that "one of the real difficulties" in the case was Norton's
"inability and unwillingness to follow the truth," stating that the
court and the jury did not believe the events happened "at all the
way [Norton said] they happened." The court also stated that
Norton's conduct "went[] way, way, way over the line" and was
of a kind "that simply cannot be accepted in our society," and
that while it recognized a fifteen years to life sentence would be
lengthy, especially given Norton's age, the extreme and harmful

(...continued)
§ 76-5-405(3)(a). For offenses falling under the highest tier of
sentencing—fifteen years to life—the court may find it is in the
interests of justice to impose a lesser prison sentence of either
"10 years and which may be for life," or "six years and which
may be for life." Id.

20150302-CA

10

2018 UT App 82

State v. Norton

nature of Norton's conduct merited the presumptive sentence.
Nonetheless, the court stated that Norton was "entitled to some
mercy" in that it did not believe that the sentences ought to be
consecutive. Accordingly, on the aggravated sexual assault
counts, the court sentenced him to two terms of fifteen years to
life, with the sentences to run concurrently.
124 Norton timely appealed from the court's judgment,
sentence, and commitment.

ISSUES AND STANDARDS OF REVIEW
125 Norton first argues that the court erred by giving
instructions of aggravated sexual assault and its lesser included
offenses that did not properly inform the jury of the mens rea
that applies to the nonconsent element. "Generally, whether a
jury instruction correctly states the law presents a question of
law which we review for correctness," and we "will affirm when
the instructions taken as a whole fairly instruct the jury on the
law applicable to the case." State v. Moore, 2015 UT App 112,14,
349 P.3d 797 (quotation simplified).
126 Norton next argues that the court erred by refusing to
give requested lesser included offense instructions on the
aggravated sexual assault, aggravated kidnapping, and
aggravated burglary counts. "A trial court's refusal to grant a
lesser included offense instruction is a question of law, which we
review for correctness." State v. Reece, 2015 UT 45, 116, 349 P.3d
712 (quotation simplified).
127 Finally, Norton asserts two claims of error concerning his
sentence. First, he argues that the court violated his right to due
process and his right to trial by jury when it sentenced him
under the highest sentencing tier on the aggravated sexual
assault counts for which he was convicted. "[Cjonstitutional
questions present questions of law that we review for
correctness without deference to the lower court's ruling." State

20150302-CA

11

2018 UT App 82

State v. Norton
v. Candedo, 2010 UT 32, f 7, 232 P.3d 1008. Second, Norton
argues that the court abused its discretion when it imposed two
terms of fifteen years to life on the two aggravated sexual assault
convictions "without conducting the statutorily mandated
interests-of-justice analysis." We review a trial court's sentencing
decision for an abuse of discretion. See LeBeau v. State, 2014 UT
39, *116, 337 P.3d 254 ("An appellate court will... only set aside
a sentence if the sentence represents an abuse of discretion, if the
district court fails to consider all legally relevant factors, or if the
sentence imposed is clearly excessive." (quotation simplified)).
ANALYSIS
I. Jury Instructions
128 Norton first argues that the instructions on the
aggravated sexual assault charges and the associated lesser
included offenses of rape and forcible sexual abuse misstated the
law. Norton asserts that under State v. Barela, 2015 UT 22, 349
P.3d 676, the instructions "failed to instruct the jury that it could
not convict unless it found that Norton acted with the requisite
mens rea as to [Wife's] nonconsent" and that, had the jury been
properly instructed, there is a reasonable probability that it
would have acquitted him of those charges.
129 "A mens rea element is an essential element of an
offense," and as a general rule, failure to accurately instruct on it
is error. See State v. Bird, 2015 UT 7, 1 14, 345 P.3d 1141
(quotation simplified). The crime of rape requires that a
defendant has the "requisite mens rea as to the victim's
nonconsent."3 Barela, 2015 UT 22,126.

3. The State does not contest that this principle also applies to
other sexual offenses requiring proof of a victim's nonconsent.
Given the State's position and our conclusion that Norton was
(continued...)
20150302-CA

12

2018 UT App 82

State v. Norton
*130 Norton concedes that this issue is unpreserved and
requests that we review it under the doctrines of manifest
injustice, plain error, or ineffective assistance of counsel. To
establish ineffective assistance of counsel, Norton must show
both that his trial counsel's performance was objectively
deficient and that counsel's deficient performance prejudiced
him. See Strickland v. Washington, 466 U.S. 668, 687-88 (1984). To
establish manifest injustice4 and plain error, Norton must
demonstrate the existence of an "obvious, prejudicial error."
State v. Bell, 2016 UT App 157, f 8, 380 P.3d 11. The prejudice
standards for ineffective assistance and plain error are the same.
State v. McNeil, 2016 UT 3, f 29, 365 P.3d 699. Norton must
demonstrate that, but for the errors, "there is a reasonable
probability that... the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome." See Strickland, 466 U.S. at
694. And because Norton must meet all the elements of each test
to prevail, we may dispose of both claims on prejudice alone
without analyzing the other elements. See Archuleta v. Galetka,
2011 UT 73,141, 267 P.3d 232.
<131 The court instructed the jury that it could not find Norton
guilty unless the State proved "a mental state as to each of
the ... counts charged." The court also instructed the jury as to

(...continued)
not prejudiced by the instructions, "we assume without deciding
that the principle applies more broadly" to all of the sexual
offenses at issue here. See State v. Reigelsperger, 2017 UT App 101,
173 n.8,400 P.3d 1127.
4. Manifest injustice is generally synonymous with the plain
error standard. See State v. Pullman, 2013 UT App 168, *1 5, 306
P.3d 827. Norton has not argued in this case that it is not.
Therefore, we review his challenges under the same standard.

20150302-CA

13

2018 UT App 82

State v. Norton
the meaning of applicable mental states.5 As to the aggravated
sexual assault charges, the court instructed that the jury could
find Norton guilty of aggravated sexual assault if it found
beyond a reasonable doubt that
1. On or about the date charged in the Information
[Norton] raped or attempted to rape or committed
forcible sexual abuse or attempted forcible sexual
abuse against [Wife]; and
2. That in the course of that rape or attempted rape
or forcible sexual abuse or attempted forcible
sexual abuse [Norton]
(a) used or threatened [Wife] with the use of
a dangerous weapon; or
(b) compelled, or attempted to compel,
[Wife] to submit to rape or forcible sexual
abuse by threat of kidnaping, death, or
serious bodily injury to be inflicted
imminently; and
3. That [Norton] did such acts knowingly or
intentionally.
f32 The court then provided separate instructions for rape
and forcible sexual abuse. As to rape, it instructed that the jury

5. The court instructed that "intentionally" meant "[a] person
acts ... [with a] conscious objective ... to cause a certain result
or to engage in certain conduct," and it instructed that a person
acts "knowingly" when the person "is aware of the nature of his
conduct," "is aware of the particular circumstances surrounding
his conduct," or "is aware that his conduct is reasonably certain
to cause the result." See generally Utah Code Ann. § 76-2-103
(LexisNexis 2012).

20150302-CA

14

2018 UT App 82

State v. Norton

could convict Norton if it found beyond a reasonable doubt that,
"[Norton] had sexual intercourse with [Wife]"; that "such
conduct was without the consent of [Wife]"; and that "said
conduct was done intentionally or knowingly." For forcible
sexual abuse, it instructed that the jury could convict Norton if it
found beyond a reasonable doubt that
1. On or about the date charged [Norton] touched
the anus, buttocks, breasts, or any part of the
genitals of [Wife]; and
2. That such conduct was done with the intent to
either
(a) cause substantial emotional or bodily
pain to [Wife], or
(b) arouse or gratify the sexual desires of
any person; and without the consent of
[Wife]; and
3. That said conduct was done intentionally or
knowingly.
133 Assuming, without deciding, that these instructions were
erroneous under Barela and that counsel performed deficiently
by not objecting to them, we conclude that Norton has not
demonstrated that he suffered prejudice.
134 "A reviewing court attempting to determine whether the
omission of an element from a jury instruction is harmless error
'asks whether the record contains evidence that could rationally
lead to a contrary finding with respect to the omitted element.'"
State v. Ochoa, 2014 UT App 296,1 5,341 P.3d 942 (quoting Neder
v. United States, 527 U.S. 1, 19 (1999)). For example, in State v.
Barela, the defendant, who was convicted of rape, argued that
the jury instruction improperly omitted the mens rea as to the
issue of nonconsent. 2015 UT 22, 11 20, 26, 349 P.3d 676. After
agreeing with the defendant that the jury instruction was

20150302-CA

15

2018 UT App 82

State v. Norton
incorrect, id. 126, our supreme court proceeded to determine
whether the omission was harmful, id. H 28-32. The supreme
court analyzed the issue by reviewing the record evidence and
asking whether a reasonable jury could have found, based on the
"totality of the evidence in the record," that the defendant did
not have the required mental state as to the victim's nonconsent.
See id. The court determined that there was such a basis. The
defendant had contended during trial that the sexual conduct
had been consensual and initiated by the victim, id. H 10, 29,
while the victim claimed that the defendant had abruptly
instigated and perpetrated the intercourse without her consent,
id. 11 6-7, 29. Nonetheless, the victim's account contained some
ambiguity surrounding the issue of her consent—she recounted
that she "froze" during the intercourse, "neither actively
participating in sex nor speaking any words," and otherwise
expressed no other reaction. Id. 1 29 (quotation simplified). The
supreme court determined that, had the jury been properly
instructed, this evidence could have supported a reasonable
determination that the defendant had mistaken the victim's
reaction for consent. Id. 128. On that basis, the court reversed.
Id. 132.
135 Here, the jury convicted Norton of two counts of
aggravated sexual assault based upon vaginal intercourse and
the sexual touching that occurred afterward in the bathroom.
During trial, the parties presented the jury with two vastly
differing versions of the events as to the element of consent. See
supra 115-15. Wife testified that Norton forced her to submit to
the sexual contact that occurred by threatening her with a gun
when she refused to comply. Norton, on the other hand, testified
that the intercourse was entirely consensual—that Wife, in fact,
had initiated it—and, by his account, that the sexual touching in
the bathroom did not occur at all.
136 While we cannot know precisely how the jury processed
the two accounts, what we do know from the jury's decision is
that it concluded that Norton sexually assaulted Wife at

20150302-CA

16

2018 UT App 82

State v. Norton
gunpoint after breaking into her parents' house and kidnapping
her, and despite her repeated expressions of nonconsent. See
Barela, 2015 UT 22, 1 30 (using the jury's verdict to explain what
elements the jury must have found). Norton must therefore
demonstrate that, had the trial court properly instructed the jury,
there is a reasonable likelihood that the verdict would have been
different. See Strickland v. Washington, 466 U.S. 668, 694 (1984). To
meet this burden, he must at least show that there is some
rational basis in the evidence from which the jury could have
concluded that, despite Wife's nonconsent and Norton's threats
in the face of her protests, Norton nevertheless did not have the
instructed mental state—intentional or knowing—as to her
nonconsent. See Barela, 2015 UT 22, H 26, 28-32; Ochoa, 2014 UT
App 296, H 6-7.
137 There is no such rational basis in the evidence. Norton
provided no evidence to suggest that, despite threatening Wife
under aggravating circumstances to force her compliance, he
might have been mistaken about Wife's consent as to either
instance of sexual assault; his testimony was that one incident
was consensual, that the other did not occur, and that he did not
use a gun or threaten Wife. Likewise, Wife provided no evidence
from which a jury could reasonably find that Norton was
mistaken as to her nonconsent. She testified that when she
verbally expressed her nonconsent, he threatened her with a gun
and thereafter ordered and physically forced her to comply with
his demands, including the sexual touching that occurred in the
bathroom.
138 Norton points to Wife's testimony that during intercourse
she squeezed his penis, arguing it as a "scenario in which [he]
may have mistakenly believed she consented," and one
sufficient to provide the jury a rational basis from which to
determine he did not have the requisite mental state. But as we
recently observed in State v. Reigelsperger, 2017 UT App 101, 400
P.3d 1127, any actions on the part of the victim of alleged
"cooperation cannot be viewed in a vacuum" but must instead

20150302-CA

17

2018 UT App 82

State v. Norton

be viewed within the larger context in which they occur. Id. 185;
see Barela, 2015 UT 22, 1 39 (explaining that "[t]o determine
whether a victim has truly consented, the factfinder must pay
close attention to the verbal and nonverbal cues given by the
victim and to a wide range of other elements of context").
Indeed, "[w]hen refusals, rejections, or resistance are met with
disregard, hostility, and commands to submit, any limited
cooperation that immediately follows cannot be said, without
more, to constitute consent." Reigelsperger, 2017 UT App 101,
185.
139 Even if squeezing Norton's penis could have somehow in
isolation been interpreted by Norton as indicative of Wife's
willing participation, the action occurred within the larger
context of Norton breaking into his parents-in-law's house in the
middle of the night, kidnapping Wife, threatening her,
informing her that they were going to have intercourse after she
asked him if he was going to rape her, and disregarding her
repeated verbal refusals. See id. Furthermore, Wife also testified
that after she squeezed his penis, Norton "grabbed both of [her]
hands and just put them over [her] head in one of his hands,"
and even defense counsel during trial characterized Wife's
action as one of protest, not participation.
140 Thus, there is no rational basis in the evidence to support
a jury finding that Norton could have been mistaken about
Wife's nonconsent. See State v. Barela, 2015 UT 22, H 29-32, 349
P.3d 676. Accordingly, even if the instructions regarding the
mens rea applicable to the element of nonconsent were
erroneous, Norton has not demonstrated that he was harmed by
the mistake. His claims of ineffective assistance of counsel,
manifest injustice, and plain error on the basis of the mens rea
instructions therefore fail. See Archuleta v. Galetka, 2011 UT 73,
141, 267 P.3d 232.

20150302-CA

18

2018 UT App 82

State v. Norton

II. Lesser Included Offense Instructions
141 Norton next argues that the trial court erred when it
refused to instruct on his requested lesser included offenses.
Specifically, he argues that the court erred when it refused to
instruct the jury on (A) sexual battery as the lesser included
offense of aggravated sexual assault, (B) unlawful detention as
the lesser included offense of aggravated kidnapping, and
(C) aggravated assault and assault as the lesser included offenses
of aggravated burglary.
142 "A defendant's request for a lesser included offense
instruction is evaluated under the evidence-based standard"
found in Utah Code section 76-1-402. See State v. Campbell, 2013
UT App 23, 1 5, 295 P.3d 722 (quotation simplified). We apply a
two-part test to determine whether a trial court must give a
requested instruction. First, we determine under section 76-1402(3) whether the lesser offense is included in the greater
offense. Most often, this will require analyzing whether "some of
their statutory elements overlap" and whether "the evidence at
the trial of the greater offense includes proof of some or all of
those overlapping elements." State v. Baker, 671 P.2d 152, 158-59
(Utah 1983); see also Utah Code Ann. § 76-l-402(3)(a) (LexisNexis
2012); State v. Powell, 2007 UT 9, ff 24-25, 154 P.3d 788
(explaining that a defendant's entitlement to a lesser included
offense instruction "depend[s] on whether there exists some
overlap in the statutory elements of allegedly included offenses
and whether the same facts tend to prove elements of more than
one statutory offense" (quotation simplified)).
^[43 Second, we determine under section 76-1-402(4) whether
the evidence provides "a rational basis for a verdict acquitting
the defendant of the offense charged and convicting him of the
included offense." Utah Code Ann. § 76-1-402(4). In so doing, we
must determine whether there is "a sufficient quantum of
evidence presented to justify sending the question to the jury,"
Baker, 671 P.2d at 159, and we view the evidence "in the light

20150302-CA

19

2018 UT App 82

State v. Norton
most favorable to the defendant requesting the instruction/'
Powell, 2007 UT 9, ^ 27. Both parts of the test must be met
"before the trial court must instruct the jury" regarding the
lesser included offense. Baker, 671 P.2d at 159.
144 We address each requested lesser included offense
instruction below.
A.

Sexual Battery

145 Norton requested lesser included offense instructions on
rape, forcible sexual abuse, and sexual battery for Counts 3 and
4—the aggravated sexual assault charges. The court instructed
only rape as the lesser included offense for Count 3, and it
instructed only forcible sexual abuse as the lesser included
offense for Count 4. The court declined to instruct the jury on
sexual battery for either count.
146 Norton contends that the failure to instruct on sexual
battery for both counts was error because there is overlap in the
elements of aggravated sexual assault6 and sexual battery,7 and
6. For aggravated sexual assaults based on the underlying
offenses of rape and forcible sexual abuse, "[a] person commits
aggravated sexual assault if: (a) in the course of a rape ... or
forcible sexual abuse, the actor: (i) uses, or threatens the victim
with the use of, a dangerous weapon" or "(ii) compels, or
attempts to compel, the victim to submit to rape ... or forcible
sexual abuse[] by threat of kidnaping, death, or serious bodily
injury to be inflicted imminently on any person." Utah Code
Ann. § 76-5-405(l)(a) (LexisNexis 2012).
7. A person commits sexual battery "if the person, under
circumstances not amounting to," among other offenses, a rape
or forcible sexual abuse or attempted rape or attempted forcible
sexual abuse, "intentionally touches, whether or not through
clothing, the anus, buttocks, or any part of the genitals of another
(continued...)
20150302-CA

20

2018 UT App 82

State v. Norton
there is a rational basis in the evidence from which the jury
could have acquitted him of aggravated sexual assault on both
counts and instead convicted him of sexual battery. He
essentially contends that there was a sufficient quantum of
evidence developed at trial to create questions about his mental
state as to Counts 3 and 4.
f47 We disagree. Without deciding whether sexual battery is
an included offense of aggravated sexual assault, we conclude
that there was no rational basis in the evidence to acquit Norton
of aggravated sexual assault and convict him instead of sexual
battery. As we concluded above, supra H 37-40, contrary to
Norton's assertions, neither party presented evidence at trial to
create a dispute about his mental state as to either the sexual
intercourse or the sexual touching that occurred in the bathroom.
See State v. Oldroyd, 685 P.2d 551, 555-56 (Utah 1984) (explaining
that a defendant is entitled to a lesser included offense
instruction where the evidence offered in the case places an
element in dispute such that, based on that dispute, the jury
could find a defendant guilty of a lesser offense and not of the
greater); State v. Baker, 671 P.2d 152, 157 (Utah 1983) ("Thus,
where proof of an element of the crime is in dispute, the availability of
the 'third option' . . . gives the defendant the benefit of the
reasonable doubt standard." (emphasis added)); see also Keeble v.
United States, 412 U.S. 205,213 (1973) (suggesting that where "the
nature of petitioner's intent was very much in dispute at trial,"
the jury could have rationally convicted the petitioner of a
requested lesser included offense with a lower intent "if that
option had been presented"). Indeed, Norton's primary defense
(...continued)
person, or the breast of a female person, and the actor's conduct
is under circumstances the actor knows or should know will
likely cause affront or alarm to the person touched." Utah Code
Ann. § 76-9-702.1(1) (LexisNexis 2012). Sexual battery is "a class
A misdemeanor." Id. § 76-9-702.1(3).

20150302-CA

21

2018 UT App 82

State v. Norton
at trial was that Wife lied about the instances of sexual abuse to
gain primary custody of their children. Norton made no
assertion that, for example, despite Wife's alleged initiation of
sexual intercourse, circumstances arose such that he might have
been mistaken about Wife's consent or that he knew or should
have known the continued sexual contact would cause affront or
alarm to Wife. Nor did he make any statement or suggest any
circumstances that might have created some ambiguity about his
intent as to the sexual touching in the bathroom; by his account,
Wife fabricated that touch.8
<j[48 Therefore, the evidence about Norton's mental state on
either count was not ambiguous, subject to any alternative
interpretation, or quantifiably sufficient to entitle him to lesser
included instructions on sexual battery. See Baker, 671 P.2d at 159
(explaining that a lesser included offense instruction must be
given when "there is a sufficient quantum of evidence to raise a
jury question regarding a lesser offense" or "the evidence is
ambiguous and therefore susceptible to alternative
interpretations, and one alternative would permit acquittal of the
8. On appeal, Norton also challenges the trial court's refusal to
instruct on sexual battery for Count 4 by questioning the
sufficiency of the evidence to establish his intent. He argues that
"there was little if any evidence that Norton touched [Wife's]
vagina" with the required intent, where Wife's testimony was
that Norton inserted his fingers in her vagina for the purpose of
"wip[ing] away his DNA." But Norton conceded a sufficiency of
the evidence argument below; indeed, at the close of the State's
case, defense counsel stated that he recognized that "there's
sufficient evidence with regard to each of the elements in this
case" and thereby declined to "make a motion for a judgment as
a matter of law." And, apart from his sufficiency argument,
Norton has not shown that, based on the evidence at trial, he
was entitled to a lesser included offense instruction for sexual
battery on this count.

20150302-CA

22

2018 UT App 82

State v. Norton
greater offense and conviction of the lesser"). As a result, the
jury would have had to impermissibly speculate about Norton's
mental state to acquit him of aggravated sexual assault and
convict of sexual battery on both counts. See State v. Reece, 2015
UT 45, f 30, 349 P.3d 712 (explaining that "a defendant's request
for a lesser included offense instruction cannot be based on sheer
speculation" (quotation simplified)); State v. Garcia-Vargas, 2012
UT App 270,
17-18 & n.5, 287 P.3d 474 (indicating that, to
create a dispute about mental state sufficient to entitle the
defendant to lesser included offense instructions, there must be.
actual evidence presented to the jury to suggest a dispute about
mental state); see also Baker, 671 P.2d at 157.
149 Accordingly, we conclude that the trial court did not err
in declining to instruct the jury on sexual battery as to Counts 3
and 4.
B.

Unlawful Detention

150 Next, Norton argues that the court erred when it refused
to instruct the jury on unlawful detention9 as a lesser included
offense of aggravated kidnapping. He contends that such an
instruction was warranted because the statutory elements of
aggravated kidnapping and unlawful detention overlap10 and

9. A person commits the crime of unlawful detention when that
person "intentionally or knowingly, without authority of law,
and against the will of the victim, detains or restrains the victim
under circumstances not constituting a violation of: (a)
kidnapping,... or (c) aggravated kidnapping." Utah Code Ann.
. § 76-5-304(1) (LexisNexis 2012).
10. Norton argues that unlawful detention qualifies as a lesser
included offense of aggravated kidnapping because it is
statutorily defined as such. However, even if unlawful detention
could qualify as an included offense under statute, as we discuss
(continued...)
20150302-CA

23

2018 UT App 82

State v. Norton

because there was a basis in the evidence to justify the
instruction. Specifically, Norton refers to his testimony where he
described restraining Wife's hands at the Fort Douglas office
building. According to Norton, after he and Wife engaged in
consensual sexual intercourse, they argued over custody and the
argument "became physical." He testified that Wife hit him, he
backhanded her, and then, for about "a minute," he grabbed
Wife's hands to stop her from hitting him again. He contends
that if the jury believed this testimony, it would have been
. rational for it to find that he "merely detained or restrained"
Wife and to convict him of unlawful detention instead of
aggravated kidnapping or kidnapping.
151 Norton's argument is misplaced. To determine that a
defendant was entitled to a lesser included offense instruction,
we must determine, among other things, that the "same facts tend
to prove elements of more than one statutory offense." State v.
Powell, 2007 UT 9, 11 24-25, 154 P.3d 788 (emphasis added)
(quotation simplified); see also Utah Code Ann. § 76-l-402(3)(a)
(LexisNexis 2012) (identifying a lesser included offense as one
"established by proof of the same or less than all the facts
required to establish the commission of the offense charged").
But Norton has not demonstrated that the "same facts" relied on
by the State to establish the offense of aggravated kidnapping
also tend to prove the elements of unlawful detention. Instead,
Norton wrongly claims entitlement to a lesser included offense
instruction by pointing to evidence that is distinct from the
evidence developed at trial to establish the greater offense.

(.. .continued)
below, an included offense cannot be based upon different facts
than the greater offense. And here, the facts the State proffered
to establish aggravated kidnapping and the facts Norton proffers
on appeal to establish unlawful detention are not the same.

20150302-CA

24

2018 UT App 82

State v. Norton
152 To prove the charge of aggravated kidnapping, the State
presented evidence that Norton duct-taped Wife's head and
mouth, took her from her parents' house, and, while threatening
her with a gim, drove her to the Fort Douglas office building
where he sexually assaulted her. Norton does not contend that
these facts—or a subset of these facts—justifies an unlawful
detention instruction. Instead, Norton describes an entirely
separate event at the Fort Douglas office building where he
allegedly restrained Wife by holding her hands for about "a
minute." But the State did not rely on this event to prove the
greater offense of aggravated kidnapping, nor did the State
charge Norton for this act.
153 Thus, Norton cannot demonstrate that the lesser offense
of unlawful detention is established by proof of the same or less
than all the facts required to prove the offense for which he was
charged. See Powell, 2007 UT 9, H 24-25 & n.21. If anything, the
event Norton describes could more appropriately labeled a
possible separate offense, not a lesser included offense that
would warrant a lesser included offense instruction. Cf. State v.
Branch, 743 P.2d 1187, 1191 (Utah 1987) (explaining that an
offense is not lesser included if it is a separate offense
"committed within the same criminal episode" that is based on
"proof [of] different evidence"); State v. Garrido, 2013 UT App
245,131,314 P.3d 1014 (stating that "[e]ven if there is overlap in
the statutory elements, if the convictions rely on materially
different acts, then one crime will not be a lesser included
offense of another" (quotation simplified)); State v. Smith, 2003
UT App 179, % 16, 72 P.3d 692 (concluding that one offense was
not the lesser included of another where the State relied on
"materially different acts" to prove two separate offenses); State
v. Mane, 783 P.2d 61, 63, 65-66 (Utah Ct. App. 1989) (concluding
separate acts that were part of a single criminal episode were
separate offenses requiring proof of different evidence and
therefore did not stand in the relationship of greater and lesser
offenses). Accordingly, the court did not err in declining to give
the requested unlawful detention instruction.

20150302-CA

25

2018 UT App 82

State v. Norton
C.

Aggravated Assault and Assault

*154 Finally, Norton argues that the court erred by not
instructing the jury on aggravated assault and assault11 as lesser
included offenses of aggravated burglary.12 He contends that
elements of aggravated assault and assault overlap with those of
aggravated burglary and that there was a rational basis in the
evidence to support giving those instructions. Specifically, he
contends that it would have been rational for the jury to acquit
him of aggravated burglary but convict him of aggravated
assault or assault on the basis of his entry of the Fort Douglas
office building. He alleges that the jury could have determined
11. At the time of Norton's conduct, the aggravated assault
statute provided that an aggravated assault occurs "if the person
commits assault... and uses: (a) a dangerous weapon ...; or (b)
other means or force likely to produce death or serious bodily
injury." Utah Code Ann. § 76-5-103(1) (LexisNexis 2012).
Similarly, at the time of Norton's conduct, an assault was
"(a) an attempt, with unlawful force or violence, to do bodily
injury to another; (b) a threat, accompanied by a show of
immediate force or violence, to do bodily injury to another; or
(c) an act, committed with unlawful force or violence, that causes
bodily injury to another or creates a substantial risk of bodily
injury to another." Id. § 76-5-102(1).
12. Aggravated burglary occurs when a person "in attempting,
committing, or fleeing from a burglary ... (a) causes bodily
injury to any person who is not a participant in the crime; (b)
uses or threatens the immediate use of a dangerous weapon
against any person who is not a participant in the crime; or (c)
possesses or attempts to use any explosive or dangerous
weapon." Id. § 76-6-203(1) (2012). Burglary occurs when an actor
"enters or remains unlawfully in a building or any portion of a
building with intent to commit," among other things, a felony or
"an assault on any person." Id. § 76-6-202(1).

20150302-CA

26

2018 UT App 82

State v. Norton
that backhanding Wife during the mutual argument over
custody he contends occurred in that building constituted
aggravated assault or assault. Further, he claims that the jury
could have acquitted him of aggravated burglary by finding that
he "did not enter [the building] unlawfully." Either way, Norton
claims, if the jury believed that he backhanded Wife in the Fort
Douglas office building with the requisite intent, aggravated
assault or assault would have been the "appropriate verdict."
155 Like we concluded about Norton's unlawful detention
argument, we conclude that aggravated assault and assault are
not lesser included offenses of aggravated burglary under the
facts of this case. The evidence developed by the State to
establish the greater offense of aggravated burglary and the
evidence Norton relies upon to claim entitlement to lesser
included offense instructions are materially different. See Powell,
2007 UT 9, 11 24-25. The State's entire case related to the
aggravated burglary charge centered only on Norton's entry of
his parents-in-law's house at the beginning of the night. The
State made no allegation and presented no facts or evidence at
trial that Norton's entry of the Fort Douglas office building was
unlawful or formed the basis of the aggravated burglary charge;
indeed, the State specifically argued that Norton "entered or
remained unlawfully in the building—the building being the
house."
156 Norton cannot prove entitlement to lesser included
offense instructions by pointing to facts and evidence that are
factually distinct from and center upon entirely different alleged
incidents than those offered to establish the greater offense. See
id.; cf. Garrido, 2013 UT App 245, 1 31; Smith, 2003 UT App 179,
116. Because the facts and evidence developed to establish the
greater offense of aggravated burglary were different from the
facts and evidence relied upon by Norton to claim entitlement to
the lesser included offense instructions of aggravated assault
and assault, those lesser offenses were not included within the

20150302-CA

27

2018 UT App 82

State v. Norton
greater offenses. Powell, 2007 UT 9, M 24-25. Accordingly, the
court did not err in declining to give the requested instructions.13
III. Sentencing
*157 Finally, Norton argues that his sentence was erroneous
for two reasons. First, he argues that sentencing him for the

13. In a footnote, Norton also contends that his counsel was
ineffective for "failing to request criminal trespass as an
additional lesser-included offense of aggravated burglary"
because the jury could have believed his testimony that he did
not break into his parents-in-law's house at the beginning of the
night, but that he was guilty of criminal trespass because he was
"not justified in breaking into [Wife's parents'] house after
[Wife] locked herself out or that he remained at the house
unlawfully after he and [Wife] resumed arguing and [Wife]
ordered him to leave."
For similar reasons that we concluded Norton was not
entitled to the requested aggravated assault and assault
instructions, we conclude that based on Strickland v. Washington,
466 U.S. 668 (1984), his counsel was not ineffective for failing to
request that the jury be instructed on criminal trespass as a lesser
included offense of aggravated burglary. Here, the evidence
Norton relies upon is different—in time and in substance—from
the evidence developed to establish the greater offense. The
State's entire case for aggravated burglary was based on events
that occurred when Norton retrieved Wife from her parents'
house at the beginning of the night. Accordingly, criminal
trespass was not an included offense of aggravated burglary
under the circumstances of this case, and Norton's counsel was
therefore not ineffective for failing to request criminal trespass as
a lesser included instruction. See State v. Calvert, 2017 UT App
212, 1 22, 407 P.3d 1098 (explaining that "counsel's failure to
make a motion that would be futile if raised does not constitute
deficient performance").

20150302-CA

28

2018 UT App 82

State v. Norton
aggravated sexual assault convictions under the highest
sentencing tier violated his rights to due process and a jury trial.
Second, he argues that the court abused its discretion in
imposing two fifteen-years-to-life terms for the aggravated
sexual assault convictions because the court did not conduct the
"statutorily mandated interests-of-justice analysis." We address
each argument below.
A.

Sentencing Tier

*158 The jury convicted Norton of two counts of aggravated
sexiial assault based upon Wife's testimony describing
nonconsensual intercourse and Norton inserting his fingers into
her vagina. During sentencing, Norton contended that, because
there was no special verdict form and the instructions allowed the jury to convict him if it found that he had committed
attempted rather than completed acts of rape or forcible sexual
abuse, the court should sentence him as though the jury had
found him guilty of committing the lowest culpable underlying
offense in the aggravated sexual assault statute—attempted
forcible sexual abuse. The court disagreed and instead sentenced
Norton on those counts each to the presumptive fifteen years to
life sentences for completed acts of rape and forcible sexual
abuse—the highest tier of sentencing available under the statute.
See Utah Code Ann. § 76-5-405(2) (LexisNexis 2012). In doing so,
the court determined that sentencing in that way achieved
"fundamental fairness" with no "denial of any due process or
right" because there was no evidence in the record to support a
conclusion that Norton's actions constituted mere attempts.
<j[59 On appeal, Norton contends this was error. He frames his
challenges under his constitutional rights to a jury trial and due
process.14 As we understand it, his argument is that, because

14. Norton references both the United States and the Utah
Constitutions in making this claim. However, Norton "has not
(continued...)
20150302-CA

29

2018 UT App 82

State v. Norton
there was no special verdict form and the trial court instructed
the jury that it could convict him for attempts as well as
completed acts, sentencing him under the highest tier violated
his "rights to due process and to a jury trial because it increased
[his] minimum mandatory sentence without a jury verdict on
each of the elements required to increase the sentence." He
contends that attempted forcible sexual abuse was the only
"version of the offense for which the record showed that the jury
found [him] guilty of each element of the offense beyond a
reasonable doubt."15 In essence, then, Norton seems to argue
that, in choosing to sentence him under the highest tier, the court
impermissibly increased the penalty he would have received had
he been sentenced according to the facts that he claims were
reflected in the jury's verdict. In this way, the sentence violated
' his rights to due process and a jury trial because the court based
its sentence on facts that the jury did not find beyond a
reasonable doubt.

(.. .continued)
adequately set forth any separate legal analysis" under the due
process or the right to jury trial provisions of the Utah
Constitution. See State v. Marshall, 2003 UT App 381, 1 8 n.2, 81
P.3d 775 (quotation simplified). Accordingly, we do not
separately analyze Norton's state constitutional claims. See id.
15. The State argues that Norton has not preserved his argument
for appeal. We disagree. Norton argues on appeal that the court
erred when it declined to sentence him according to the lowest
tier of the aggravated sexual assault sentencing hierarchy for
Counts 3 and 4 because doing so violated his rights to due
process and a jury trial. He made these same arguments to the
court below, and the court ultimately determined that, given the
evidence, there was no denial of due process or fundamental
fairness by sentencing Norton for committing the underlying
offenses of rape and forcible sexual abuse.

20150302-CA

30

2018 UT App 82

State v. Norton

<|60 Norton is correct that he is entitled to a jury trial on all of
the elements of the crimes for which he is charged and that he
cannot be convicted for the charged crimes unless there is "proof
beyond a reasonable doubt of every fact necessary to constitute"
them. See State v. Palmer, 2009 UT 55,111 & n.17, 220 P.3d 1198
(quotation simplified); State v. Reyes, 2005 UT 33,111, 116 P.3d
305; see also Apprendi v. New Jersey, 530 U.S. 466, 476-77 (2000)
(explaining that the rights to a jury trial and to due process,
"[tjaken together,... indisputably entitle a criminal defendant to
a jury determination that he is guilty of every element of the
crime with which he is charged, beyond a reasonable doubt"
(quotation simplified)). Norton is also correct that these rights
are implicated in sentencing cases "whenever a judge seeks to
impose a sentence that is not solely based on facts reflected in
the jury verdict or admitted by the defendant." Palmer, 2009 UT
55, 112 (quotation simplified). For example, a sentencing court
may not make additional factual findings that ultimately
"expose[] the criminal defendant to a penalty exceeding the
maximum he would receive if punished according to the facts
reflected in the jury verdict alone." Apprendi, 530 U.S. at 483 &
n.10 (quotation simplified); see also id. at 490.
<j[61 Here, although Norton argues that the jury's verdict
reflected convictions beyond a reasonable doubt of two counts of
only attempted16 forcible sexual abuse and that the court erred in
not sentencing him accordingly, we conclude that the court did
not err in sentencing him under the highest tier of the

16. An attempt occurs if a person "engages in conduct
constituting a substantial step toward commission of the crime"
and "intends to commit the crime; or . . . when causing a
particular result is an element of the crime, he acts with an
awareness that his conduct is reasonably certain to cause that
result." Utah Code Ann. § 76-4-101 (LexisNexis 2012).

20150302-CA

31

2018 UT App 82

State v. Norton
aggravated sexual assault statute.17 We must assume that the
jury convicted Norton of the act or acts for which the evidence
was sufficient. See State v. Isom, 2015 UT App 160,1 27, 354 P.3d
791 (stating that a jury must "decide the case on the evidence"
presented about the charged crime (quotation simplified)); see
also United States v. Self, 2 F.3d 1071, 1093 (10th Cir. 1993) (stating
that, in determining whether reversal is necessary when a
general verdict is returned where more than one theory is
advanced, "factual insufficiency" of one of the theories advanced
will not require reversal "as we will presume that the jury
rejected the factually inadequate theory and convicted on an
alternative ground for which the evidence was sufficient");
17. In making his argument, Norton relies heavily on decisions
such as Apprendi v. New Jersey, 530 U.S. 466 (2000), and State v.
Lopes, 1999 UT 24, 980 P.2d 191, in which the respective courts
determined that due process and the right to a jury trial are
violated when a sentencing court finds facts distinct from those
of the convicted crime that increase the allowable penalty for
that crime but have not been proven by the State beyond a
reasonable doubt or submitted to a jury. See Apprendi, 530 U.S. at
476-90; Lopes, 1999 UT 24, H 13-17, 22. However, other than
citing those cases, Norton does not explain how or why that
jurisprudence applies in the circumstances of his case,
particularly where the trial court submitted the elements and the
evidence proffered to support conviction for completed acts of
rape and forcible sexual abuse to the jury for determination.
And, as we discuss below, he does not identify the record
evidence that supports his contention that the jury's verdict
could reflect only convictions of attempted forcible sexual abuse
for those counts. In any event, we ultimately conclude that the
sentencing court did not err when it sentenced Norton under the
highest tier of the aggravated sexual assault sentencing
hierarchy. But in doing so, we express no opinion on whether
the Apprendi and the Lopes lines of cases apply to the
circumstances present here.

20150302-CA

32

2018 UT App 82

State v. Norton
cf. State v. Fedorowicz, 2002 UT 67, f 40,52 P.3d 1194 (noting that,
in reviewing an evidentiary challenge to a verdict, we "assume
that the jury believed the evidence that supports the verdict");
Madsen v. Brown, 701 P.2d 1086,1092 (Utah 1985) (explaining that
a jury's verdict must have "foundation in the evidence" and may
not be "based on evidence so fragmentary that no reasonable
minds could have so concluded"). And we cannot discern from
our review of the record any factual basis—and Norton does not
identify such a factual basis—to support a conclusion that the
jury could have determined that the sexual acts underlying
Counts 3 and 4 constituted only attempted forcible sexual abuse.
See United States v. Barnes, 158 F.3d 662, 667-68 (2d Cir. 1998)
(noting that the evidence of conspiracy to possess marijuana was
legally insufficient and that it was "inconceivable that the jury
could have convicted" on that basis, but assuming that "the jury
convicted the defendant of conspiring to possess at least one of
those controlled substances as to which the evidence was
sufficient"); cf. State v. Peterson, 881 P!2d 965, 968-70 & n.3 (Utah
Ct. App. 1994) (concluding that the defendant was not entitled to
lesser included offense instructions for, among other things,
attempted aggravated burglary, burglary, and criminal trespass,
where the trial court determined that "there was no credible
testimony" contradicting the fact that the defendant actually
entered the residence at issue in the case, and noting that "[i]f
entry occurred, the attempt offenses would logically be
excluded" as appropriate lesser included offenses).
\62 For the conviction pertaining to Count 3, the sexual
intercourse count, there is no evidence in the record to support a
conclusion that the jury's guilty verdict reflected a finding
beyond a reasonable doubt of an underlying aggravated sexual
assault offense other than rape. The trial court instructed the jury
that this count pertained to the "allegation of sexual
intercourse," and it was undisputed at trial that the sexual
intercourse occurred. Both Norton and Wife unequivocally
testified that it did; thus, at trial, the only question for the jury
was whether the intercourse amounted to rape or consensual

20150302-CA

33

2018 UT App 82

State v. Norton
intercourse, not whether Norton attempted but failed to engage
in intercourse with Wife.
163 Other evidence presented during trial also demonstrated
that this count pertained to a completed act of sexual intercourse
as opposed to an act of attempted sexual touching or an
attempted taking of "indecent liberties." See Utah Code Ann.
§76-5-404(1) (LexisNexis 2012) (providing that forcible sexual
abuse involves touching "the anus, buttocks, or any part of the
genitals of another, or touch[ing] the breast of a female, or
otherwise tak[ing] indecent liberties with another" in
circumstances "not amounting to rape ... or attempted rape"
(emphasis added)); id. § 76-5-402(1) (providing that "[a] person
commits rape when the actor has sexual intercourse with
another person without the victim's consent"). For example,
both parties stipulated that the vaginal swabs performed on
Wife after the incident tested positively for semen and that
Norton's DNA was found in that semen. And Norton has not
pointed to any evidence that potentially created any ambiguity
as to the factual question of whether the sexual assault was an
attempted forcible sexual abuse as opposed to a completed rape.
Cf. State v. Barela, 2015 UT 22, H 28-32, 349 P.3d 676 (explaining
that reversal on the basis of erroneous jury instructions was
appropriate where the evidence in the record created some
ambiguity as to whether the defendant might have been
mistaken about the victim's nonconsent); Peterson, 881 P.2d at
968-70 & n.3. As a result, under the circumstances of this case,
"we refuse to indulge the assumption" that the jury's verdict
could have been based on a finding of an underlying aggravated
sexual assault offense other than a completed rape. See Barnes,
158 F.3d at 668. Thus, the sentencing court did not err in
concluding that the jury's verdict on this count reflected a
finding of guilt that Norton completed the act of rape and in
sentencing him accordingly.
164 Likewise, for Count 4, the allegation pertaining to
Norton's penetration of Wife's vagina with his fingers, there is

20150302-CA

34

2018 UT App 82

State v. Norton
no evidence in the record to suggest that the jury's guilty verdict
reflected conviction of an attempted rather than a completed
forcible sexual abuse. The dispute at trial centered on whether
the incident occurred at all not whether the touching was
completed rather than attempted. Wife testified that it did
occur—she claimed that Norton inserted his fingers when he
ordered her to shower and rinse herself off after raping her.
Norton denied it by testifying that Wife voluntarily showered
after the sexual intercourse and that his participation was limited
to turning on the faucet and handing her paper towels with
which to dry off. And other than his denial, there was no
evidence creating ambiguity about the factual question of
whether Norton merely attempted, as opposed to completed, the
alleged abuse. Cf. Barela, 2015 UT 22, f f 28-32; Peterson, 881 P.2d
at 968-70 & n.3.
<[65 As a result, there was no room in the narratives for the
jury to have concluded the truth lay somewhere between the two
accounts. Cf. Barela, 2015 UT 22, If 28-32 (reversing based on an
erroneous jury instruction where there was evidence in the
record that could have permitted the jury to conclude that "the
truth fell somewhere in between the two accounts" provided by
the defendant and the victim during trial). Thus, even though
the jury was free to believe or disbelieve either Wife's or
Norton's account, neither narrative gave the jury a basis from
which to conclude that the sexual abuse on this count was only
an attempt. See Madsen, 701 P.2d at 1092 (explaining that a jury's
verdict must have its "foundation in the evidence"). In these
circumstances, we can conclude only that, by convicting instead
of acquitting Norton on this count, the jury's verdict reflected a
finding of guilt beyond a reasonable doubt on the basis of a
completed act of forcible sexual abuse.18 See Isom, 2015 UT App
160, f 27.
18. Norton also suggests that the lack of a special verdict form
somehow played into the deprivation of his rights. Our supreme
(continued...)
20150302-CA

35

2018 UT App 82

State v. Norton

<[[66 For these reasons, we conclude that the sentencing court
did not err when it determined that the facts reflected in the
jury's verdict amounted to convictions for a completed rape and
completed forcible sexual abuse and thereafter sentenced him
under the highest tier of the aggravated sexual assault
sentencing hierarchy.
B.

Interests of Justice

167 Norton contends that the trial court abused its discretion
by declining to reduce in the interests of justice the presumptive
fifteen years to life sentences for the two counts of aggravated
sexual assault, as permitted by Utah Code section 76-5-405.
Norton argues that the court exceeded its discretion by not
conducting the required interests of justice analysis set out by
our supreme court in LeBeau v. State, 2014 UT 39, 337 P.3d 254.
He asks that we remand the case for a new sentencing hearing,
"with an order that the court conduct a complete interests-ofjustice analysis."

(...continued)
court has recently reiterated that a special verdict form, while
permitted, is not required. State v. Hummel, 2017 UT 19,1 50, 393
P.3d 314. But even if we assume a special verdict form should
have been employed in this case, for the same reasons explained
above, we cannot conclude that Norton was harmed by its
absence. Because there was no basis in the evidence for the jury
to have determined as a factual matter that Norton committed
only attempted forcible sexual abuse on Counts 3 and 4,
employing a special verdict form could not have provided
Norton the relief he now seeks—being sentenced as though he
committed only attempted forcible sexual abuse. See State v.
Isom, 2015 UT App 160,1 27, 354 P.3d 791 (stating that the jury's
duty is to "decide the case on the evidence" through a
"disinterested, impartial and fair assessment of the testimony
that has been presented" (quotation simplified)).

20150302-CA

36

2018 UT App 82

State v. Norton
f68 Generally, "a trial court's sentencing decision will not be
overturned unless it exceeds statutory or constitutional limits,
the judge failed to consider all the legally relevant factors, or the
actions of the judge were so inherently unfair as to constitute
abuse of discretion." State v. Jaramillo, 2016 UT App 70, 1 32, 372
P.3d 34 (quotation simplified). In reviewing the sentence
imposed, we will "presume that the sentencing court made all
the necessary considerations," State v. Alvarez, 2017 UT App 145,
1 4, 402 P.3d 191 (quotation simplified), unless the appellant
successfully demonstrates the presence of circumstances to
overcome that presumption, State v. Helms, 2002 UT 12, *111, 40
P.3d 626 (noting that situations in which this presumption
should not apply "are normally limited to [those] where (1) an
ambiguity of facts makes the assumption unreasonable, (2) a
statute explicitly provides that written findings must be made,
or (3) a prior case states that findings on an issue must be
made"). "Absent these circumstances, we will not assume that
the trial court's silence, by itself, presupposes that the court did
not consider the proper factors as required by law. To do so
would trample on the deference this court usually gives to the
sentencing decisions of a trial court." Id.
%69 Utah Code section 76-5-405 provides that the presumptive
prison sentence for a person convicted for aggravated sexual
assault on the basis of a completed act is fifteen years to life. See
Utah Code Ann. § 76-5-405(2)(a)(i) (LexisNexis 2012). However,
a sentencing court may reduce the presumptive prison term to
either ten years to life or six years to life if it determines that a
"lesser term ... is in the interests of justice." See id. § 76-5405(3)(a). In LeBeau, our supreme court held that the sentencing
court must conduct an interests of justice analysis for offenses
that permit a reduction on that basis before imposing the
presumptive sentence for convictions of certain offenses, like
aggravated sexual assault. 2014 UT 39, H 21, 24; see also id. *1 29
(observing that the legislature added the interests of justice
analysis in 2007 "as part of a sweeping revision of the penalties
associated with sexual offenses and kidnapping," including the

20150302-CA

37

2018 UT App 82

State v. Norton
offense of aggravated sexual assault, and that in each offense, the
legislature "instructed sentencing courts to consider whether the
interests of justice warranted a lesser sentence" than the
presumptive sentence). The interests of justice analysis requires a
sentencing court to consider the proportionality of the sentence
to the offense and the defendant's rehabilitative potential. Id.
137.
170 First, the court must consider "the proportionality of the
defendant's sentence in relation to the severity of his offense." Id.
1f 36-37. In this regard, the court must consider the "gravity of
the offense and the harshness of the penalty." Id. *142 (quotation
simplified). The supreme court has identified the Utah
Sentencing Commission's list of aggravating and mitigating
circumstances as "a good starting point," while instructing that
courts should also "consider all relevant facts raised by the
parties about the defendant's crime in relation to the harshness
of the penalty," such as the nature and magnitude of the crime,
the "culpability of the offender," and the offender's motivation.
Id. ff 42-46. Proportionality also requires the court to "compare
the sentence being imposed to the sentences imposed for other
crimes in Utah" so as to avoid arbitrary sentencing disparities.
Id. 1141,47; see also State v. Martin, 2017 UT 63,161 (stating that
the "ultimate question at this stage... should be whether the
overall sentence that the court plans to impose will be unusually
high or low compared with the typical sentences for
approximately similar offenses"). But see Martin, 2017 UT 63,
1164-66 (explaining that, because this "is a daunting task," it is
not one "that we can require our district courts to perform
without prompting or guidance from counsel").
171 The court must also "appropriately weigh a defendant's
potential for rehabilitation," which includes considering "all of
the factors relevant to a defendant's rehabilitative potential" and
taking into consideration the Board of Pardons and Parole's (the
Board) role in our indeterminate sentencing scheme to monitor a
defendant's behavior and accordingly adjust the maximum

20150302-CA

38

2018 UT App 82

State v. Norton
sentence. LeBeau, 2014 UT 39, H 37, 52, 54. Some factors that
have bearing on a defendant's rehabilitation potential are the
defendant's age, "the extent to which a defendant's crime was
tied to alcohol or drug addiction," "the defendant's prospects for
treatment," "[t]he extent to which a defendant's criminal history
evidences continual violence," and the Sentencing Commission's
guidelines as related to the defendant's "capacity for
rehabilitation." Id. 154.
172 Norton asserts that the court failed to consider both the
proportionality of his sentence and his potential for
rehabilitation. With the above principles in mind, we address
each below.
1.

Proportionality

f73 Norton argues that although the court considered the
severity of his conduct, it did not consider whether the
presumptive sentence was a proportional penalty for both
convictions of aggravated sexual assault. He contends that the
court did not conduct the proportionality analysis required by
LeBeau and instead merely "assumed that [his] conduct merited
a 15-years-to-life sentence and imposed sentence based on its
assessment of whether [he] was entitled to 'mercy.'" He also
contends that, under the circumstances of this case, his
aggravated sexual assault convictions are comparatively less
serious than other crimes, such as murder, which also carry
presumptive prison sentences of fifteen years to life.
174 We conclude that Norton's contentions do not have merit.
To begin with, Norton is correct that the court did not expressly
explain its sentencing decision in terms of the proportionality
rubric set out in LeBeau. But although Norton asked the court to
reduce his sentence in the interests of justice, "he did not invoke
the proportionality rubric in making his argument" for a
reduced sentence. See State v. Alvarez, 2017 UT App 145,1 5, 402
P.3d 191. Instead, Norton referred to subsection (3)(a) but then
proceeded to provide the court only with considerations relating
20150302-CA

39

2018 UT App 82

State v. Norton
to his past and his rehabilitative potential that he claimed
justified a departure from the presumptive sentence. At no time
did Norton invoke the proportionality rubric set out in LeBeau or
object to the court's analysis for failing to explain the sentence it
imposed in those terms. As a result, Norton cannot "now be
heard to argue that the sentencing court was remiss in not
articulating its views on proportionality." See id. H 4-5 & n.4.
175 Moreover, there is no evidence to support Norton's
contention that the court imposed its sentence by merely
assuming that his conduct merited the presumptive sentence,
without taking into account the relevant proportionality
considerations presented by the parties. Rather, it is apparent
from the sentencing transcript that the court, based upon the
information provided to it, did consider whether the
presumptive sentence was a proportional penalty to Norton's
crimes. See LeBeau v. State, 2014 UT 39, H 42, 46, 337 P.3d 254
(explaining that "courts should consider all relevant facts raised
by the parties about the defendant's crime in relation to the
harshness of the penalty," and reiterating that, even under an
interests of justice analysis, "sentencing remains a highly factdependent endeavor" for which there is no "exhaustive list of
factors" (emphasis added)).
176 First, the court indicated it had reviewed the PSI and the
attached letters, which included extensive information regarding
the aggravating and mitigating circumstances in the case as well
as information regarding the violent nature of the aggravated
sexual assaults, Norton's culpability in perpetrating them, and
an ultimate recommendation for the statutory prison sentence on
each count. The court also heard from both parties regarding
their recommended sentence and the reasons for the
recommendations. We presume that the court duly considered
all such information in rendering its sentencing decision. State v.
Helms, 2002 UT 12,111, 40 P.3d 626; accord State v. Moa, 2012 UT
28,135,282 P.3d 985.

20150302-CA

40

2018 UT App 82

State v. Norton

177 Further, the court explained its decision to impose the
presumptive sentence by highlighting the various factors it
recognized to be in play and explaining why it believed Norton's
requested reduction was inappropriate in light of the
circumstances. The court stated that, in its view, the case was
"not a probation case." The court noted that Norton had had a
"good past in many, many ways," with "very little that's
negative," and that it recognized that "a marriage break up is
complicated and difficult." It also recognized that the
convictions resulted from "a concrete discrete event that took
hours and not days." Yet the court explained that it accepted the
jury's verdict, which demonstrated the jury's rejection of
Norton's narrative of the events, and expressed its belief that the
events did not happen at all the way Norton contended. In this
regard, the court observed that Norton's conduct was "way,
way, way over the line" and not of a kind that "our society can
tolerate." The court explained that Norton was "entitled to some
mercy, but not what [his] lawyer is asking and not what [Norton
was] asking." It concluded that in the balance, given the severity
of Norton's conduct and the "great" harm he inflicted, "a 15 to
life term covers it."
178 Norton has not demonstrated this analysis was improper
in light of the information presented to the court for sentencing.
See LeBeau, 2014 UT 39, 1 42 (explaining that a court must
consider all information related to proportionality that is "raised
by the parties"). And to the extent that Norton disagrees with
the court's weighing of the various factors presented to it
regarding proportionality, Norton cannot demonstrate an abuse
of discretion merely by disagreeing with the court's analysis or
arguing on appeal that the court ought to have weighed certain
factors more heavily.19 Alvarez, 2017 UT App 145,15.

19. Norton also asserts that the presumptive sentence was
inappropriate because "the jury rejected [Wife's] testimony that
Norton used a gun," the sexual assaults "did not rise to the level
(continued...)

20150302-CA

41

2018 UT App 82

State v. Norton

179 Norton also contends that the court failed to compare his
sentence with sentences imposed for other similar crimes. But
Norton did not provide the court with comparative information
regarding whether the presumptive sentence would "be
unusually high or low compared with the typical sentences for
approximately similar offenses." State v. Martin, 2017 UT 63,
161. Norton contended during the sentencing hearing that the
"Court has seen some very serious and egregious offenses," and
that "this case does not rise to the level of the kinds of egregious
cases where we have individuals who suffered significant loss of
life or impairment." Other than this imprecise assertion, he did
not request that the court compare the presumptive sentence to
(...continued)
of murder or aggravated sexual abuse of a child," and they did
not "result in serious bodily injury." Contrary to Norton's
assertions, the jury's verdict of aggravated sexual assault
demonstrates that, at least as to the sexual assaults, the jury
found that Norton perpetrated them under aggravating
circumstances, and Norton has not challenged the sufficiency of
the evidence regarding the aggravating factor for either
aggravated sexual assault conviction on appeal. In light of the
presence of an aggravating factor, we also reject Norton's
contention that the court could not impose the presumptive
sentence absent evidence of serious bodily injury. As the
supreme court observed in LeBeau v. State, 2014 UT 39, 337 P.3d
254, in establishing the sentencing scheme for sexual offenses,
the legislature "signaled its judgment that sexual crimes, which
intrude on the fundamental bodily integrity of the victim like no
others short of murder, are serious enough to warrant a sentence
of [life without parole]" and that sexual crimes "represent an
especially heinous form of bodily insult." Id. ‘ff'149-50. Certainly,
it is not beyond the pale for a sentencing court to conclude that
in certain cases a sexual assault perpetrated under aggravating
circumstances merits imposition of the presumptive fifteen years
to life sentence.

20150302-CA

42

2018 UT App 82

State v. Norton

other sentences imposed for similar crimes or provide the court
with any actual comparisons of typical sentences for similar
offenses to assist the court. In these circumstances, we will not
fault the court for failing to conduct a sua sponte review of the
Utah Code to "identify similar offenses" and then "compare
their sentencing schemes to the sentence" it intended to impose
on Norton. See id. 166 (explaining that this is "not a task that we
can require our district courts to perform without prompting or
guidance from counsel"). Nor will we shoulder the burden on
appeal of "scouring the criminal code" in an effort to determine
other sentencing schemes the court "ought to have considered in
assessing the propriety of the sentence it imposed." See id. 165.20
2.

Rehabilitation

q[80 Norton also argues that the sentencing court failed to
consider his potential rehabilitation in imposing the presumptive
prison terms. In particular, he claims that the sentencing court
failed to consider all the relevant factors and the Board's role in
determining his maximum sentence. He also contends that the
court wrongly rejected much of the mitigating evidence.
181 We disagree. Norton has not rebutted the presumption
that the court duly considered all of the information the parties
presented with bearing on his rehabilitative potential. See State v.
Jaramillo, 2016 UT App 70, H 41-42,372 P.3d 34 (presuming that
a court considers the factors presented to it regarding a
defendant's potential for rehabilitation). As discussed above, the

20. Norton also contends that the court inappropriately applied
principles of deterrence to reach its sentencing decision. Norton
did not object on this basis below or suggest to the court that,
when conducting an interest of justice analysis, applying
principles of deterrence is inappropriate. As a result, we
consider this argument waived and do not address it further. See
State v. Johnson, 2017 UT 76,116 n.4.

20150302-CA

43

2018 UT App 82

State v. Norton

court "had the benefit of [the PSI] containing information about
[Norton's] criminal and personal history." See id. 1 42. During
sentencing, the court was also provided further information
regarding Norton's potential for rehabilitation. Norton
contended that his lack of criminal history, his desire to move
forward productively in his life, his age, his acceptance that his
relationship with Wife had ended, his amenability to
supervision, and his desire to be released in "such a time that he
could support his children," all justified a sentence reduction. He
also cited letters submitted in support, which he contended
showed that he had been a contributing community member
before the incident. In contrast, the State contended that
Norton's crimes had been "terrible" and violent, and it
emphasized the fact that Norton had failed to take any
responsibility for his actions and that he continued to maintain
his "bogus" story. Wife's attorney addressed the court and
expressed that, contrary to his contentions, Norton had shown
himself to be unamenable to court supervision by blatantly
defying the protective order that had been in place the night of
the events. Wife also made a statement, reiterating her concern
for her and her family's safety if Norton were ever released and
stating that Norton blames her for his imprisonment and had
lied under oath regarding the events.
182 Further, it is clear from the court's statements during
sentencing that it considered the information the parties
provided that had some bearing on Norton's rehabilitative
potential. The court expressly acknowledged that Norton had a
"good past," that he was well-liked by some people, that it
would be "a long time in prison for someone [Norton's] age,"
and that Norton's crimes all occurred in one "concrete discrete
event." See LeBeau v. State, 2014 UT 39, f 54, 337 P.3d 254 (noting
that a sentencing court should "consider all relevant factors
when evaluating the defendant's rehabilitative potential,"
including a defendant's age and criminal history). But the court
also expressed concern over Norton's failure to take
responsibility for his actions. The court explained that "one of

20150302-CA

44

2018 UT App 82

State v. Norton
the real difficulties here ... is [Norton's] inability and
unwillingness to follow the truth" related to the events. The
court stated that it accepted the jury's verdict, and that in its
opinion, the events did not happen "at all the way [Norton said]
they happened." Likewise, the court expressed concern over the
extreme nature of Norton's crimes.
183 To the extent that Norton argues that the court did not
consider other relevant factors, such as the Board's role in our
indeterminate sentencing scheme, Norton did not specifically
raise the factors cited by LeBeau as relevant to rehabilitative
potential, request the court to conduct a rehabilitative potential
analysis, or raise the Board's role as a pertinent consideration.
Indeed, the only mention of the Board throughout the sentencing
hearing was made by the court, when it informed Norton that
the Board would give him credit for the time he had already
served and that it would handle collecting any restitution. As we
explained above, we will not require a court to sua sponte
consider factors on which Norton provided no information or
did not raise for consideration. See Martin, 2017 UT 63, H 64-66;
State v. Alvarez, 2017 UT App 145, H 4-5 & n.4,402 P.3d 191.
184 Norton's other contentions on this point amount to
disagreement with how the court weighed certain factors.
Norton contends that the court failed to consider the mitigating
evidence he offered and that the court ought to have weighed
more heavily his age, his lack of criminal history, his
employment skills, his desire to move forward with his life, the
emotional devastation his divorce caused him, his acceptance of
the divorce, and the fact that this amounted to one criminal
episode with one victim.
185 But merely re-arguing certain factors on appeal and
contending the court failed to appropriately weigh them is
insufficient to demonstrate an abuse of discretion. Alvarez, 2017
UT App 145, 1 6. Moreover, the sentencing court is entitled to
weigh some factors more heavily than others. State v. Cline, 2017

20150302-CA

45

2018 UT App 82

State v. Norton

UT App 50, f 7, 397 P.3d 652 (explaining that "not all
aggravating and mitigating factors are equally important"
because "one factor in mitigation or aggravation may weigh
more than several factors on the opposite scale" (quotation
simplified)). Here, the court was entitled to weigh the extreme
and violent nature of the sexual assaults as well as Norton's
failure to take responsibility for them more heavily than other
factors offered in mitigation. See State v. Martin, 2017 UT 63,
M 70-71 (concluding that it was not an abuse of discretion for
the sentencing court to impose a sentence reflective of the fact
that the defendant failed "to take responsibility and express
remorse" post-conviction for the crimes of which he was
convicted, because this failure "cast serious doubt on [the
defendant's] rehabilitative potential"); LeBeau, 2014 UT 39,
*0 49-50 (suggesting that sexual crimes "intrude on the
fundamental bodily integrity of the victim like no others short of
murder" and that sexual crimes "represent an especially heinous
form of bodily insult").
186 In sum, we conclude that the sentencing court did not
exceed its discretion by not reducing Norton's sentence as
requested in the interests of justice.
IV. Cumulative Error
187 Norton finally contends that we should reverse under the
cumulative error doctrine. See State v. White, 2016 UT App 241,
114, 391 P.3d 311 (explaining that we will reverse under the
cumulative error doctrine "only if the cumulative effect of
multiple errors undermines our confidence that a fair trial was
had" (quotation simplified)). But we have concluded that any
potential error in the instructions related to the aggravated
sexual assault counts was not harmful, that the court did not err
in declining to give the requested lesser included offense
instructions, and that the sentencing court did not err or abuse
its discretion in imposing the presumptive fifteen-years-to-life
sentence for both counts of aggravated sexual assault.

20150302-CA

46

2018 UT App 82

State v. Norton
Accordingly, we decline to reverse on the basis of cumulative
error.
CONCLUSION
^88 For the foregoing reasons, we affirm Norton's convictions
and the sentence imposed on him.

i

20150302-CA

47

2018 UT App 82

CERTIFICATE OF MAILING

I hereby certify that on the 3rd day of May, 2018, a true and correct copy of the attached
OPINION was sent by standard or electronic mail to be delivered to:

SEAN D. REYES
ATTORNEY GENERAL
CHRISTOPHER D. BALLARD
ASSISTANT SOLICITOR GENERAL
cballard@agutah.gov
criminalappeals@utcourts.gov
LORIJ. SEPPI
SALT LAKE LEGAL DEFENDER ASSOCIATION
lseppi@sllda.com
appeals@sllda.com
HONORABLE BRUCE C. LUBECK
THIRD DISTRICT, WEST JORDAN
THIRD DISTRICT, WEST JORDAN
ATTN: STEPHANIE SHERIFF/ALYSON SLACK
stephs@utcourts.gov; alysons@utcourts.gov

s

/n

Judicial Secretary

TRIAL COURT: THIRD DISTRICT, WEST JORDAN, 131400015
APPEALS CASE NO.: 20150302-CA

